AUDIT OF DEPARTMENT OF JUSTICE’S
         KEY INDICATORS

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 08-18
              March 2008
                    AUDIT OF DEPARTMENT OF JUSTICE’S
                             KEY INDICATORS

                               EXECUTIVE SUMMARY

      Integrating budget and performance has been an important
government initiative to ensure “that performance is routinely considered in
funding and management decisions, and that programs achieve expected
results and work toward continual improvement.”1 To measure
performance, federal agencies develop long-term strategic plans to provide
the President, Congress, and the public an overview of the challenges
agencies face and their goals and objectives for meeting these challenges.

       This review examined the Department of Justice's (DOJ) Strategic Plan
for Fiscal Years (FY) 2003-2008. That plan included four strategic goals:
(1) Prevent Terrorism and Promote the Nation's Security; (2) Enforce
Federal Laws and Represent the Rights and Interests of the American
People; (3) Assist State, Local, and Tribal Efforts to Prevent or Reduce Crime
and Violence; and (4) Ensure the Fair and Efficient Operation of the Federal
Justice System.2

      The strategic goals are broken down into specific long-term outcome
goals that state what DOJ hopes to achieve in the future. The outcome
goals represent the activities that are considered DOJ’s highest priorities.

      Key indicators are used to measure annual progress toward achieving
these outcome goals. Figure 1 illustrates the relationship between strategic
goals, outcome goals, and key indicators.


       1
          U.S. Office of Management and Budget, The Federal Government is
Results-Oriented: A Report to Federal Employees, August 2004, which summarizes how the
federal government is focusing on results, the role of the President’s Management Agenda,
and the key to future success. The integration of budget and performance was previously
addressed in the Government Performance and Results Act (GPRA) of 1993 and the Reports
Consolidation Act of 2000, and is also addressed in the guidance on implementation in the
Office of Management and Budget (OMB) Circulars A-11 and A-136. This guidance is
discussed further in Appendix II.
       2
          Due to the timing of our audit work and the review’s scope, this report discusses
the Department’s FY 2003-2008 Strategic Plan. In 2007, the Department issued a Strategic
Plan for FY 2007-2012, which includes three broad strategic goals: (1) Prevent Terrorism
and Promote the Nation’s Security; (2) Prevent Crime, Enforce Federal Laws, and Represent
the Rights and Interests of the American People; and (3) Ensure Fair and Efficient
Administration of Justice. The three goals encompass some of the same outcome goals and
key indicators that were contained in the previous plan’s four Strategic Goals.


                                           -i-
FIGURE 1: RELATIONSHIPS BETWEEN STRATEGIC GOALS, OUTCOME
          GOALS, AND KEY INDICATORS

                                  Strategic Goals
                               DOJ's commitments and
                                   ongoing focus




                                   Outcome Goals
                                     5-year goals
                                  representing DOJ's
                                   highest priorities




                                  Key Indicators
                                Measure annual status
                                  toward achieving
                                   outcome goals



Source: Justice Management Division management and U.S. Department of Justice
        Strategic Plan for Fiscal Years 2003-2008

      The Office of the Inspector General (OIG) conducted this audit at the
request of the Department to determine whether DOJ’s data collection,
storage and validation processes, and data limitations reported for its key
indicators were complete and accurate.

       According to officials in the Department’s Justice Management
Division (JMD), in order to ensure confidence in DOJ reporting, the
Department needs to provide the most accurate data available. Additionally,
components must include all key indicators and their performance data in
their annual budget requests, which can affect budget and management
decisions. The key indicator information is also presented in the annual
Budget and Performance Summary to demonstrate DOJ achievements and
plans for future accomplishments. Key indicator reporting also enables more
accurate assessment and monitoring of any agency’s efforts to achieve
outcome goals and strategic success. Further, accurate reporting assists
DOJ in identifying areas in need of improvement and increased focus.

      In cases when a key indicator target is not achieved, JMD officials
explained that the affected DOJ component may meet with the Assistant




                                        - ii -
Attorney General for Administration to discuss the program performance and
the corrective actions necessary to achieve that target in the future.

Key Indicator Reporting

      As mentioned previously, the Department’s key indicators are included
in DOJ’s annual Budget and Performance Summary, which accompanies the
President’s budget. Each fiscal year, key indicator performance data is also
reported in the Performance and Accountability Report (PAR), which
consolidates Department financial and performance information into a single
report.

       For each key indicator, the PAR includes a discussion of the data
collection and storage processes, data validation and verification processes,
and any data limitations. In addition to reporting key indicator performance
data, the PAR includes narrative sections describing whether the key
indicator target was achieved and progress toward the outcome goals.3 If
key indicator performance data for a fiscal year is incomplete in that year’s
PAR, revised data can be included in the next calendar year’s Budget and
Performance Summary and in the subsequent PAR.

Department of Justice Guidance

      Annually, JMD Budget Staff assists in developing and revising the DOJ
Financial Statement Requirements and Preparation Guide. According to the
FY 2006 version of this guide, reporting by the components begins in May
when they provide a draft of their Management Discussion and Analysis
(MD&A) to JMD. The MD&As are revised until the final drafts are submitted
to JMD in October. The certified final MD&As include the actual performance
data and a discussion of performance for the fiscal year. JMD extracts the
information provided in the components’ MD&As to prepare DOJ’s PAR. JMD
does not generally adjust the information provided in the components’
MD&As, as the PAR is considered a consolidation of the components’ MD&As.

      The PAR must be submitted to the President, Congress, and the Office
of Management and Budget (OMB) 45 days after the September 30 fiscal
year end.

Recent Guidance

       In November 2007, the President issued Executive Order 13450,
entitled “Improving Government Program Performance.” This order requires

     3
         For a sample key indicator narrative, see Appendix V.


                                          - iii -
federal agencies to establish measurable and clearly defined performance
goals. This order places additional emphasis on the importance of key
indicators and the quality of data used to report on those indicators, since
those indicators will be the foundation for each agency to measure
accomplishment of its goals and assist in its budgeting process.

Audit Approach

      The purpose of our audit was to determine whether each key indicator
we examined met the following criteria: (1) data collection and storage
processes were complete and accurate, (2) data validation and verification
processes were complete and accurate, and (3) data limitations provided by
the agency were complete and accurate. Our audit did not assess whether
the key indicators were the best measures to evaluate progress on achieving
DOJ’s goals.

      Our audit covered the FY 2006 PAR, which included 28 DOJ key
indicators. We did not conduct audit work on seven key indicators that were
either discontinued or were long-term measures still in the process of
developing a baseline at the time of our audit.4

     We conducted our audit work at JMD and 17 DOJ components. These
components were responsible for reporting on the 21 audited key indicators,
which are listed by strategic goal in Table 1.




       4
        See Appendix III for a comprehensive list of all 28 key indicators included in the
FY 2006 PAR and Appendix IV for background information on these key indicators.



                                           - iv -
TABLE 1:       DOJ KEY INDICATORS INCLUDED IN THE AUDIT
                  KEY INDICATORS LISTED BY STRATEGIC GOAL                 COMPONENT
 Strategic Goal I: Prevent Terrorism and Promote the Nation’s Security
  Terrorist Acts Committed by Foreign Nationals Against U.S. Interests   FBI
  within U.S. Borders
 Strategic Goal II: Enforce Federal Laws and Represent the Rights and Interests
 of the American People
  Number of Organized Criminal Enterprises Dismantled                    FBI
  Number of Child Pornography Websites or Web Hosts Shut Down            FBI
  Consolidated Priority Organization Target-Linked Drug Trafficking      FBI, DEA,
  Organizations Disrupted and Dismantled                                 OCDETF
  Number of Top-Ten Internet Fraud Targets Neutralized                   FBI
  Number of Criminal Enterprises Engaging in White-Collar Crimes         FBI
  Dismantled
  Percent of Cases Favorably Resolved                                    EOUSA and
                                                                         Litigating
                                                                         Divisions5
  Percent of Assets/Funds Returned to Creditors for Chapter 7 and        USTP
  Chapter 13
 Strategic Goal III: Assist State, Local, and Tribal Efforts to Prevent or Reduce
 Crime and Violence
  Reduction of Homicides per Site Funded Under the Weed and Seed         OJP
  Program
  Percent Reduction in DNA Backlog                                       OJP
  Number of Participants in the Residential Substance Abuse Treatment    OJP
  Program
  Increase in the Graduation Rate of Drug Court Program Participants     OJP
 Strategic Goal IV: Ensure the Fair and Efficient Operation of the Federal Justice
 System
  Number of Judicial Proceedings Interrupted Due to Inadequate Security  USMS
  Federal Fugitives Cleared or Apprehended                               USMS
  Per-Day Jail Costs                                                     OFDT
  System-wide Crowding in Federal Prisons                                BOP
  Escapes from Secure Bureau of Prisons Facilities                       BOP
  Comparative Recidivism Rates for Federal Prison Industries Inmates     BOP, FPI
  versus Non-Federal Prison Industries Inmates
  Rate of Assaults in Federal Prisons (Assaults per 5,000 Inmates)       BOP
  Inspection Results – Percent of Federal Facilities with American       BOP
  Correctional Association Accreditations
  Percent of Executive Office for Immigration Review Priority Cases      EOIR
  Completed Within Established Time Frames
Source: U.S. Department of Justice FY 2006 Performance and Accountability Report, Part I:
        Management’s Discussion and Analysis and Part II: FY 2006 Performance Report




       5
          The following six litigating divisions are included in this indicator: Antitrust, Civil,
Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions. Throughout
this report we use the term “litigating divisions” to refer to these six divisions. The key
indicator data for the Executive Office for U.S. Attorneys (EOUSA) and the litigating
divisions is consolidated by JMD Budget Staff.


                                               -v-
      In conducting our audit, we reviewed current laws, regulations,
guidelines, and policies to examine key indicator reporting requirements with
which federal agencies must comply. These requirements are detailed in
Appendix II.

       Our fieldwork consisted of interviewing component personnel;
reviewing relevant policies and procedures; and assessing processes related
to data collection, storage, validation, and verification. We also discussed
applicable data limitations with component personnel. In addition, we
verified the performance data reported in the FY 2006 PAR and 2008 Budget
and Performance Summary.

      Our fieldwork was conducted concurrent with DOJ components’
preparation of the MD&As for the FY 2007 PAR, which was issued in
November 2007. Due to the timing of our audit, we discussed our
preliminary audit results with DOJ components and JMD officials before the
PAR was completed. This process was important to ensure that components
were able to implement revisions to the FY 2007 MD&As, which were used to
compile the FY 2007 PAR. Delayed presentation to the components of the
issues and deficiencies identified in our audit would have resulted in the
reporting of inaccurate and incomplete information in the DOJ’s FY 2007
PAR. As a result, as part of this audit we analyzed the FY 2007 PAR, which
was modified in response to our preliminary findings, and due to our audit
work, we are including the components’ revisions throughout this report.6

Results in Brief

       Our audit concluded that DOJ components reporting on 12 of the
21 DOJ key indicators audited had: (1) adequate data collection and storage
processes, (2) sufficient data validation and verification processes, and
(3) complete and accurate disclosure of data limitations. However, we
identified the following deficiencies and issues related to the remaining 9 of
the 21 key indicators: (1) the data collection processes, which could, and in
some cases did, result in under- or over-reporting; (2) incomplete and
inaccurate data; (3) the scope of the data collected by some of the
components was incomplete; (4) the scope of the data presented in the
FY 2006 PAR for some key indicators was inaccurate; (5) some detailed
information in the FY 2006 PAR did not directly illustrate what the title
described; and (6) some key indicators did not disclose data limitations and
other information that needed to be disclosed in the PAR.
      6
          Our review of the FY 2007 PAR and any changes that were made as a result of our
audit are discussed in detail in the Findings and Recommendations section of this report,
which is organized by the four strategic goals reported in the DOJ’s Strategic Plan for
FY 2003-2008.


                                          - vi -
      Overall, we found that component management had implemented a
variety of different processes to review and validate the MD&As prior to
providing them to JMD for compilation in the PAR. However, the deficiencies
and issues identified in 9 of the 21 key indicators suggest that the review
and validation processes were not sufficiently effective to ensure accurate
and complete performance data and an accurate presentation of the
performance information in the MD&As and the PAR. In our opinion,
components need to improve their validation processes by verifying the
accuracy of MD&A narratives covering the key indicators and the supporting
information necessary to ensure the accuracy of the key indicator
performance data. Further, components should communicate to staff the
need for accuracy of the key indicator information presented in the MD&A for
PAR reporting.

      Although we recognize that JMD officials cannot currently verify or
adjust information provided by the components, we believe that JMD should
expand its role to improve the accuracy of the key indicator performance
data reported in the components’ MD&As, which are subsequently compiled
for the PAR. To accomplish this, through a formal policy JMD should require
the necessary supporting information from components to authenticate the
accuracy of the key indicator performance data.

       Our report contains 12 recommendations that focus on specific steps
that JMD and the components should take to improve the: (1) data
collection and storage processes, (2) data validation and verification
processes, and (3) data limitation disclosures for the DOJ’s key indicators.

      We discuss the specific deficiencies we found in nine of the key
indicators in the following section.

Summary of OIG Findings

      Our audit identified specific deficiencies and issues related to the
following nine key indicators.

Number of Child Pornography Websites or Web Hosts Shut Down - FBI

       This key indicator identifies the number of child pornography websites
and web hosts shut down and is measured by the Innocent Images National
Initiative, a component of the FBI’s Cyber Crimes Program. In performing
its mission, the Innocent Images National Initiative is involved in issuing
subpoenas to web hosting companies and Internet service providers to
obtain subscriber information in order to investigate who developed the


                                     - vii -
website and who is responsible for it. The service of a subpoena does not in
and of itself result in a website shutdown. However, according to the FBI,
upon receiving a subpoena web hosting companies and Internet service
providers will routinely shut down the website because the subpoena notifies
them of an ongoing investigation of sexual exploitation of children and they
do not want this material on their servers. The FBI explained that the
service of a subpoena is how the FBI determines the number of websites and
web hosts shut down. FBI officials explained that they do not have data to
comprehensively count the total number of websites shut down through its
interventions with Internet service providers.

       We determined that this key indicator is not fully accurate since the
FBI has no direct technical role in shutting down websites. This indicator
measures the number of child pornography websites and web hosts shut
down, while the FBI captures this data by counting the number of subpoenas
served. As a result, this key indicator does not reflect the work and
activities of the FBI.

Number of Top-Ten Internet Fraud Targets Neutralized - FBI7

       This key indicator measured the number of top-ten Internet fraud
targets neutralized. Neutralization occurs when the fraud targets are unable
to perpetuate their frauds any further. According to the FY 2006 PAR, “The
FBI and the National White Collar Crime Center partnered in May 2000 to
support the Internet Crime Complaint Center (IC3).” The IC3 collects
Internet fraud complaints through its website and refers Internet fraud cases
to FBI field offices and state and local law enforcement agencies. To identify
neutralization information and report on this indicator, the IC3 searches the
Internet, liaisons with the field offices, and also depends on FBI field offices
and state and local law enforcement agencies to provide neutralization
information. However, FBI field offices and state and local law enforcement
agencies have the discretion to decide whether referrals are used to open
cases and pursue investigations. Additionally, we found that no
requirements exist regarding the use of the referred case information or for
FBI field offices and state and local law enforcement agencies to report back
to IC3 regarding neutralizations that were a result of the IC3’s referred
cases information. As a result, the IC3 may not receive feedback from FBI
field offices and state and local law enforcement agencies and cannot assure
the accuracy of neutralization information for this key indicator.


      7
         In the FY 2006 PAR examined by our audit, the key indicator was titled, “Number
of Top-Ten Internet Fraud Targets Neutralized.” However, the key indicator was revised in
the 2008 Budget and Performance Summary to the “Number of High-Impact Internet Fraud
Targets Neutralized.”


                                         - viii -
Percent of Cases Favorably Resolved – EOUSA and the Litigating Divisions

       This key indicator measures the percent of civil and criminal cases
favorably resolved, which includes cases resulting in court judgments and
settlements favorable to the government. EOUSA and the DOJ litigating
divisions are responsible for representing the U.S. government in federal
court. At the time of our audit, EOUSA and each of the six litigating
divisions included in this indicator maintained separate and unrelated case
management systems. We found that EOUSA and the litigating divisions are
using two different dates to report on the percentage of cases favorably
resolved – the case disposition date and the system date. The disposition
date is the date that the disposition or decision occurred. The system date
is the date the disposition is entered into the case management system.
Consequently, using two different dates for the data runs provides
inconsistent results. We brought this condition to the attention of
management at both EOUSA and the litigating divisions during the course of
our audit. Subsequently, EOUSA and the litigating divisions took action to
address the condition in the FY 2007 PAR by disclosing the different dates
that are used to collect the data for this key indicator.

        Additionally, we found that the Civil Rights Division included cases in
the data provided to JMD that should not have been reported. The data
definition section of the PAR states, “The data set includes non-appellate
litigation cases closed during the fiscal year.” However, the Civil Rights
Division included appellate cases in the information provided to JMD. As a
result, the percentage of civil cases favorably resolved was understated and
the percentage of criminal cases favorably resolved was overstated.

       Finally, we found that in some instances the U.S. Attorneys Offices and
the litigating divisions are reporting the same case to JMD. As a result,
duplicate cases are included in the data consolidated by JMD for this key
indicator. During the course of our audit, we brought this issue to the
attention of management at both EOUSA and the litigating divisions.
Subsequently, EOUSA and the litigating divisions took action to address the
issue in the FY 2007 PAR by disclosing that cases worked on by more than
one component continue to be duplicated in the totals for this indicator and
will continue to be duplicated until the litigation case management system
(a single shared case management system for EOUSA and the litigating
divisions) is fully implemented.




                                     - ix -
Percent of Assets/Funds Returned to Creditors for Chapter 7 and
Chapter 13 - USTP

       This key indicator measures the percent of assets and funds returned
to creditors for bankruptcies filed under Chapter 7 and Chapter 13. In
Chapter 7 bankruptcy proceedings, assets that are not exempt from
creditors are liquidated. For Chapter 13, debtors repay a portion or all of
their debt over 3 to 5 years. According to the FY 2006 PAR, “The
U.S. Trustee Program was established nationwide . . . .” However, we found
that U.S. Trustees are not in all 50 states in the United States. Specifically,
in Alabama and North Carolina bankruptcy cases are still administered by
the courts. This issue was brought to the attention of the Executive Office
for U.S. Trustees (EOUST) management during the course of our audit.
Subsequently, EOUST corrected this issue in the FY 2007 PAR by disclosing
the two states not included in this key indicator.

Reduction of Homicides Per Site Funded Under the Weed and Seed
Program - OJP

      This key indicator measures the reduction of homicides per site funded
under the Weed and Seed Program and the average number of homicides
per Weed and Seed site. The OJP Community Capacity Development Office
(CCDO) is responsible for the Weed and Seed Program. The CCDO collects
the Weed and Seed data and uses the assistance provided by the Justice
Research and Statistics Association (JRSA) to analyze the data. We found
that the CCDO did not accurately represent the time periods covered by the
data presented in the FY 2006 PAR. We reviewed the summary reports
provided by the JRSA and did not find any discrepancies with the number of
homicides per Weed and Seed site that were reported for FYs 2004 and
2005. However, these reports used data from the FYs 2004 and 2005
Government Performance and Results Act (GPRA) Reports, which included
data covering calendar years 2003 and 2004. Therefore, the data presented
in the FY 2006 PAR does not cover FYs 2004 and 2005 but instead covers
calendar years 2003 and 2004.

       Additionally, using the summary reports we did not find any
discrepancies with the 17.8 percent reduction of homicides per site funded
under the Weed and Seed Program reported for FY 2005 in the FY 2006 PAR.
However, we found that the data sets used to report on the number of
homicides per Weed and Seed site included data from all reporting sites
irrespective of whether reporting occurred in previous years. Therefore, the
data sets used were not comparable from one year to the next because
different grantees were included in each data set. In order to calculate the



                                     -x-
reduction, a data set that is limited to sites with data for both years should
be used.

      We discussed and identified additional data limitations for this key
indicator with CCDO and JRSA personnel. Our primary concern was that the
Weed and Seed grants have 5-year designations. Therefore, grantees may
be at a different phase in their program depending upon the number of
years they have been receiving grant funds. Additionally, grantees do not
begin the 5-year designation at the same time. Therefore, the scope of the
data changes each year as new grantees are added and other grantees
reach the end of their 5-year designation. Finally, CCDO and JRSA
personnel informed us that not all Weed and Seed sites are comparable.
Some of the differences include population demographics and population
size. Therefore, the data for this key indicator is difficult to compare across
years and among sites. During the course of our audit, we brought these
issues to the attention of CCDO management. Subsequently, CCDO took
action to address the condition in the FY 2007 PAR by disclosing the
additional data limitation.

Number of Participants in the Residential Substance Abuse Treatment
Program – OJP

       This key indicator measures the number of participants served by the
Residential Substance Abuse Treatment (RSAT) grant program, which funds
treatment activities focusing on substance abuse, including treatment in a
residential treatment facility operated by state correctional agencies. The
OJP’s Bureau of Justice Assistance (BJA) requires annual RSAT Reports that
collect information regarding the grantee’s previous fiscal year. However,
the scope of each grantee’s fiscal year may be the federal government fiscal
year, the calendar year, or the state’s fiscal year. As a result, the key
indicator data reported by the grantees, when compiled, includes various
data scopes.

      Additionally, in the FY 2006 PAR the BJA reported 35,350 RSAT
program participants for 2005. Using the spreadsheet provided by the BJA,
BJA pointed out that for 2005 it should have reported a total of 31,740 RSAT
program participants. Therefore, the number of RSAT program participants
was overstated by 3,610 participants or 10.21 percent. We discussed this
issue with BJA management during the course of our audit. Subsequently,
BJA addressed the issue in the FY 2007 PAR by disclosing the error and
reporting the correct number of RSAT participants for 2005.

       Finally, in the FY 2006 PAR, the BJA disclosed the following data
limitation, “Statutorily mandated calendar year reporting requirement.”


                                     - xi -
However, the data is presented as “FY 2005 Actual” data in the PAR and as
mentioned previously, we found that the data is reported based on the
grantee’s fiscal year, which represents various time periods that are neither
exclusively federal fiscal year nor calendar year data. Therefore, the data
limitation and the scope of the data presented in the PAR are contradictory.
We brought this issue to the attention of BJA management during the course
of our audit. Subsequently, BJA took action to address the issue in the
FY 2007 PAR by disclosing that the performance data is collected according
to the grantee’s fiscal year and the scope of the fiscal year may not be the
same for all grantees.

Increase in the Graduation Rate of Drug Court Program Participants - OJP

       This key indicator measures the increase in the graduation rate of drug
court program participants. The drug court program combines substance
abuse treatment, sanctions, and incentives with case processing to assign
eligible defendants a treatment provider with educational resources and
programs. We found that the 31.9 percent graduation rate of drug court
participants reported for FY 2006 in the FY 2006 PAR does not encompass an
entire fiscal year. Instead, it represents January through June of FY 2006.
Therefore, the drug court graduation percentage reported in the FY 2006
PAR is inaccurate because it represents 6 months instead of a 12-month
period. Further, this may affect the 13.8 percent increase in the graduation
rate reported in the FY 2006 PAR.

      We also found that the BJA did not present the accurate scope of the
performance data in the FY 2006 PAR. Specifically, we found that the data
reported in the FY 2006 PAR is presented as fiscal year data. However, we
found that the data actually represents the state’s fiscal year data under the
data collection methodologies described by the BJA. During the course of
our audit, we brought this issue and the previous issue to the attention of
BJA management. Subsequently, BJA took action to address these issues in
the FY 2007 PAR by disclosing its processes to collect data for a consecutive
12-month period, disclosing the scope of that 12-month period, and
presenting the accurate scope of its performance data.

       Finally, JMD uses the DOJ components’ MD&A to draft the PAR and is
responsible for generating the bar graphs in the PAR. We found that the bar
graph for this key indicator in the FY 2006 PAR is titled, “Increase in the
Graduation Rate of Drug Court Program Participants,” but the bar graph
displays the graduation percent, not the graduation percent increase. The
current bar graph compares the graduation rates over several years and
illustrates the 31.9 graduation percent instead of the actual 13.8 percent
increase from year to year. We brought this issue to the attention of JMD


                                    - xii -
management during the course of our audit. Subsequently, JMD took action
to address the issue in the FY 2007 PAR by revising the title of the bar
graph.

Comparative Recidivism Rates for FPI Inmates versus Non-FPI
Inmates - FPI, BOP

       This key indicator compares recidivism rates of inmates who
participated in the Federal Prison Industry (FPI) and inmates who did not
participate at 3 years and 6 years after release from a secure facility. For
this key indicator, recidivated cases are individuals who are arrested and
returned to the legal system. We identified two additional data limitations
that were not disclosed in the FY 2006 PAR.

       First, we found that Vermont, Maine, and Washington, D.C., are not
participating in the FBI’s Interstate Identification Index (III). Therefore, if a
BOP-released inmate was arrested in any of these jurisdictions, it may not
be reported in the FBI’s III. Specifically, if the inmate was returned to a
BOP facility, SENTRY would capture this data. However, if the inmate was
returned to a state or local facility in one of these jurisdictions, the FBI’s III
would not capture this data. As a result, this information would not be
reported and included within the BOP's statistical model that generates the
results reported in the PAR. Additionally, BOP personnel explained that for
the same reason the following states may be under-represented in the
recidivism data: New Jersey, North Carolina, Oregon, Florida, Kentucky,
Hawaii, Maine, and Idaho.

      Second, according to BOP personnel, a data lag can occur between the
time an inmate is arrested and when the information is entered into the
state’s record management system or into SENTRY. This limitation may
cause the results reported in the PAR to be under- or over-reported. We
determined that this data limitation was also not disclosed in the FY 2006
PAR.

Rate of Assaults in Federal Prisons (Assaults per 5,000 Inmates) - BOP

      This key indicator measures the rate of assaults in federal prisons per
5,000 inmates. For this key indicator, assaults include “inmate on inmate”
and “inmate on staff,” and both serious and less serious assaults. In the
FY 2006 PAR, the BOP reported the FY 2006 rate of assaults per 5,000
inmates as 119. Using the “Inmate Assessment for Acts of Misconduct
Report” provided by BOP personnel, we found that for FY 2006 the BOP
should have reported 116 as the rate of assaults per 5,000 inmates. As a



                                      - xiii -
result, we found that the BOP overstated the rate of assaults by
2.76 percent.

      The specific deficiencies and issues are discussed in detail in the
Findings and Recommendations section of this report, organized by the four
strategic goals reported in the DOJ’s Strategic Plan for FY 2003-2008.
Detailed information regarding our audit objectives, scope, and methodology
appears in Appendix I.




                                   - xiv -
                     AUDIT OF DEPARTMENT OF JUSTICE’S
                              KEY INDICATORS

                                  TABLE OF CONTENTS

INTRODUCTION .................................................................................. 1

       Recent Guidance......................................................................... 3
       Background................................................................................ 3
       Department of Justice Guidance .................................................... 4
       Audit Approach ........................................................................... 5

FINDINGS AND RECOMMENDATIONS ................................................... 11

I.     STRATEGIC GOAL I: PREVENT TERRORISM AND PROMOTE THE
       NATION’S SECURITY ................................................................. 11

       Terrorist Acts Committed by Foreign Nationals Against U.S.
       Interests within U.S. Borders – FBI.............................................. 11
             Data Collection and Storage ............................................... 11
             Data Validation and Verification .......................................... 12
             Key Indicator Data Comparison .......................................... 12
             Disclosure of Data Limitations ............................................ 12

II.    STRATEGIC GOAL II: ENFORCE FEDERAL LAWS AND REPRESENT THE
       RIGHTS AND INTERESTS OF THE AMERICAN PEOPLE ..................... 13

       Number of Organized Criminal Enterprises Dismantled - FBI ........... 14
           Data Collection and Storage ............................................... 14
           Data Validation and Verification .......................................... 14
           Key Indicator Data Comparison .......................................... 15
           Disclosure of Data Limitations ............................................ 15

       Number of Child Pornography Websites or Web Hosts Shut
       Down - FBI .............................................................................. 15
           Data Collection and Storage ............................................... 16
           Data Validation and Verification .......................................... 17
           Key Indicator Data Comparison .......................................... 17
           Disclosure of Data Limitations ............................................ 17
           Recommendation.............................................................. 18
Consolidated Priority Organization Target-Linked Drug Trafficking
Organizations Disrupted and Dismantled - FBI, DEA, OCDETF.......... 18
     Data Collection and Storage ............................................... 19
     Data Validation and Verification .......................................... 21
     Key Indicator Data Comparison .......................................... 22
     Disclosure of Data Limitations ............................................ 22

Number of Top-Ten Internet Fraud Targets Neutralized - FBI .......... 22
    Data Collection and Storage ............................................... 23
    Data Validation and Verification .......................................... 25
    Key Indicator Data Comparison .......................................... 25
    Disclosure of Data Limitations ............................................ 26
    Recommendation.............................................................. 26

Number of Criminal Enterprises Engaging in White-Collar Crimes
Dismantled – FBI ...................................................................... 26
     Data Collection and Storage ............................................... 26
     Data Validation and Verification .......................................... 27
     Key Indicator Data Comparison .......................................... 27
     Disclosure of Data Limitations ............................................ 27

Percent of Cases Favorably Resolved – EOUSA and the Litigating
Divisions.................................................................................. 28
      Data Collection and Storage ............................................... 28
      Data Validation and Verification .......................................... 31
      Key Indicator Data Comparison .......................................... 32
      Disclosure of Data Limitations ............................................ 33
      Recommendation.............................................................. 33

Percent of Assets/Funds Returned to Creditors for Chapter 7 and
Chapter 13 – USTP.................................................................... 33
     Data Collection and Storage ............................................... 34
     Data Validation and Verification .......................................... 35
     Key Indicator Data Comparison .......................................... 36
     Disclosure of Data Limitations ............................................ 36
III.   STRATEGIC GOAL III: ASSIST STATE, LOCAL, AND TRIBAL EFFORTS
       TO PREVENT OR REDUCE CRIME AND VIOLENCE ........................... 37

       Reduction of Homicides Per Site Funded Under the Weed and
       Seed Program – OJP.................................................................. 38
            Data Collection and Storage ............................................... 38
            Data Validation and Verification .......................................... 39
            Key Indicator Data Comparison .......................................... 40
            Disclosure of Data Limitations ............................................ 40
            Recommendations ............................................................ 41

       Percent Reduction in DNA Backlog – OJP ...................................... 42
            Data Collection and Storage ............................................... 42
            Data Validation and Verification .......................................... 43
            Key Indicator Data Comparison .......................................... 43
            Disclosure of Data Limitations ............................................ 43

       Number of Participants in the Residential Substance Abuse
       Treatment Program – OJP .......................................................... 43
            Data Collection and Storage ............................................... 44
            Data Validation and Verification .......................................... 45
            Key Indicator Data Comparison .......................................... 45
            Disclosure of Data Limitations ............................................ 47
            Recommendations ............................................................ 47

       Increase in the Graduation Rate of Drug Court Program
       Participants - OJP...................................................................... 48
              Data Collection and Storage ............................................... 48
              Data Validation and Verification .......................................... 50
              Key Indicator Data Comparison .......................................... 51
              Disclosure of Data Limitations ............................................ 52

IV.    STRATEGIC GOAL IV: ENSURE THE FAIR AND EFFICIENT OPERATION
       OF THE FEDERAL JUSTICE SYSTEM.............................................. 53

       Number of Judicial Proceedings Interrupted Due to Inadequate
       Security – USMS ....................................................................... 53
             Data Collection and Storage ............................................... 54
             Data Validation and Verification .......................................... 54
             Key Indicator Data Comparison .......................................... 54
             Disclosure of Data Limitations ............................................ 55
Federal Fugitives Cleared or Apprehended – USMS ........................ 55
     Data Collection and Storage ............................................... 55
     Data Validation and Verification .......................................... 55
     Key Indicator Data Comparison .......................................... 56
     Disclosure of Data Limitations ............................................ 56

Per-Day Jail Costs – OFDT.......................................................... 56
     Data Collection and Storage ............................................... 57
     Data Validation and Verification .......................................... 57
     Key Indicator Data Comparison .......................................... 58
     Disclosure of Data Limitations ............................................ 58

System-wide Crowding in Federal Prisons – BOP ........................... 58
     Data Collection and Storage ............................................... 58
     Data Validation and Verification .......................................... 59
     Key Indicator Data Comparison .......................................... 59
     Disclosure of Data Limitations ............................................ 59

Escapes from Secure BOP Facilities – BOP .................................... 59
     Data Collection and Storage ............................................... 59
     Data Validation and Verification .......................................... 60
     Key Indicator Data Comparison .......................................... 60
     Disclosure of Data Limitations ............................................ 61

Comparative Recidivism Rates for FPI Inmates versus Non-FPI
Inmates – FPI, BOP ................................................................... 61
     Data Collection and Storage ............................................... 61
     Data Validation and Verification .......................................... 62
     Key Indicator Data Comparison .......................................... 63
     Disclosure of Data Limitations ............................................ 63
     Recommendations ............................................................ 64

Rate of Assaults in Federal Prisons (Assaults per 5,000
Inmates) - BOP ........................................................................ 64
      Data Collection and Storage ............................................... 65
      Data Validation and Verification .......................................... 66
      Key Indicator Data Comparison .......................................... 66
      Disclosure of Data Limitations ............................................ 67
      Recommendation.............................................................. 67

Inspection Results – Percent of Federal Facilities with American
Correctional Association Accreditations – BOP ............................... 68
     Key Indicator Data Comparison .......................................... 68
     Disclosure of Data Limitations ............................................ 68
       Percent of Executive Office for Immigration Review Priority Cases
       Completed Within Established Time Frames – EOIR ....................... 69
            Data Collection and Storage ............................................... 69
            Data Validation and Verification .......................................... 70
            Key Indicator Data Comparison .......................................... 70
            Disclosure of Data Limitations ............................................ 71

V.     CONCLUSION ........................................................................... 72
           Recommendations ............................................................ 72

SUMMARY OF RECOMMENDATIONS ..................................................... 74

STATEMENT ON INTERNAL CONTROLS ................................................. 76

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 78

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....................... 79

APPENDIX II - LAWS AND REGULATIONS.............................................. 81

APPENDIX III - COMPREHENSIVE LIST OF DOJ KEY INDICATORS IN
     THE FY 2006 PAR ...................................................................... 84

APPENDIX IV - DOJ KEY INDICATORS .................................................. 86

APPENDIX V - FY 2006 KEY INDICATOR NARRATIVE SAMPLE................... 95

APPENDIX VI - ACRONYMS ................................................................. 96

APPENDIX VII - FBI RESPONSE TO THE DRAFT REPORT.......................... 97

APPENDIX VIII - DEA RESPONSE TO THE DRAFT REPORT ......................101

APPENDIX IX - EOUSA RESPONSE TO THE DRAFT REPORT .....................103

APPENDIX X - ANTITRUST DIVISION RESPONSE TO THE DRAFT
     REPORT ..................................................................................105

APPENDIX XI - CIVIL DIVISION RESPONSE TO THE DRAFT REPORT ........106

APPENDIX XII - CIVIL RIGHTS DIVISION RESPONSE TO THE DRAFT
     REPORT ..................................................................................107
APPENDIX XIII - CRIMINAL DIVISION RESPONSE TO THE DRAFT
     REPORT ..................................................................................109

APPENDIX XIV - ENVIRONMENT AND NATURAL RESOURCE DIVISION
     RESPONSE TO THE DRAFT REPORT.............................................110

APPENDIX XV - TAX DIVISION RESPONSE TO THE DRAFT REPORT ..........111

APPENDIX XVI - EOUST RESPONSE TO THE DRAFT REPORT ...................112

APPENDIX XVII - OJP RESPONSE TO THE DRAFT REPORT ......................114

APPENDIX XVIII - OFDT RESPONSE TO THE DRAFT REPORT ...................117

APPENDIX XIX - BOP RESPONSE TO THE DRAFT REPORT .......................118

APPENDIX XX - JMD RESPONSE TO THE DRAFT REPORT ........................121

APPENDIX XXI - ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
     CLOSE THE REPORT .................................................................122
                                       INTRODUCTION

      Integrating budget and performance has been an important
government initiative to ensure “that performance is routinely considered in
funding and management decisions, and that programs achieve expected
results and work toward continual improvement.”1 Over the years, the
integration of budget and performance has been addressed in the
Government Performance and Results Act (GPRA) of 1993, the Reports
Consolidation Act of 2000, and is also addressed in the implementation
guidance in the Office of Management and Budget (OMB) Circulars A-11 and
A-136.2 In order to measure performance, federal agencies develop
long-term strategic plans to provide the President, Congress, and the public
an overview of their goals and objectives and the problems and challenges
they face.3

      The Department of Justice's (DOJ) current Strategic Plan identifies
three general strategic goals.4 However, due to the timing of our audit work
and our audit scope, this report discusses the FYs 2003-2008 Strategic Plan,
which identified the following four strategic goals:

   I.        Prevent Terrorism and Promote the Nation's Security

   II.       Enforce Federal Laws and Represent the Rights and Interests
             of the American People

   III. Assist State, Local, and Tribal Efforts to Prevent or Reduce Crime
        and Violence

   IV. Ensure the Fair and Efficient Operation of the Federal Justice System




         1
         U.S. Office of Management and Budget, The Federal Government is
Results-Oriented: A Report to Federal Employees, August 2004, which summarizes how the
federal government is focusing on results, the role of the President’s Management Agenda,
and the key to future success.
         2
             This guidance is discussed further in Appendix II.
         3
             All federal agencies are required by GPRA to develop a 5-year Strategic Plan.
         4
         The current three strategic goals from the DOJ Strategic Plan for FYs 2007-2012
are: (1) Prevent Terrorism and Promote the Nation’s Security; (2) Prevent Crime, Enforce
Federal Laws, and Represent the Rights and Interests of the American People; and
(3) Ensure Fair and Efficient Administration of Justice.



                                               -1–
      According to OMB Circular A-11, Section 210, Preparing and
Submitting a Strategic Plan, a strategic goal is a statement of aim or
purpose that defines how an agency will carry out a major segment of its
mission over a period of time. Strategic goals are used to group multiple
long-term program outcome goals that identify what DOJ hopes to achieve
several years into the future. Outcome goals, which represent the activities
that are considered DOJ’s highest priorities, are measured annually by key
indicators.

      For example, within Strategic Goal II, one outcome goal is to “Shut
Down a Cumulative Total of 1,850 Child Pornography Websites or Web
Hosts.” The Federal Bureau of Investigation’s (FBI) key indicator measuring
the annual progress towards achieving this outcome goal is the “Number of
Child Pornography Websites and Web Hosts Shut Down.”

      Figure 1 illustrates the relationship between strategic goals, outcome
goals, and key indicators.

FIGURE 1: RELATIONSHIPS BETWEEN STRATEGIC GOALS, OUTCOME
          GOALS, AND KEY INDICATORS

                                  Strategic Goals
                               DOJ's commitments and
                                   ongoing focus




                                  Outcome Goals
                                    5-year goals
                                 representing DOJ's
                                  highest priorities




                                  Key Indicators
                                Measure annual status
                                  toward achieving
                                   outcome goals


Source: Justice Management Division management and U.S. Department of Justice
        Strategic Plan for Fiscal Years 2003-2008




                                        -2-
Recent Guidance

      In November 2007, the President issued Executive Order 13450,
Improving Government Program Performance, which details the need for
performance goals that are measurable and clearly defined. Specifically, in
addition to several other requirements, the Order directs agency heads to
establish clear annual and long-term goals defined by objectively
measurable outcomes and plans for achieving them.

       Additionally, the Order states that the head of each agency assists in
making budget and appropriation recommendations to Congress that are
justified based on objective performance information. Finally, the Order
discusses the establishment of Performance Improvement Officers who will
supervise the performance management activities.

      In our judgment, Executive Order 13450 places additional emphasis on
the importance of key indicators and the quality of data used to report on
these indicators, since those indicators are the foundation for agencies to
measure how well they accomplish their goals and assist in their budgeting
processes.

Background

      During our audit, Justice Management Division (JMD) officials stated
that key indicators are the best representation of DOJ’s current activities,
objectives, and direction for the future. Further, key indicators demonstrate
progress toward achieving outcome-oriented goals. DOJ components and
JMD work together to select key indicators that best represent a
measurement of DOJ’s activities. Each key indicator must be approved by
DOJ management and the OMB.

      Key indicator performance information is published in the components’
annual budget requests within the Budget and Performance Summary. This
information discusses DOJ achievements and plans for future
accomplishments. Additionally, this information can be used for budget and
management decisions. Therefore, accuracy is essential in key indicator
reporting. JMD officials stated that to ensure confidence in DOJ reporting,
the Department must provide the most accurate data available.

      JMD officials also stated that when a key indicator target is not
achieved, the DOJ component may meet with the Assistant Attorney General
for Administration to discuss the program performance and the actions
necessary to achieve that target in the future.



                                     -3-
      Key indicators are part of DOJ’s annual Budget and Performance
Summary, which accompanies the President's Budget. In addition, at the
close of each fiscal year, key indicator performance data is reported in the
Department’s Performance and Accountability Report (PAR), which
consolidates financial and performance information into a single report.

       The PAR includes a discussion on the data collection and storage
processes, data validation and verification processes, and any data
limitations for each key indicator. The PAR also reports key indicator
performance data for the reporting period and includes narrative sections
describing whether the key indicator target was achieved and progress
toward achieving the outcome goals.5 If key indicator performance data for
the fiscal year is incomplete in that year’s PAR, revised data can be included
in the next calendar year’s Budget and Performance Summary and the
subsequent PAR.

Department of Justice Guidance

      Annually, JMD Budget Staff assist in developing and revising the DOJ
Financial Statement Requirements and Preparation Guide. Chapter 4 of the
FY 2006 version of this guide provides specific information on the
Management Discussion and Analysis (MD&A) that the components submit to
JMD. That chapter contains the key indicator requirements that must be
included in the MD&A and lists the key indicators that each component is
responsible for reporting.

       Reporting by the components begins in May of each year when they
provide a draft MD&A to JMD. Revisions can be made to the MD&As until the
final drafts are submitted to JMD in October. Then the actual performance
data and a discussion of performance for the fiscal year are added. JMD
extracts the information provided in the components’ final draft MD&As and
certified final MD&As to prepare DOJ’s PAR. The PAR consolidates the
components’ MD&As, so JMD does not generally adjust the information
provided by the components in their MD&As.

      The PAR must be submitted to the President, Congress, and the Office
of Management and Budget (OMB) 45 days after the September 30 fiscal
year end. The draft PAR should be provided to OMB 10 working days before
the due date for review and clearance. The established timeline for DOJ’s
reporting process is illustrated in Figure 2.




      5
          For a sample key indicator narrative, see Appendix V.


                                           -4-
FIGURE 2: DOJ KEY INDICATOR REPORTING PROCESS TIMELINE

                    DOJ Key Indicator Reporting Process

                                Components' Final         Components'
                                Draft MD&As are           Certified Final Draft
                                due to JMD -              MD&As are due to
                                Information               JMD - The Final MD&A
                                contained in the          should include the
                                components' MD&As         actual performance
                                are consolidated          data for the fiscal
 Components'
                                into DOJ's MD&A for       year and a discussion
 Formatted Draft
                                the PAR                   of performance
 MD&As are due to
 JMD




   May       June   July   August   September   October    November December      January   February    March       April




                             End of Fiscal   PAR is due to OMB      PAR is submitted to     Budget and
                             Year            for review and         the President,          Performance
                                             clearance              Congress, and OMB       Summary released -
                                                                                            Opportunity to
                                                                                            update previous
                                                                                            fiscal year
                                                                                            performance data
                                                                                            and final opportunity
                                                                                            to update the current
                                                                                            fiscal year targets




Source: DOJ Financial Statement Requirements and Preparation Guide, August 2006; OMB
        Circular A-136; OMB Circular A-11; and JMD management

Audit Approach

      The objectives of our audit were to determine whether each key
indicator met the following criteria: (1) data collection and storage
processes were complete and accurate, (2) data validation and verification
processes were complete and accurate, and (3) data limitations provided by
the agency were complete and accurate. Our audit did not assess whether
the key indicators were the best measures to assess progress on achieving
DOJ’s goals.

      Our audit scope included the FY 2006 PAR, which contained 28 DOJ
key indicators. Additionally, the audit scope included the revisions made to
the performance data reported in the FY 2006 PAR, which are disclosed in
the 2008 Budget and Performance Summary. Our audit scope did not




                                                   -5-
include seven key indicators that were either discontinued or long-term
measures still in process of developing a baseline at the time of our audit.6

       Our audit work was conducted at JMD and the 17 DOJ components
responsible for reporting on 21 key indicators. These key indicators are
listed in Table 1, categorized by the four strategic goals reported in the
DOJ’s Strategic Plan for FYs 2003-2008.




       6
        See Appendix III for a comprehensive list of all 28 key indicators included in the
FY 2006 PAR and Appendix IV for background information on these key indicators.



                                           -6-
TABLE 1:       DOJ KEY INDICATORS INCLUDED IN THE AUDIT SCOPE
                    KEY INDICATORS LISTED BY STRATEGIC GOAL                  COMPONENT
 Strategic Goal I: Prevent Terrorism and Promote the Nation’s Security
   Terrorist Acts Committed by Foreign Nationals Against U.S. Interests      FBI
   within U.S. Borders
 Strategic Goal II: Enforce Federal Laws and Represent the rights and Interests of
 the American People
   Number of Organized Criminal Enterprises Dismantled                       FBI
   Number of Child Pornography Websites or Web Hosts Shut Down               FBI
   Consolidated Priority Organization Target-Linked Drug Trafficking         FBI, DEA,
   Organizations Disrupted and Dismantled                                    OCDETF
   Number of Top-Ten Internet Fraud Targets Neutralized                      FBI
   Number of Criminal Enterprises Engaging in White-Collar Crimes            FBI
   Dismantled
   Percent of Cases Favorably Resolved                                       EOUSA and
                                                                             Litigating
                                                                             Divisions7
   Percent of Assets/Funds Returned to Creditors for Chapter 7 and Chapter   USTP
   13
 Strategic Goal III: Assist State, Local, and Tribal Efforts to Prevent or Reduce Crime
 and Violence
   Reduction of Homicides per Site Funded Under the Weed and Seed            OJP
   Program
   Percent Reduction in DNA Backlog                                          OJP
   Number of Participants in the Residential Substance Abuse Treatment       OJP
   Program
   Increase in the Graduation Rate of Drug Court Program Participants        OJP
 Strategic Goal IV: Ensure the Fair and Efficient Operation of the Federal Justice
 System
   Number of Judicial Proceedings Interrupted Due to Inadequate Security     USMS
   Federal Fugitives Cleared or Apprehended                                  USMS
   Per-Day Jail Costs                                                        OFDT
   System-wide Crowding in Federal Prisons                                   BOP
   Escapes from Secure Bureau of Prisons Facilities                          BOP
   Comparative Recidivism Rates for Federal Prison Industries Inmates        BOP, FPI
   versus Non-Federal Prison Industries Inmates
   Rate of Assaults in Federal Prisons (Assaults per 5,000 Inmates)          BOP
   Inspection Results – Percent of Federal Facilities with American          BOP
   Correctional Association Accreditations
   Percent of Executive Office for Immigration Review Priority Cases         EOIR
   Completed Within Established Time Frames
Source: U.S. Department of Justice FY 2006 Performance and Accountability Report, Part I:
        Management’s Discussion and Analysis and Part II: FY 2006 Performance Report

     As part of our audit, we reviewed current laws, regulations, guidelines,
and policies in order to understand the key indicator reporting requirements

       7
          The following six litigating divisions are included in this indicator: Antitrust, Civil,
Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions. Throughout
this report we use the term “litigating divisions” to refer to these six divisions. The key
indicator data for the Executive Office for U.S. Attorneys (EOUSA) and the litigating
divisions is consolidated by JMD Budget Staff.


                                               -7-
with which federal agencies must comply. Our fieldwork consisted of
interviewing component personnel; reviewing relevant policies and
procedures; reviewing processes related to data collection, storage,
validation, and verification; and discussing applicable data limitations with
component personnel. Additionally, we verified the performance data
reported in the FY 2006 PAR and the 2008 Budget and Performance
Summary.

       Our fieldwork was conducted while DOJ components were preparing
the MD&As for the FY 2007 PAR, which was issued in November 2007. Due
to the timing of this audit, we communicated our preliminary audit results to
DOJ components and JMD officials before the PAR was completed. This
process was important to ensure that components were able to implement
revisions to the FY 2007 MD&As, which were used to compile the FY 2007
PAR, in response to our preliminary findings. Delayed presentation to the
components of the issues and deficiencies identified in our audit would have
resulted in the Department’s reporting of inaccurate and incomplete
information in the DOJ’s FY 2007 PAR. As a result, as part of this audit we
analyzed the FY 2007 PAR, which was modified in response to our
preliminary findings, and we are including the components’ revisions
throughout this report.8

       We determined that 12 key indicators out of the original 21 had no
definitive problems. Therefore, we made no recommendations regarding
those key indicators. We identified deficiencies and issues related to 9 of the
21 key indicators included in our audit. These deficiencies and issues related
to: (1) the data collection processes, which could, and in some cases did,
result in under- or over-reporting; (2) incomplete and inaccurate data;
(3) the scope of the data collected by some of the components was
incomplete; (4) the scope of the data presented in the FY 2006 PAR for
some key indicators was inaccurate; (5) detailed information in the
FY 2006 PAR that did not directly illustrate what the title described; and
(6) some key indicators did not fully disclose data limitations and other
information that needed to be disclosed in the PAR.

       Generally, we found that component management had implemented a
variety of processes to review and validate the MD&As prior to providing
them to JMD for compilation in the PAR. Yet, the deficiencies and issues
identified in 9 of the 21 key indicators suggest that the review and validation
processes were not sufficiently effective to ensure accurate and complete
performance data and an accurate presentation of the performance

      8
          Our review of the FY 2007 PAR and any changes that were made as a result of our
audit are discussed in detail in the Findings and Recommendations section of this report.


                                          -8-
information in the MD&As and the PAR. In our opinion, component
management should enhance validation processes by verifying the accuracy
of MD&A narratives covering the key indicators and the supporting
information necessary to ensure the accuracy of the key indicator
performance data. In addition, components should communicate to staff the
need for accuracy of the key indicator information presented in the MD&A for
PAR reporting.

      Furthermore, while we recognize that JMD officials cannot currently
verify or adjust information provided by the components, we believe that
JMD should expand its role to emphasize improved accuracy of the key
indicator performance data reported in the components’ MD&As, which are
subsequently compiled for the PAR. To accomplish this, we believe that
through formal policy JMD should require the necessary supporting
information from the components to authenticate the accuracy of the key
indicator performance data.

      The deficiencies and issues identified in 9 of the 21 audited key
indicators are discussed in detail in the Findings and Recommendations
section of this report, organized by the 4 strategic goals reported in the
DOJ’s Strategic Plan for FY 2003-2008. Detailed information regarding our
audit objectives, scope, and methodology appears in Appendix I.




                                   -9-
This page left intentionally blank.




           - 10 -
                  FINDINGS AND RECOMMENDATIONS

I.    STRATEGIC GOAL I: PREVENT TERRORISM AND PROMOTE THE
      NATION’S SECURITY

      Strategic Goal I consists of a single key indicator “Terrorist Acts
      Committed by Foreign Nationals Against U.S. Interests within
      U.S. Borders.” Our audit determined that the data collection, storage,
      validation, and verification processes performed by the FBI for this key
      indicator were adequate. We did not identify any issues with these
      processes, and we did not identify any data limitations beyond those
      already disclosed.

      The September 11 terrorist attacks led to the development of this
strategic goal. According to the FY 2003-2008 Strategic Plan for the
U.S. Department of Justice, “The Department of Justice’s approach to
protecting the U.S. from terrorism is three-pronged, focusing on the
prevention of terrorist acts; the investigation and prosecution of those who
have committed, or intend to commit, terrorist acts in the United States;
and combating espionage against the United States by strengthening
counterintelligence capabilities.”

     We discuss our review of the key indicator related to this strategic goal
below.

Terrorist Acts Committed by Foreign Nationals Against U.S. Interests
within U.S. Borders – FBI

      This key indicator is measured by the FBI and assesses the number of
terrorist acts committed by foreign nationals against U.S. interests within
U.S. borders. The FBI is responsible for coordinating counterterrorism
investigations. For the purposes of this indicator, “The FBI defines a
terrorist act as an attack against a single target. A terrorist incident may
consist of multiple terrorist acts.”

Data Collection and Storage

      We did not identify any issues with the FBI’s data collection and
storage processes for this key indicator. The number of terrorist acts
committed by foreign nationals against U.S. interests is compiled by the FBI
Counterterrorism Division. When a terrorist act is committed, an electronic
communication is provided to FBI management from the Counterterrorism
Division. Since these terrorist acts are infrequent occurrences, a database
system is not necessary. The electronic communications are maintained as


                                    - 11 -
the source documents to report the number of occurrences in the PAR and
are stored on a secure FBI computer with access controls.

Data Validation and Verification

       We did not identify any issues with the FBI’s data validation and
verification processes for this key indicator. The electronic communications
regarding terrorist acts and incidents are reviewed by multiple levels of FBI
management.

Key Indicator Data Comparison

      Since the last reported terrorist act was committed in FY 2002, we
reviewed the electronic communication supporting that occurrence. We
discussed the zero terrorist acts committed for FY 2006 with the FBI. Based
on our discussion, we did not find any discrepancies with the performance
data reported for this key indicator for FY 2006.

Disclosure of Data Limitations

      The FY 2006 PAR disclosed the following data limitations, “The decision
to count or discount an incident as a terrorist act is subject to change based
upon the latest available intelligence information and the opinion of program
managers. In addition, acts of terrorism, by their nature, are impossible to
reduce to uniform, reliable measures. A single defined act of terrorism could
range from a small-scale explosion that causes property damage to the use
of a weapon of mass destruction that causes thousands of deaths and has a
profound effect on national morale.” During our audit, we did not identify
any data limitations beyond those already disclosed in the FY 2006 PAR for
this key indicator.




                                    - 12 -
II.   STRATEGIC GOAL II: ENFORCE FEDERAL LAWS AND
      REPRESENT THE RIGHTS AND INTERESTS OF THE AMERICAN
      PEOPLE

      Strategic Goal II consists of 10 key indicators, of which 7 were
      included in our audit scope. We did not find any discrepancies with
      three of the seven key indicators. Specifically, for the key indicators
      relating to organized criminal enterprises, Consolidated Priority
      Organization Target-links, and white-collar crime criminal enterprises
      we determined that the data collection, storage, validation, and
      verification processes for these key indicators were adequate and did
      not identify any data limitations beyond those already disclosed.

      For the key indicator “Number of Child Pornography Websites or Web
      Hosts Shut Down,” we concluded that the indicator only indirectly
      demonstrates the work performed by the FBI.

      For the key indicator “Number of Top-Ten Internet Fraud Targets
      Neutralized,” data collection relies on FBI field offices and state and
      local law enforcement agencies to provide the information. However,
      the FBI field offices and state and local law enforcement agencies are
      not required to report this information, which may cause
      under-reporting.

      For the key indicator “Percent of Cases Favorably Resolved,” we found
      that the Executive Office for U.S. Attorneys (EOUSA) and the litigating
      divisions used two different methodologies to generate the data for the
      FY 2006 PAR, included duplicate cases in the data consolidated by
      JMD, and included appellate cases despite the FY 2006 PAR disclosure
      that the data set included “non-appellate cases.”

      For the key indicator “Percent of Assets/Funds Returned to Creditors
      for Chapter 7 and Chapter 13,” we found that the U.S. Trustees did not
      disclose that bankruptcy cases are not administered by the
      U.S. Trustees in all 50 states.

        Strategic Goal II encompasses several broad issues, including reducing
the threat, incidence and prevalence of violent crime and criminals, including
crimes against children; reducing the threat, trafficking, use, and related
violence of illegal drugs; combating white collar crime, economic crime, and
cyber crime; and targeting threats to the U.S. Constitution and individuals’
civil rights.




                                    - 13 -
      We describe below each of the seven key indicators we reviewed
related to this strategic goal.

Number of Organized Criminal Enterprises Dismantled - FBI

       This key indicator is measured by the FBI and determines the number
of organized criminal enterprises dismantled. Criminal enterprise
investigations “target the entire entity responsible for the crime problem.”
Dismantlement is defined in the PAR as “destroying the targeted
organization's leadership, financial base, and supply network such that the
organization is incapable of operating and reconstituting itself.” The FBI
uses its Integrated Statistical Reporting and Analysis Application (ISRAA) to
collect data for this indicator.

Data Collection and Storage

      We did not identify any issues with the FBI’s data collection and
storage processes for this key indicator. The field agents complete an FBI
Accomplishment Report, Form FD-515, to report a statistical
accomplishment, which includes dismantlements. The FD-515 is approved
by an FBI supervisor and administrative personnel enter the information into
the ISRAA. According to Section 3 of the FBI’s Manual of Administrative and
Operational Procedures, revised July 2007, “The accomplishments described
in the FD-515 should be reported and uploaded in the ISRAA within 30 days
from the date of occurrence.” The ISRAA has controls that restrict and limit
access to specific data in the system. During our audit, we visited the FBI’s
Denver Field Office and observed how data is entered into the ISRAA and
system controls that help ensure valid and accurate data.

Data Validation and Verification

       We did not identify any issues with the FBI’s data validation and
verification processes for this key indicator. After the dismantlement is
entered into the ISRAA, weekly queries are run by FBI headquarters
personnel to identify new dismantlement statistics. The dismantlements are
reviewed and either approved or denied. FBI headquarters’ approval is
documented within the ISRAA and a report can be generated to verify that
all of the information recorded in the ISRAA is accurate. The information in
the ISRAA is also validated by the annual Resource Management Information
System Audits that are conducted by FBI field offices. In addition, the FBI
Inspection Division conducts field office inspections on a rotating 3-year
basis, which review compliance with policies and procedures and the
accuracy of case files.



                                    - 14 -
Key Indicator Data Comparison

      In order to verify the number of organized criminal enterprises
dismantled reported for FY 2006 in the 2008 Budget and Performance
Summary, we reviewed the FBI’s ISRAA Report.9 Based on our review, we
did not identify any discrepancies with the performance data reported for
this key indicator for FY 2006.

Disclosure of Data Limitations

       The FY 2006 PAR disclosed the following data limitations, “FBI field
personnel are required to enter accomplishment data within 30 days of the
accomplishment or a change in the status of an accomplishment, such as
those resulting from appeals. Data from this report are compiled less than
30 days after the end of the fiscal year, and thus may not fully represent the
accomplishments during the reporting period. FY 2005 data subject to this
limitation were revised during FY 2006.” During our audit, we did not
identify any additional data limitations for this key indicator.

Number of Child Pornography Websites or Web Hosts Shut
Down - FBI

       This key indicator is measured by the FBI’s Cyber Crimes Program and
assesses the number of child pornography websites and web hosts shut
down. In the FY 2006 PAR, the FBI explained that the mission of the
Innocent Images National Initiative (IINI), a component of the FBI’s Cyber
Crimes Program, is to “identify, investigate, and prosecute sexual predators
who use the Internet and other online services to sexually exploit children;
identify and rescue child victims; and establish a law enforcement presence
on the Internet as a deterrent to subjects who seek to exploit children.” In
performing its mission, the IINI issues subpoenas to web hosting companies
and Internet service providers to obtain subscriber records regarding the
requested website, IP address, screen name, e-mail address, and customer
information in association with an ongoing investigation.10




      9
         We reviewed the number of organized criminal enterprises dismantled reported in
the 2008 Budget and Performance Summary, instead of the number reported in the FY 2006
PAR because the FBI revised the number of dismantlements during FY 2006 based on
complete information and reported the revision in the 2008 Budget and Performance
Summary.
      10
          These users may engage in child pornography through operating websites or
using e-groups, file servers, and peer-to-peer networks.


                                        - 15 -
      FBI officials explained that the FBI has no direct technical role in
shutting down the websites. The FBI administers the subpoenas to the web
hosting companies and Internet service providers to obtain subscriber
information in order to investigate who made the website and who is
responsible for it. The subpoena says that the request is “in support of an
ongoing sexual exploitation of children investigation.” However, the service
of a subpoena does not require the termination of a website. According to
the FBI, as a matter of routine, the web hosting companies and Internet
service providers will shut down the website upon receiving the subpoena
because they do not want this material on their servers.

       We believe this key indicator is not fully accurate. It measures the
number of website shut downs, while the FBI captures this data by counting
the number of subpoenas served. According to FBI officials, the FBI does
not have data to comprehensively count the total number of websites shut
down through its interventions with Internet service providers. As
previously mentioned, serving a subpoena does not require or necessarily
result in the termination of a website. Therefore, this key indicator does not
reflect the work and activities of the FBI. We recommend that the FBI revise
this key indicator to accurately measure its role and activities.

Data Collection and Storage

       As mentioned previously, the FBI’s work does not address this key
indicator because its role is to issue subpoenas, which does not necessarily
result in a website shutdown. However, in relation to the FBI’s role of
issuing subpoenas in investigations of ongoing sexual exploitation of
children, we did not identify any issues with the FBI’s data collection or
storage processes for this key indicator. Quarterly, FBI personnel e-mail a
request to each of the 56 FBI field offices, the IINI Unit, and the off-site IINI
Unit. The request is for the following information: (1) number of e-group
take downs, (2) number of peer-to-peer subjects convicted, (3) number of
file servers shut down, and (4) number of miscellaneous websites and online
organizations that meet the definition of a website or web host. The FBI
field offices, the IINI Unit, and the off-site IINI Unit retrieve this information
from their case files and determine the number of subpoenas served for
each of these categories.

       IINI personnel compile the information from the 58 respondents in a
spreadsheet that documents each field office’s and unit’s responses to the
data call. The spreadsheets are used to update the spreadsheet for the
fiscal year, which provides the support for the information reported in the
annual PAR. According to IINI personnel, all of the e-mail responses are
electronically stored and the hard copies of the spreadsheets are stored in a


                                      - 16 -
secure area. Additionally, IINI personnel stated that there is a single data
handler after the data is received from the point of contacts, which assists in
the safekeeping and consistency of the data.

Data Validation and Verification

       Again, the FBI’s work does not address this key indicator because its
role is to issue subpoenas, which does not necessarily result in a website
shut down. However, in relation to the FBI’s role of issuing subpoenas in
investigations of ongoing sexual exploitation of children, we did not identify
any issues with the FBI’s data validation and verification processes for this
key indicator. The designated point of contact for the field office provides
the quarterly information to IINI personnel. The data is reviewed by IINI
personnel, who perform the data handling and are familiar with the offices’
and units’ responses. According to FBI personnel, the data from the
responses is copied from the e-mails onto the spreadsheet to avoid keying
errors. The IINI requests that case numbers be provided with the
responses, which allows IINI personnel to verify that cases are categorized
correctly, meet the category’s criteria, and to identify duplicates.

Key Indicator Data Comparison

      In order to verify the number of child pornography websites or web
hosts shut down that were reported for FY 2006 in the FY 2006 PAR, we
reviewed the FBI IINI consolidated spreadsheets, which track the number of
subpoenas served. Based on our review and in relation to the FBI’s role of
issuing subpoenas in investigations of ongoing sexual exploitation of
children, we did not find any discrepancies with the performance data
reported for this key indicator for FY 2006.

Disclosure of Data Limitations

       The FY 2006 PAR disclosed the following data limitations, “Data for this
report are compiled less than 30 days after the end of the fiscal year, and
thus may not fully represent the accomplishments during the reporting
period. Information based upon reporting of locates and convictions are
necessary for compilation of some of these statistics.” As mentioned
previously, the FBI’s work does not address this key indicator because its
role is to issue subpoenas, which does not necessarily result in the
termination of a suspect website. In relation to the FBI’s role of issuing
subpoenas in investigations of ongoing sexual exploitation of children, we did
not identify any additional data limitations.




                                    - 17 -
Recommendation

We recommend that the FBI:

1.    Revise the key indicator “Number of Child Pornography Websites or
      Web Hosts Shut Down,” to accurately measure the FBI’s role and
      activities.

Consolidated Priority Organization Target-Linked Drug Trafficking
Organizations Disrupted and Dismantled - FBI, DEA, OCDETF

       This key indicator determines the number of disruptions and
dismantlements of significant drug trafficking organizations that are linked to
a Consolidated Priority Organization Target (CPOT). The Drug Enforcement
Administration (DEA), FBI, and the Organized Crime Drug Enforcement Task
Forces (OCDETF) work collectively to measure this indicator. OCDETF is a
multi-agency drug enforcement program operated by the Department with
participation by ATF, DEA, FBI, Criminal Division, Tax Division, Immigration
and Customs Enforcement, Internal Revenue Service, USMS, U.S. Coast
Guard, and the 93 U.S. Attorneys offices. The mission of OCDETF is to
coordinate federal, state, and local law enforcement agencies in order to
identify, disrupt, and dismantle the most serious drug trafficking and money
laundering organizations.

      OCDETF oversees the development of the Attorney General’s annual
CPOT List, which is a multi-agency list of the international “command and
control” elements of the most significant drug trafficking and money
laundering organizations responsible for the nation’s drug supply. OCDETF
investigations can be sponsored by any of the OCDETF member agencies. At
the conclusion of our field work, only the DEA and FBI have reported on this
measure.

      The goal of OCDETF, in relation to the CPOT List, is to attack
organizations with connections to a CPOT target, thus disrupting the drug
market with the goal of reducing the nation’s drug supply. In the FY 2006
PAR, disruptions were defined as “impeding the normal and effective
operation of the targeted organization, as indicated by changes in the
organizational leadership and/or changes in methods of operation . . . .”
Dismantlements were defined as “destroying the organization's leadership,
financial base, and supply network such that the organization is incapable of
operating and/or reconstituting itself.” This key indicator focuses on
disrupted and dismantled organizations linked to organizations on the
CPOT List.



                                    - 18 -
      The OCDETF Program Guidelines set the standards for OCDETF cases
and also provide detailed criteria for CPOT-linked targets. OCDETF cases
may be CPOT-linked cases. The primary selection criteria linking an
organization to a CPOT include:

  •   credible evidence of a nexus between a primary target and a CPOT;

  •   an unbroken chain to the CPOT, linking primary targets of an
      investigation to a CPOT; and

  •   the potential to substantially affect the functioning of the CPOT.

Data Collection and Storage

       As stated previously, OCDETF, the DEA, and FBI are the only three
federal entities currently reporting on this key indicator. During our audit,
we did not identify any issues with the data collection and storage processes
for this key indicator.

      The DEA’s cases are entered into the Priority Target Activity Resource
and Reporting System (PTARRS) by DEA Special Agents and CPOT-links can
be designated. If the case meets OCDETF guidelines, it is marked as a
potential OCDETF case in PTARRS. The case is also marked as a potential
CPOT-linked case if it meets the criteria. All OCDETF cases must be
approved by a group supervisor, Assistant Special Agent in Charge, and
Special Agent in Charge before it is reviewed by DEA headquarters.

       Once the DEA district approves the case, DEA headquarters prints the
PTARRS reports showing the new potential CPOT-linked organizations and
the justification for the link. Next, program analysts review the case,
highlight relevant information, and provide a print-out to the appropriate
staff coordinator. Once the staff coordinator concurs and signs off on the
case, the documentation is provided to the DEA Office of Enforcement. After
approval by the Office of Enforcement Section Chief, an Office of
Enforcement staff coordinator must also review and approve the link.
Finally, the head of the Office of Enforcement must approve the CPOT-link.

      PTARRS has various security controls and access restrictions. In
addition, each DEA division can only access its own division’s cases. During
our audit, we visited the DEA’s Denver Field Office and observed how cases
are entered and tracked in PTARRS, along with the system controls that help
ensure valid and accurate data.




                                    - 19 -
      The FBI NET is the central database system where the FBI Automated
Case System and the ISRAA are located. FBI field agents complete the FBI
Accomplishment Report, Form FD-515, to report statistical accomplishments,
which include disrupted and dismantled CPOT-linked organizations. The
FD-515 is reviewed and initialed for approval by an FBI supervisor.
According to the FBI’s Manual of Administrative and Operational Procedures,
revised July 2007, “The accomplishments described in the FD-515 should be
reported and loaded in the ISRAA within 30 days from the date of
occurrence.”

       The FD-515 information is entered into the Automated Case System,
where it is assigned a serial number. The FD-515 and serial number are
then entered into the ISRAA where the information is stored. On a weekly
basis, a program manager at FBI headquarters performs a query on new
disruption and dismantlement statistics, and either approves or denies them.
If the information is incomplete or inadequate, the program manager
prepares a Denial Memoranda noting the reason for the denial. FBI program
analysts also run verification reports from the ISRAA to verify that all of the
information is correct. During our audit, we visited the FBI’s Denver Field
Office and observed how accomplishments are entered into the ISRAA and
observed the system controls that help ensure valid and accurate data.
Additionally, we observed the FBI headquarters’ approval process.

       After the DEA and FBI approval processes are complete, the potential
OCDETF cases are provided to the OCDETF District Coordination Group. This
group is comprised of representatives from each OCDETF member agency.
The OCDETF District Coordination Group is chaired by an OCDETF lead task
force attorney under the supervision of the U.S. Attorney. The OCDETF
District Coordination Group determines whether an investigation meets the
criteria for OCDETF designation. If so, the investigation is forwarded to the
OCDETF Regional Coordination Group for final approval. If the OCDETF
Regional Coordination Group does not believe the case meets the criteria,
the sponsoring law enforcement agency is given the opportunity to provide
additional information and supporting documentation.

       The OCDETF Regional Coordination Group forwards approved cases to
the OCDETF Executive Office. If a case has a potential CPOT-link, it can be
entered into the OCDETF Management Information System (MIS) at the
district, regional, or national level. The OCDETF Associate Director reviews
all new potential CPOT links to confirm that there is a valid CPOT link. If the
link is valid, the Associate Director approves the link and it is entered into
the MIS. If the link is deficient, a request is made to the sponsoring agency
to provide additional supporting documentation and information.



                                    - 20 -
      According to OCDETF personnel, the MIS is a certified and accredited
computer system used by OCDETF personnel who have access to the DOJ
intranet including the U.S. Attorney offices, to track OCDETF cases, including
CPOT-links. The MIS has various security controls and access levels.

Data Validation and Verification

      We did not identify any issues with the data validation and verifications
processes for this key indicator. The DEA’s primary validation process is the
work flow status fields required in PTARRS, which shows the approval
process beginning with a field office DEA Group Supervisor to DEA
headquarters’ review. PTARRS does not allow the approval process to be
bypassed. Additionally, all DEA divisions are required to update their cases
at least every 90 days to ensure that relevant cases are not omitted. Once a
DEA Special Agent updates the case’s progress, the case moves through the
approval chain at the division and DEA headquarters. Therefore, the DEA
Special Agent, group supervisor, Assistant Special Agent in Charge, and
Special Agent in Charge should be reviewing the progress of the case at
least every 90 days.

      A program manager at FBI headquarters performs weekly data
validation and verification of the potential CPOT-links and the disruptions or
dismantlements. The information in the ISRAA is validated monthly when
quality control reports are run by the field offices to look for duplicate
FD-515 entries in the ISRAA and again annually when the field offices
conduct Resource Management Information System Audits. In addition, the
FBI Inspection Division conducts field office inspections on a 3-year rotating
basis, which review compliance with policies and procedures and the
accuracy of case files. Finally, CPOT-links are validated by the OCDETF
Associate Director.

       OCDETF personnel are able to view the status of a CPOT-link through
the MIS, CPOT Link Validation Status Tracking screen. This screen is used
for tracking the validation of CPOT-linked organizations. In addition, the
OCDETF Executive Office performs data reviews throughout the year. Copies
of the Investigation Initiation Reports, Interim Reports, and the Final
Reports received by the OCDETF Executive Office, are reviewed against the
data in the MIS for accuracy. OCDETF personnel are also able to run various
reports by region, CPOT-linked organization, status, and agency through the
MIS to verify the information on the reports and in the system.




                                    - 21 -
Key Indicator Data Comparison

      In order to verify the number of CPOT-linked drug trafficking
organizations disrupted and dismantled in FY 2006 reported in the
2008 Budget and Performance Summary, we reviewed the OCDETF
Executive Office spreadsheets, DEA summary spreadsheets, and FBI ISRAA
reports.11 Based on our review, we did not find any discrepancies with the
performance data reported for this key indicator for FY 2006.

Disclosure of Data Limitations

       The FY 2006 PAR disclosed the following data limitations,
“Investigations of CPOT-level organizations and related networks are
complex and time-consuming, and the impact of disrupting/dismantling such
a network may not be immediately apparent. Accordingly, data on this
measure may lag behind actual enforcement activity by the investigating
agency. It is also possible that a particular CPOT-linked organization may be
disrupted in one FY and subsequently dismantled in a later year. For
example, a significant number of organizations disrupted during the current
FY remain under investigation, as law enforcement seeks to permanently
destroy their ability to operate.” During our audit, we did not identify any
data limitations beyond those already disclosed in the FY 2006 PAR for this
key indicator.

Number of Top-Ten Internet Fraud Targets Neutralized - FBI

      This key indicator determined the number of top-ten Internet fraud
targets neutralized.12 However, in the 2008 Budget and Performance
Summary the FBI revised the indicator to measure high-impact Internet
fraud target neutralizations and titled it “Number of High-Impact Internet
Fraud Targets Neutralized.” The FBI measures this key indicator. According
to the FY 2006 PAR, “The FBI and the National White Collar Crime Center
[NW3C] partnered in May 2000 to support the Internet Crime Complaint
Center (IC3).” The IC3 defines high-impact Internet fraud targets as targets
meeting one of the following criteria:

      11
          We reviewed the number of CPOT-linked drug trafficking organizations disrupted
and dismantled reported in the 2008 Budget and Performance Summary instead of the
number reported in the FY 2006 PAR because the OCDETF, DEA, and FBI, revised the
number of disruptions and dismantlements during FY 2006 based on complete information
and reported the revision in the 2008 Budget and Performance Summary.
      12
         In the FY 2006 PAR, this key indicator was titled, “Number of Top-Ten Internet
Fraud Targets Neutralized.”


                                         - 22 -
   •   total loss amount greater than $100,000, including all complaints
       within a case;

   •   international nexus;

   •   white-collar crime related fraud, such as economic crime, financial
       institution fraud, money laundering scheme, and pharmaceutical
       fraud;

   •   phishing attacks and identity theft; or

   •   a large volume of victims.

      The FBI and IC3 investigate and coordinate with state, local, federal,
and international law enforcement agencies to “neutralize” or ensure that
these high-impact targets are unable to perpetuate their frauds any further.

Data Collection and Storage

      According to FBI personnel, data collection for this key indicator begins
when a complaint is entered into the IC3 website's standard complaint form
by a victim of an Internet crime.13 After a complaint is submitted, the
information is sent to the IC3 Production Database 1.

       NW3C analysts review the complaints, check the validity, and make
referrals to state and local member law enforcement agencies if a victim’s or
subject’s location is provided. Additionally, the NW3C may make referrals to
appropriate agencies when complaints include child pornography or terrorist
information. After the NW3C’s validation, complaints are run through the
Automatch system, which searches for relationships among complaints
stored in the Production Database 1 and cases in Automatch.14 A case is
built in Automatch when information in complaints can be linked and FBI
analysts work to establish additional relationships.15 When multiple cases
are determined to be linked, the cases can be merged into a single case.

      The FBI component of IC3 refers cases to state or local law
enforcement agencies, FBI field offices, and federal agencies when cases in

       13
            The IC3 website is located at http://www.ic3.gov.
       14
            A complaint is a single complaint, while a case could include multiple complaints.
       15
            Links include such information as phone number, e-mail address, and street
address.


                                             - 23 -
Automatch exceed $10,000 in losses, or when numerous complaints, usually
10 or more, are reported. When a referral is made to a state or local law
enforcement agency, a letter is sent to the agency along with the case file.
When a referral is made to an FBI field office, an electronic communication is
provided to the field office along with the case file. The IC3 maintains copies
of the electronic communications, the letters, and the case files.
Additionally, the FBI component of IC3 will refer presidential threats to the
Secret Service.

      Referrals to FBI field offices and state and local law enforcement
agencies are tracked in the Internet Crime Complaint Center Report Log.
Additionally, cases that have moved into the investigation process are
tracked in the Statistic Log. As a proactive approach to identify
neutralization information, the IC3 searches the Internet and liaisons with
the FBI field offices. The IC3 also depends on and requests FBI field offices
and state and local law enforcement agencies to provide follow-up
information on whether a case was initiated and the outcome of their
investigation. However, there is no policy requiring FBI field offices or state
and local law enforcement agencies to provide follow-up information on
whether a case was initiated and the outcome of their investigation.

      FBI personnel assigned to the IC3 maintain a list of the ongoing,
high-impact investigations that is reviewed by the Unit Chief. While
conducting fieldwork at the IC3, we observed how a victim can enter a
complaint on the IC3 website and how the complaints are tracked through
the IC3 databases and logs.

       Since there is no requirement for FBI field offices and state and local
law enforcement to provide information on neutralizations, the IC3 may not
receive complete feedback and cannot assure the accuracy of the
neutralization information for this key indicator. FBI personnel explained
that the IC3 is a referring entity, not an investigative entity. As noted
above, the IC3 refers cases to FBI field offices and state and local law
enforcement agencies. However, these offices and agencies have the
discretion to decide whether to open a case and pursue an investigation
based on these referrals. IC3 requests that the FBI field offices and state
and local law enforcement agencies provide follow-up information regarding
the referrals. We found that no formal requirements exist regarding use of
the referred case, and there is no formal follow-up process for FBI field
offices or state and local law enforcement agencies to provide information on
neutralizations or whether an investigation was opened. Therefore, the IC3
is unable to provide assurance on the accuracy of the number of
neutralizations since it does not receive follow-up information on all
referrals. We recommend that the FBI develop and implement procedures to


                                     - 24 -
ensure that complete and accurate information is obtained to report on this
key indicator or, in the alternative, revise this key indicator.

Data Validation and Verification

       We did not identify any issues with the FBI’s data validation and
verification processes for this key indicator. NW3C analysts initially review
the complaints to identify high-priority items and eliminate “spam.”16 The
complaints are then examined by FBI analysts who build cases in
Automatch. Additionally, the processes in place can prevent false complaints
from becoming a case or referral. According to FBI personnel, in order for a
complaint to become part of a case, information must be linked. A false
complaint cannot be matched with another complaint to build a case.
Therefore, because a case cannot be built, a referral cannot be made.

       As mentioned previously, since the IC3 is a referring entity, it relies on
FBI field offices and state and local law enforcement agencies to provide the
neutralization information. The information provided by FBI field offices is
verified by the IC3 through the FBI’s Automated Case System or Sentinel.
The information provided by law enforcement agencies is verified through
researching articles on the Internet that is similar to information the IC3
received.

Key Indicator Data Comparison

      In order to verify the number of high-impact Internet fraud targets
neutralized in FY 2006 reported in the 2008 Budget and Performance
Summary, we reviewed the FBI list summarizing each high-impact case and
neutralization.17 Based on our review, we did not find any discrepancies with
the performance data reported for this key indicator for FY 2006. However,
our conclusion is qualified to the extent that we could not be assured that all
neutralizations were reported to the IC3, based on the previously mentioned
information.




       16
         Spam is unsolicited e-mail, usually of a commercial nature, sent to a large
number of addresses.
       17
          We reviewed the number of high-impact Internet fraud targets neutralized that
was reported in the 2008 Budget and Performance Summary instead of the number
reported in the FY 2006 PAR because the FBI revised the number of neutralizations during
FY 2006 based on complete information and reported the revision in the 2008 Budget and
Performance Summary.


                                          - 25 -
Disclosure of Data Limitations

       The FBI did not identify any data limitations for this key indicator in
the FY 2006 PAR. Additionally, during our audit we did not identify any data
limitations for this key indicator.

Recommendation

We recommend that the FBI:

2.    Develop and implement procedures to ensure that complete and
      accurate information is obtained to report on the key indicator
      “Number of High-Impact Internet Fraud Targets Neutralized,” or in the
      alternative, revise this key indicator.

Number of Criminal Enterprises Engaging in White-Collar Crimes
Dismantled – FBI

       This key indicator is measured by the FBI and determines the number
of dismantled criminal enterprises engaging in white-collar crime. The FBI’s
White-Collar Crime Program investigates crimes that include “health care
fraud, financial institution fraud, government fraud (e.g., housing, defense
procurement, and other areas), insurance fraud, securities and commodities
fraud, telemarketing fraud, bankruptcy fraud, environmental crimes, and
money laundering.” Dismantlement is defined in the FY 2006 PAR as
“destroying the organization's leadership, financial base, and supply network
such that the organization is incapable of operating and/or reconstituting
itself.” The FBI collects and stores the data for this indicator in its ISRAA.

Data Collection and Storage

      We did not identify any issues with the FBI’s data collection and
storage processes for this key indicator. The field agents complete the FBI
Accomplishment Report, Form FD-515, to report a statistical
accomplishment, which includes dismantlements. The completed FD-515 is
approved by an FBI supervisor and the information is then entered and
stored in the ISRAA. According to Section 3 of the FBI’s Manual of
Administrative and Operational Procedures, revised July 2007, “The
accomplishments described in the FD-515 should be reported and uploaded
in the ISRAA within 30 days from the date of occurrence.” During our audit,
we visited the FBI’s Denver Field Office and observed how accomplishments
are entered into the ISRAA, as well as system controls that help ensure valid
and accurate data.



                                    - 26 -
Data Validation and Verification

       We did not identify any issues with the FBI’s data validation and
verification processes for this key indicator. The FBI field office supervisors
review the FD-515’s, and weekly queries are run by FBI headquarters to
identify new white-collar crime dismantlement statistics, which are reviewed
and either approved or denied. Additionally, the ISRAA has controls that
limit access to specific data and the system. Annually, the FBI field offices
conduct Resource Management Information System Audits to validate the
information in the ISRAA. In addition, the FBI Inspection Division conducts
field office inspections on a rotating 3-year basis to review compliance with
policies and procedures and the accuracy of case files. Finally, the
white-collar crime numbers are spot-checked by FBI headquarters personnel
before providing the information for the PAR.

Key Indicator Data Comparison

      In order to verify the number of dismantled criminal enterprises
engaging in white-collar crime in FY 2006 reported in the 2008 Budget and
Performance Summary, we reviewed the FBI’s ISRAA Report.18 Based on our
review, we did not identify any discrepancies with the performance data
reported for this key indicator for FY 2006.

Disclosure of Data Limitations

      The FY 2006 PAR disclosed data limitations for this indicator, which
state “FBI field personnel are required to enter accomplishment data within
30 days of the accomplishment or a change in the status of an
accomplishment, such as those resulting from appeals. Data for this report
are compiled less than 30 days after the end of the fiscal year, and thus may
not fully represent the accomplishments during the reporting period.
FY 2005 data subject to this limitation were revised during FY 2006.” During
our audit, we did not identify any data limitations beyond those already
disclosed in the FY 2006 PAR for this key indicator.




      18
          We reviewed the number of criminal enterprises engaging in white-collar crimes
dismantled reported in the 2008 Budget and Performance Summary instead of the number
reported in the FY 2006 PAR because the FBI revised the number of dismantlements during
FY 2006 based on complete information and reported the revision in the 2008 Budget and
Performance Summary.


                                         - 27 -
Percent of Cases Favorably Resolved – EOUSA and the Litigating
Divisions

       This key indicator assesses the percent of cases favorably resolved,
which described in the FY 2006 PAR includes “those cases that resulted in
court judgments favorable to the government, as well as settlements.” This
key indicator is measured by the Executive Office for U.S. Attorneys
(EOUSA) and six litigating divisions. According to the FY 2006 PAR, litigating
efforts fall into either criminal litigation or civil litigation, and are measured
separately under this indicator.

Data Collection and Storage

      We found that the methods and procedures for data collection and
storage are similar among EOUSA and the litigating divisions. All of the
components utilize different case management systems to track work from
the origination of a case or matter, through each component’s defined
phases of a case, to the final disposition and closure of a case.19 Data entry
personnel are responsible for the collection of court documents, such as a
summons, complaint, or any other forms provided by an attorney, and
entering the information into the component’s case management system.
To capture case or defendant outcomes, data entry personnel use various
forms containing the case or defendant disposition type such as a guilty
plea, conviction, settlement, dismissal, and any other favorable or
unfavorable result.

      The determination of whether an outcome is listed as favorable or
unfavorable is at the discretion of each component’s management. An
example is the Civil Division’s treatment of Harbor Maintenance Tax cases in
which a ruling in the lead case resulted in 9,047 favorable decisions in
FY 2006. The Civil Division chose to count this as one favorable decision to
more accurately represent the Civil Division’s total percentage of cases
favorably resolved.

      EOUSA and the litigating divisions, with the exception of the Criminal
Division, generate fiscal year favorable and unfavorable statistics through
system reports sorted by outcome type or by a unique disposition code. The
results from these reports are provided to JMD, which consolidates the cases
and calculates DOJ’s total percentage of cases favorably resolved. The

      19
           Case Management Systems include: Executive Office for U.S. Attorneys’ Legal
Information Office Network System; Antitrust Division’s Matter Tracking System; Civil
Division’s Case Management System, Civil Rights Division’s Interactive Case Management
System; Criminal Division’s Automated Case Tracking System; Environment and Natural
Resources Division’s Case Management System; and Tax Division’s TaxDoc.


                                         - 28 -
Criminal Division does not use its case management system to accumulate
this key indicator statistic. Instead, 1 month after the end of each quarter,
managers from each of the Criminal Division’s 12 litigating sections provide
a listing of that quarter’s outcome data to the division’s Resource, Planning
and Evaluation Staff, who aggregate the data into a spreadsheet and provide
the results to JMD.

       We found that EOUSA and the litigating divisions are using two
different dates to report on the percentage of cases favorably resolved – the
disposition date and the system date. The disposition date is the date that
the disposition or decision actually occurred. Alternatively, the system date
is the date the disposition is entered into the case management system.
Table 2 illustrates the date used by EOUSA and each litigating division.

TABLE 2:     DATE EACH COMPONENT USES TO REPORT ON THE PAR
             INFORMATION
                COMPONENT NAME              DATE USED FOR REPORTING
 Civil Division                                    Disposition
 Civil Rights Division                             Disposition
 Criminal Division                                 Disposition
 Antitrust Division                                Disposition
 Environment and Natural Resources Division        Disposition
 Tax Division                                      System
 Executive Office for U.S. Attorneys               System
Source: Management at Civil Division, Civil Rights Division, Criminal Division, Antitrust
        Division, Environment and Natural Resources Division, Tax Division, and Executive
        Office of U.S. Attorneys

       During our audit, we attempted to obtain data runs from EOUSA and
the litigating divisions using the disposition date and the system date to
determine the variance, if any, in the information reported in the FY 2006
PAR. However, we were unable to obtain data runs from all of the
components because several of the case management systems did not
capture the system date. Therefore, we were unable to determine the
reporting variance.

       In our opinion, using two different dates for the data runs provides
inconsistent results. Prior to release of the FY 2007 PAR, we discussed this
issue with EOUSA and the litigating divisions and provided a preliminary
recommendation that EOUSA and the litigating divisions implement a
common method of generating the number of cases favorably resolved and
total number of cases litigated that is provided to JMD, or disclose the
difference in approaches in the PAR. Component management agreed and



                                         - 29 -
took action to disclose in the FY 2007 PAR the different dates that are used
to collect data for this indicator.

        As part of our audit, we assessed implementation of the preliminary
recommendation in the FY 2007 PAR. We determined that EOUSA and the
litigating divisions opted to disclose that “the court’s disposition date is used
for reporting purposes for the ATR [Antitrust Division], CIV [Civil Division],
CRM [Criminal Division], CRT [Civil Rights Division], and ENRD [Environment
and Natural Resource Division], however, EOUSA and TAX [Tax Division] use
the date that it is entered into their current case management system.” In
our judgment, EOUSA and the litigating divisions sufficiently disclosed the
differences in approaches. Therefore, we are not including a formal
recommendation on this issue.

       Additionally, the data definition section of the PAR states, “The data
set includes non-appellate litigation cases closed during the fiscal year.”
However, we found that the Civil Rights Division included appellate cases in
the information provided to JMD. Table 3 illustrates what should have been
reported by the Civil Rights Division to JMD for the PAR, while Table 4
illustrates what was reported to JMD for the PAR.

TABLE 3:     CIVIL RIGHTS DIVISION FY 2006 CASE RESULTS
             EXCLUDING APPELLATE CASES
                                                     PERCENT
                              FAVORABLE    TOTAL    FAVORABLY
           CASE TYPE            CASES      CASES    RESOLVED
        Civil Cases              99         101       98%
        Criminal Cases           59         64        92%
Source: Civil Rights Division Favorable Case Breakdown Reports

TABLE 4:    CIVIL RIGHTS DIVISION FY 2006 CASE RESULTS
            REPORTED TO JMD FOR THE PAR
                                                    PERCENT
                             FAVORABLE    TOTAL    FAVORABLY
           CASE TYPE           CASES      CASES    RESOLVED
  Civil & Appellate Cases      194         206       94%
  Criminal & Appellate Cases   74          79        94%
Source: Justice Management Division and Civil Rights Division Favorable Case Breakdown
        Reports

      As shown in Tables 3 and 4, the percentage of civil cases favorably
resolved was understated by 4 percent and the percentage of criminal cases
favorably resolved was overstated by 2 percent. According to Civil Rights
Division officials, appellate cases were included because excluding them


                                         - 30 -
would not reflect all of the work performed by its attorneys. We recommend
that the Civil Rights Division exclude appellate cases from the quarterly and
fiscal year information provided to JMD to comply with the statements in the
PAR and to avoid over- or understating the percentage of cases favorably
resolved.

      We did not identify any issues with EOUSA’s or the litigating divisions’
data storage processes for this key indicator. The source documents and
data are maintained in accordance with record retention schedules and the
Offices, Boards and Divisions Order 2710.6, Recordkeeping for Litigation
Case Files. Both establish procedures for the management of litigation
records. We were informed that closed case files are maintained at the
respective component or local storage site until being transferred to a
Federal Records Center for long-term storage.

Data Validation and Verification

        We found that some duplicate cases are included in the data for this
key indicator. It is common for cases to be jointly litigated or transferred
among the litigating divisions and the U.S. Attorneys.20 EOUSA reports all
cases for this key indicator regardless of whether a U.S. Attorney Office or
litigating division was the lead office on the case. As a result, in some
instances the U.S. Attorney’s Offices and the litigating divisions are including
the same cases in the outcome numbers provided to JMD and reported in
the PAR. EOUSA and the litigating division’s management explained that the
duplicate counting is a result of the different systems that are unable to
share data. Additionally, the litigating divisions were concerned that not
including the joint cases in the numbers provided to JMD would not reflect all
of their work. In response to this concern, we emphasized that this key
indicator is intended to reflect data at the department level, and not at the
component level. Prior to the release of the FY 2007 PAR, we discussed this
issue with EOUSA and the litigating divisions and provided a preliminary
recommendation that EOUSA and the litigating divisions develop and
implement a method to collect and provide data to JMD that ensures jointly
litigated cases are not duplicated. In the alternative, they should disclose
that duplicate cases are included in the data in the PAR. Component
management agreed and took action to disclose that duplicate cases are
included in the data in the FY 2007 PAR.

     As part of our audit, we assessed EOUSA’s and the litigating divisions’
compliance with our preliminary recommendation. We found that EOUSA

       20
            The U.S. Attorneys Offices consists of 93 U.S. Attorneys in 94 districts. The
districts of Guam and the Northern Marianas share a U.S. Attorney.


                                            - 31 -
and the litigating divisions disclosed in the FY 2007 PAR that cases worked
by more than one component are duplicated in the totals for this key
indicator. Additionally, EOUSA and the litigating divisions explained that this
will remain an issue until the litigating case management system is
implemented. Because EOUSA and the litigating divisions disclosed that
duplicate cases are included in the data in the PAR and this issue will be
addressed by the litigating case management system, we are not including a
formal recommendation on this issue.


       Although we found that duplicate cases were reported, we determined
that EOUSA and each of the litigating divisions had procedures and internal
controls in place to seek assurance that the data collected within each
agency’s system is accurate. The most commonly cited validation and
verification methods were docket reviews, attorney interviews, exception
reports, management certification of key indicator data, and case
management internal controls. Docket reviews and attorney interviews
consist of section managers or case management specialists discussing the
status of the cases with the attorneys, resolving any problems with missing
or inconsistent information, and ensuring that accurate and timely
information is maintained. Additionally, exception reports are produced
when a specific condition or exception occurs. For example, one exception
report that we obtained from the Civil Rights Division listed “Cases and
Matters with Null Outcomes.” Additionally, some of the components use
management certification that consists of section managers certifying the
accuracy of cases and matters entered into the case management system.

      We also observed how cases and matters are entered into EOUSA’s
and each of the litigating division’s case management systems and observed
system controls that help ensure valid and accurate data. These controls
include the use of drop-down list boxes to mitigate manual-typing errors,
mandatory data entry fields, and report generating capabilities.

Key Indicator Data Comparison

        In order to verify the percentage of cases favorably resolved and
reported in the FY 2006 PAR, we reviewed the support from EOUSA and the
litigating divisions for FY 2006 criminal and civil cases. Based on our review,
we did not find any discrepancies with the performance data reported for
this key indicator in FY 2006.




                                    - 32 -
Disclosure of Data Limitations

       The following data limitations for EOUSA and the litigating divisions
were disclosed in the FY 2006 PAR, stating that “Data quality suffers from
the lack of a single DOJ case management system and a standardized
methodology for capturing case related data. Due to the inherent variation
in data collection and management among the litigating divisions, cases may
refer to cases or individuals. In addition, due to reporting lags, case
closures for any given year may be under- or over-reported. To remedy
these issues, the Department is currently developing a Litigating Case
Management System to standardize methodologies between the components
and capture and store data in a single database.” We did not identify any
additional data limitations for this key indicator beyond those already
included in the data limitations section of the FY 2006 PAR and the issues
disclosed above, that were identified during our audit.

Recommendation

We recommend that the Civil Rights Division:

3.       Exclude appellate cases from the quarterly and fiscal year information
         provided to JMD to comply with the statements in the PAR and to
         avoid over- or understating the percentage of cases favorably resolved
         for the key indicator “Percent of Cases Favorably Resolved.”

Percent of Assets/Funds Returned to Creditors for Chapter 7 and
Chapter 13 – USTP

      The U.S. Trustee Program’s (USTP) key indicator measures the percent
of assets and funds returned to creditors for proceedings under both
Chapters 7 and 13 of Title 11 of the U.S. Code, known as the Bankruptcy
Code.

     •   Chapter 7 proceedings involve an appointed private trustee gathering
         and selling the debtor's nonexempt assets and using the proceeds to
         pay creditors in accordance with the provisions of the Bankruptcy
         Code.

     •   Chapter 13 proceedings are used primarily by individual consumers to
         reorganize their financial affairs under a repayment plan that must be
         completed within 3 to 5 years.




                                      - 33 -
      The USTP consists of the Executive Office for U.S. Trustees (EOUST)
and 21 regional U.S. Trustees.21 The U.S. Trustees are responsible for
establishing, maintaining, and supervising panels of private trustees. These
private trustees serve as fiduciaries to various parties with an interest in a
case.

      During our audit, we found that U.S. Trustees are not in all 50 states
as the FY 2006 PAR implied. Specifically, in Alabama and North Carolina,
bankruptcy cases are still administered by the courts. We discussed this
issue with EOUST officials prior to the release of the FY 2007 PAR, and
EOUST concurred. In the FY 2007 PAR EOUST changed the language to
disclose that the two states are not included in the data for this key
indicator.

Data Collection and Storage

      During our audit we did not identify any issues with the USTP’s
Chapter 7 data collection and storage processes for this key indicator.
According to the EOUST, in FY 2006, approximately 1,200 trustees
administering Chapter 7 cases closed more than 59,000 asset cases,
generating nearly $2.6 billion in funds. Chapter 7 private trustees use case
administration software to track the status of their cases and are required to
periodically submit forms and reports to the bankruptcy courts and the
U.S. Trustees Offices. Specifically, the Distribution Report for Closed Asset
Cases, Form 4, provides statistical data concerning the distributions made in
the case. Twice a year, personnel in the 95 field offices accumulate and
consolidate Form 4s into a single spreadsheet and send it to the EOUST’s
Office of Research and Planning. At the Office of Research and Planning, a
management analyst formats and loads the 95 files into a database and
provides the Chapter 7 statistics to JMD for inclusion in the PAR.

      Additionally, we did not identify any issues with the USTP’s Chapter 13
data collection and storage processes for this key indicator. According to the
EOUST, in FY 2006 188 trustees administering Chapter 13 cases collected
more than $5.5 billion. The collection of key indicator data by Chapter 13
private trustees is similar to that of the Chapter 7 private trustees.
Chapter 13 private trustees use case administration software to track
receipts and disbursements, and are required to prepare an Annual Report at
the end of the fiscal year detailing disbursements. Annual Reports must be
electronically submitted by all 188 private trustees to their respective
       21
          The U.S. Trustee Program is structured with an executive office in
Washington, D.C., U.S. Trustees in 21 regions, and 95 field offices headed by an
Assistant U.S. Trustee.



                                          - 34 -
regional office by November 15 and forwarded to the EOUST by December 1.
Upon receipt, the EOUST consolidates the data and loads it into a database
where data can be modified and queried. Once the audited Annual Reports
are received from independent Certified Public Accountants, database
inaccuracies are corrected and the final data is exported to a spreadsheet
and provided to JMD for inclusion in the PAR.

Data Validation and Verification

       We did not identify any issues with the USTP’s Chapter 7 data
validation and verification processes for this key indicator. EOUST uses
Biennial Performance Reviews to document private trustee performance,
based on the objective of making meaningful distributions to creditors. One
of the evaluation criteria is the timeliness, accuracy and completeness of the
trustee’s Final Account, which contains the Form 4.22 The EOUST also
utilizes a combination of independent audits and field examinations of
private trustees conducted on a 4-year rotating basis. The audits are
performed by independent Certified Public Accountants and the field
examinations are performed by U.S. Trustee personnel. Both reviews focus
on the appropriateness and effectiveness of each trustee’s internal controls
and case administration, and conclude with a report on the findings.

       During our audit, we observed EOUST’s processes for collecting
Chapter 7 data spreadsheets, converting the spreadsheets into text files,
and loading the text files into a database. We also observed system controls
used to identify data inconsistencies or errors, and the use of a checklist to
ensure that spreadsheets have been received from each field office and that
text files have been loaded into the database.

       We did not identify any issues with the USTP’s Chapter 13 data
validation and verification processes for this key indicator. The EOUST
requires annual audits of each trustee’s Annual Report by independent
Certified Public Accountants. The purpose of these audits is to obtain
reasonable assurance that the Annual Report is free of material
misstatement. As previously stated, upon receipt of the audited Annual
Reports EOUST staff compares the audited numbers to the trustee’s
unaudited Annual Report data that was loaded into the database. If the
audited Annual Report identifies discrepancies, the database information is
replaced with the audited information. Additionally, auditors perform a
yearly Prescribed Procedures engagement to test compliance with the USTP


      22
          The EOUST receives trustee Form 4s as part of the Final Account on each
Chapter 7 case closed during the year.



                                         - 35 -
policies. These procedures include evaluations of internal controls, case
tracking, cash receipts, and disbursements. During our audit, we observed
EOUST’s processes for collecting Chapter 13 data spreadsheets and loading
them into a database. We also observed system controls used to identify
data inconsistencies or errors, the use of audited Annual Reports to make
changes to data, and the use of a report that lists the fiscal year audit
findings and is used to resolve common issues.

Key Indicator Data Comparison

      We reviewed the USTP’s Percent Analysis of Chapter 7 Statistics in
order to verify the accuracy of the FY 2005 percentage of assets and funds
returned to creditors for Chapter 7 filings reported in the FY 2006 PAR.23
Based on our review, we did not find any discrepancies with the performance
data reported for this key indicator for FY 2005.

      Additionally, we reviewed the USTP’s supporting record of Chapter 13
Standing Trustee FY 2005 Audited Annual Reports in order to verify the
accuracy of the FY 2005 percent of assets and funds returned to creditors for
Chapter 13 filings reported in the FY 2006 PAR.23 Based on our review, we
did not find any discrepancies with the performance data reported for this
key indicator for FY 2005.

Disclosure of Data Limitations

       With regard to both Chapters 7 and 13, USTP disclosed in the data
limitations section of the FY 2006 PAR that they are unable to project
out-year performance because there is no reliable method for calculating
future bankruptcy case disbursements. USTP also disclosed that the most
recent fiscal year data is reported in the following year’s PAR due to a data
lag caused by using audited data. During our audit, we did not identify any
additional data limitations for this key indicator.




       23
           We audited FY 2005 data because the FY 2006 data was not presented in the
FY 2006 PAR due to the USTP’s use of audited data. The data limitation in the FY 2006 PAR
disclosed that “data are not available until January (Chapter 7) and April (Chapter 13)
following the close of the fiscal year because of the need to audit data submitted by private
trustees prior to reporting.”


                                           - 36 -
III.   STRATEGIC GOAL III: ASSIST STATE, LOCAL, AND TRIBAL
       EFFORTS TO PREVENT OR REDUCE CRIME AND VIOLENCE

       Strategic Goal III contains six key indicators, of which four were
       included in our audit scope. We did not find any discrepancies with
       one of the four key indicators. Specifically, for the key indicator
       “Percent Reduction in DNA Backlog” we determined that the data
       collection, storage, validation, and verification processes for this key
       indicator were adequate and did not identify any data limitations
       beyond those already disclosed.

       For the key indicator “Reduction of Homicides per Site Funded Under
       the Weed and Seed Program,” we identified issues with the
       presentation of the data, the methodology used to calculate the
       reduction portion of this key indicator, and the data limitations
       reported in the FY 2006 PAR.

       For the key indicator “Number of Participants in the Residential
       Substance Abuse Treatment Program,” we determined that the Bureau
       of Justice Assistance (BJA) overstated the number of participants in
       2005. Additionally, we found that the data reported by the grantees
       and compiled for this key indicator represents various time periods and
       is neither exclusively fiscal year nor calendar year data and that the
       BJA did not present the accurate scope of the performance data in the
       PAR.

       For the key indicator “Increase in the Graduation Rate of Drug Court
       Program Participants,” the data reported in the FY 2006 PAR may be
       incorrect because it only covers a 6-month period. Additionally, the
       BJA did not present the accurate scope of the performance data in the
       PAR. Finally, we determined that the bar graph for this key indicator
       illustrated the graduation rate instead of the percent increase in the
       graduation rate as the title stated.

      According to the FY 2003-2008 Strategic Plan, DOJ assists state, local,
and tribal governments by providing “an extensive, varied portfolio of
criminal and juvenile justice grant programs, training, and technical
assistance.” Additionally, DOJ conducts research, collects statistics, and
evaluates new programs and technologies in order to further understand
crime, violence, and justice.

       We discuss below each of the four key indicators we reviewed related
to this strategic goal.



                                      - 37 -
Reduction of Homicides Per Site Funded Under the Weed and Seed
Program – OJP

      This key indicator assesses the number of homicides per Weed and
Seed site and calculates the reduction of homicides per site. The
Community Capacity Development Office (CCDO) within the Office of Justice
Programs (OJP) measures this indicator. The Weed and Seed Program is a
grant program. The mission of the OJP CCDO “is to work with local
communities to design strategies for deterring crime, promoting economic
growth, and enhancing quality of life.” According to the OJP, the Weed and
Seed strategy “involves a two-pronged approach [to crime control and
prevention]: law enforcement agencies and prosecutors cooperate in
‘weeding out’ violent crime and drug abuse [from a designated area]; and
‘seeding’ brings human services to the area, encompassing prevention,
intervention, treatment, and neighborhood revitalization.”

Data Collection and Storage

      The data for this key indicator is submitted by the grantees in their
annual GPRA Reports. Grantees can submit GPRA Reports through OJP’s
Grant Management System (GMS) or provide them directly to the CCDO. In
March of each year, the CCDO provides instruction and due dates to
grantees for completing the GPRA Report. The completed reports are due in
May and report on the previous calendar year. For example, the FY 2004
GPRA Report includes data covering calendar year 2003. The 3-month lag
helps ensure that most information has been captured in the grantees’
computer systems.

      The Weed and Seed Program Guide and Application Kit lists the
performance measures and performance data that each grantee is required
to report, including this key indicator, which requires grantees to provide the
number of homicides per site.

      If a GPRA Report is provided directly to the CCDO, a CCDO program
manager reviews the report for completeness, ensuring that a majority of
the questions are answered and the report is entered into GMS. Incomplete
reports are returned to the grantee for additional information. GPRA Reports
that have been approved by a CCDO program manager are provided to the
Justice Research and Statistics Association (JRSA). The JRSA and CCDO
track the grantees’ GPRA Report submissions to identify any missing reports.

      JRSA personnel review the GPRA Reports to check for accuracy and
missing information. JRSA personnel may follow up with grantees to request



                                    - 38 -
clarification on the information provided. JRSA personnel then key the
information into a JRSA database.

      We found that the data reported for this key indicator was unclear
because it misidentified the time periods covered. Specifically while
reviewing the summary reports provided by the JRSA, we confirmed the
number of homicides per Weed and Seed site that were reported for
FYs 2004 and 2005. However, we found that the scope of the data did not
cover FYs 2004 and 2005. Instead, the summary reports used data from the
FYs 2004 and 2005 GPRA Reports, which covers data from calendar years
2003 and 2004. Therefore, the data presented in the FY 2006 PAR as
FYs 2004 and 2005 is data covering calendar years 2003 and 2004. We
recommend that the CCDO present the accurate scope of the performance
data in the PAR by listing the correct calendar year that the data covers. In
discussing this issue with CCDO personnel, they agreed with our finding.

      We did not identify any issues with the CCDO’s and JRSA’s data
storage processes for this key indicator. The GPRA Reports are stored in
multiple forms. The CCDO maintains paper versions of the GPRA Reports
stored in GMS. JRSA personnel convert GPRA Reports into PDF files that are
stored on a secure server, which is backed up weekly. Additionally, the
JRSA provides the PDF files to the CCDO on compact discs. Finally, the JRSA
maintains the paper versions of GPRA Reports and posts all of the data from
the reports on the Weed and Seed Data Center’s website.24

Data Validation and Verification

      A CCDO program manager reviews the reports for completeness
before providing them to the JRSA. The data validation and verification
processes performed by the JRSA include: checking the data for
completeness and consistency; checking for outliers, which are values that
are outside other values in the data set; conducting follow-up with grantees;
comparing the GPRA Report to the previous year’s reports for the same
grantee; comparing the data to published information, including the FBI’s
crime statistics; and determining whether the local law enforcement records
were subject to any reviews. Further validation and verification is performed
by OJP’s Budget Planning and Performance Division in the Office of the Chief
Financial Officer. Additionally, the Management Discussion and Analysis
(MD&A) write-up is reviewed by personnel within OJP’s Budget Planning and
Performance Division in the Office of the Chief Financial Officer, the Audit
and Review Division in the Office of Audit, Assessment, and Management,
and the Chief Financial Officer.

      24
           The Weed and Seed Data Center website is http://www.weedandseed.info.


                                         - 39 -
Key Indicator Data Comparison

      The CCDO reported the number of homicides per Weed and Seed site
for FYs 2004 and 2005 data in the FY 2006 PAR. In order to verify these
numbers, we reviewed the summary reports provided by the JRSA and did
not identify any discrepancies with the performance data reported.
However, as previously mentioned, we found that CCDO misidentified the
time periods that the data covered in the FY 2006 PAR.

      Additionally, using the same summary reports we did not identify any
discrepancies with the 17.8 percent reduction of homicides per site funded
under the Weed and Seed Program reported for FY 2005 in the FY 2006 PAR.
However, we identified an issue with the methodology used to calculate the
reduction of homicides per site funded under the Weed and Seed Program.
We found that the data sets used to report on the number of homicides per
Weed and Seed site included data from all reporting sites irrespective of
whether reporting occurred in previous years. This methodology prevents
the data sets from being comparable because different grantees were
included in each data set. In discussing this issue with CCDO personnel,
they agreed that for the reduction portion of the indicator, they should have
used data sets that were limited to sites with data for both years. We
recommend that for the reduction portion of this key indicator, the CCDO
either use data sets that are limited to sites with data for both years or, in
the alternative, remove the reduction portion from this key indicator and
only report on the number of homicides per Weed and Seed site.

Disclosure of Data Limitations

      We found that in the FY 2006 PAR, the following data limitation was
disclosed “Data for this measure are reported by CCDO grantees on a
calendar year cycle.” However, the performance data reported in the PAR is
presented as fiscal year, and as previously mentioned in the Data Collection
and Storage section of this report the CCDO misidentified the time periods
that the number of homicides per Weed and Seed site covered.

      Furthermore, we discussed and identified additional data limitations for
this key indicator with CCDO and JRSA personnel. Our primary concern was
that the Weed and Seed grants have 5-year designations. Therefore,
grantees may be at a different phase in their program depending upon the
number of years they have received grant funds. We also determined that
the 5-year designation creates an additional data limitation, since grantees
do not begin the 5-year designation at the same time. Therefore, the scope
of the data changes each year as new grantees are added and other


                                    - 40 -
grantees reach the end of their 5-year designation. Finally, CCDO and JRSA
personnel informed us that not all Weed and Seed sites are comparable.
Some of the differences include population demographics and population
size. Therefore, the data for this key indicator is difficult to compare across
years and among sites. We recommended that the CCDO disclose the
year-to-year and site comparative data limitations within the data limitations
section of the PAR or, in the alternative, revise the key indicator to eliminate
these data limitations. Prior to the release of the FY 2007 PAR, we discussed
this preliminary recommendation with the CCDO. CCDO personnel agreed
and took action to disclose the year-to-year and site comparative data
limitations in the FY 2007 PAR.

       As part of our audit work, we reviewed the FY 2007 PAR and found
that CCDO personnel added the following statement: “There are slight
variances in the group of local sites reporting each year due to some sites’
Official Recognition status expiring and adding newly funded sites. For this
reason, the OJP requests multiple years of crime data in every CCDO
required annual GPRA report, so that we can do multi-year analyses for the
same group of sites and jurisdictions. This means that the average number
of homicides reported for a given calendar year will be different for every
year’s GPRA dataset.” In our opinion the CCDO sufficiently disclosed the
year-to-year and site comparative data limitations within the data limitation
section of the FY 2007 PAR. Therefore, we are not including a formal
recommendation on this issue.

Recommendations

We recommend that OJP:

4.    Coordinate with the CCDO to present the accurate scope of the
      performance data in the PAR by listing the correct calendar year that
      the data covers for the key indicator “Reduction of Homicides Per Site
      Funded Under the Weed and Seed Program.”

5.    Coordinate with the CCDO to either use data sets that are limited to
      sites with data for both years or, in the alternative, remove the
      reduction portion from this key indicator and only report on the
      number of homicides per Weed and Seed site for the key indicator
      “Reduction of Homicides Per Site Funded Under the Weed and Seed
      Program.”




                                     - 41 -
Percent Reduction in DNA Backlog – OJP

       This key indicator measures the reduction of DNA samples awaiting
analysis resulting from activities funded under the Convicted Offender and
the Forensic Casework DNA backlog reduction grant programs. The
Convicted Offender DNA Backlog Reduction program offers assistance to
existing crime laboratories that conduct DNA analysis to reduce their backlog
of convicted offender DNA samples. The Forensic Casework DNA Backlog
Reduction Program offers assistance to existing crime laboratories that
conduct DNA analysis to analyze backlogged forensic DNA casework samples
from forcible rape, murder, and non-negligent manslaughter. The OJP
National Institute of Justice (NIJ) measures this indicator.

Data Collection and Storage

       We did not identify any issues with the NIJ’s data collection and
storage processes for the convicted offender DNA backlog data for this key
indicator. The convicted offender DNA backlog data consists of DNA samples
that state laboratories are unable to analyze with available resources.
Annually, the NIJ submits a data call to state laboratories requesting their
final projected backlog numbers as of September 30 of the previous year
and the funds needed to complete and reduce the case backlog. The NIJ
compiles this information in a spreadsheet consisting of all state laboratories
needing funding and the amount requested. The information received from
the state laboratories and the spreadsheets are archived on OJP’s network,
which is backed-up daily.

       Additionally, we did not identify any issues with the NIJ’s data
collection and storage processes for the casework DNA backlog data for this
key indicator. The NIJ does not receive projections for casework DNA
backlog numbers. Instead, the NIJ sends a solicitation to grantees reporting
the amount of funding available and requests grant applications to be
submitted through GMS. The applications are to include: (1) the number of
cases the laboratory possesses, (2) the number of cases in storage that
have not been submitted, and (3) the amount of funding requested. The NIJ
compiles spreadsheets of the data received in GMS, the backlog percentage
is calculated, and the grants are awarded. According to NIJ personnel, they
receive approximately 100 casework DNA backlog grant applications each
year and try to fund all of them. The grant applications are stored in GMS,
and the data is backed-up incrementally throughout the week. The grant
applications and the NIJ spreadsheets are currently stored indefinitely on
OJP’s network.




                                    - 42 -
Data Validation and Verification

       We did not identify any issues with the NIJ’s data validation and
verification processes for the convicted offender or casework DNA backlog
data for this key indicator. These processes are ongoing and include
multiple levels of review including semi-annual progress reports and Grant
Progress Assessment site visit reports. Semi-annual progress reports are
submitted by grantees through GMS and provide the NIJ with information
regarding progress achievements in relation to project milestones.
According to NIJ personnel, state laboratories that receive NIJ funding
become part of the Grant Progress Assessment program and are reviewed
by the NIJ on a 2-year rotating basis. These reviews help ensure that grant
funds are used properly.

      Further validation and verification is performed by OJP’s Budget
Planning and Performance Division in the Office of the Chief Financial Officer.
Additionally, the MD&A write-up is reviewed by personnel within OJP’s
Budget Planning and Performance Division in the Office of the Chief Financial
Officer, the Audit and Review Division in the Office of Audit, Assessment,
and Management, and the Chief Financial Officer.

Key Indicator Data Comparison

      In order to verify the percent reduction in the convicted offender and
casework DNA backlogs reported for FY 2006 in the FY 2006 PAR, we
reviewed the NIJ’s spreadsheets showing the number of convicted offender
and casework DNA samples funded for analysis and the NIJ spreadsheets
summarizing the state’s convicted offender backlog estimations and the
casework backlog estimations. Based on our review, we did not find any
discrepancies with the performance data reported for this key indicator for
FY 2006.

Disclosure of Data Limitations

      The FY 2006 PAR reported no known data limitation for this key
indicator and during our audit we did not identify any data limitations for this
key indicator.

Number of Participants in the Residential Substance Abuse
Treatment Program – OJP

      This key indicator assesses the number of participants served by the
Residential Substance Abuse Treatment (RSAT) Program and is measured by
the OJP Bureau of Justice Assistance (BJA). The RSAT grants are formula


                                     - 43 -
based, meaning the grants are awarded to the 50 states and 6 territories on
a noncompetitive basis.25 The RSAT program provides inmates with
individual and group treatment activities that focus on substance abuse
problems in a residential treatment facility set apart from the general
correctional population. The substance abuse treatment programs are
generally conducted within the walls of the prisons. However, up to
10 percent of grant funds may be used for aftercare facilities.

Data Collection and Storage

       Annually, the BJA issues a grant announcement requesting that grant
applications be submitted in GMS by a designated deadline. The grant
announcement requires grantees to submit an annual RSAT Report that
collects numerical, cumulative, and narrative information on the treatment
program and participants in the program during the grantee’s previous fiscal
year. The state administering agency or the state department of corrections
is responsible for gathering the data and completing the annual RSAT
Report. However, the state may designate other personnel to complete this
task. The annual RSAT Reports are submitted in GMS as a requirement of
the grant. BJA personnel use the information on the annual RSAT Reports to
compile a consolidated spreadsheet for reporting the information for this key
indicator.

      We found that the grantees’ fiscal years differ. The scope of the
grantees’ fiscal year may be the federal government’s fiscal year, the
calendar year, or the state’s fiscal year. As a result, the data reported by
the grantees and compiled for this key indicator represents various time
periods and is neither exclusively fiscal year nor calendar year data. We
recommend that the BJA develop and implement procedures for collecting
and reporting data for a single consecutive 12-month period or disclose this
as a data limitation within the data limitations section of the PAR.

       We did not identify any issues with the BJA’s data storage processes
for this key indicator. The annual RSAT Reports are stored in GMS, and
OJP’s official hardcopy file is stored by the Office of the Chief Financial
Officer. Additionally, BJA program managers may maintain copies of the
annual RSAT Reports for their files.




      25
         The 6 territories include the District of Columbia, American Samoa, Guam,
Northern Mariana Islands, Puerto Rico, and United States Virgin Islands.



                                         - 44 -
Data Validation and Verification

      Data validation begins when BJA program managers receive the
annual RSAT Reports. The program managers review the reports for
completeness to determine whether the reports are acceptable. If an RSAT
Report is determined unacceptable, a BJA program manager notifies the
grantee and requests additional information. The information contained in
the reports is copied directly from GMS by OJP’s helpdesk and BJA personnel
into a spreadsheet, instead of manually typing the information. This process
prevents transposing numbers and other manual typing errors.

      According to BJA personnel, all states and territories submitted reports
in 2005. BJA personnel explained that if a grantee has not submitted its
report, a BJA program manager contacts the grantee to follow up on the
missing report and determine the reason it has not been submitted.
According to the OJP Grant Manager’s Manual dated September 2005, when
annual reports are not received within 30 days of the due date, the grantee’s
account is considered delinquent and the grant funds are automatically
frozen by GMS until the annual RSAT Report is received.

      Validation and verification is performed by OJP’s Budget Planning and
Performance Division in the Office of the Chief Financial Officer through
interviews with each division and the completion of the Data Verification
Form. This form is used for each key indicator and performance measure,
regardless of whether it is included in the PAR. The form collects
information on the data collection and validation processes, data limitations,
and the key indicator’s target and actual performance. It also requires
confirmation of the reported actual performance and a signature by a
program office point of contact. The information on the Data Verification
Form is used to revise the discussion section in the PAR and confirm the
accuracy of the information presented in the PAR for that key indicator.
Additionally, the MD&A write up is reviewed by various personnel within
OJP’s Budget Planning and Performance Division in the Office of the Chief
Financial Officer, the Audit and Review Division in the Office of Audit,
Assessment, and Management, and the Chief Financial Officer.

Key Indicator Data Comparison

     In order to verify the number of participants in the RSAT program in
2005 reported in the FY 2006 PAR, we reviewed the BJA’s spreadsheet




                                    - 45 -
compiling all of the information from the grantees’ annual RSAT Reports.26
The results are shown in Table 5.

TABLE 5:       NUMBER OF PARTICIPANTS IN THE RESIDENTIAL
               SUBSTANCE ABUSE TREATMENT PROGRAM
                  SOURCE                       RESULTS
            FY 2006 PAR Results                35,350
            OIG Audited Results                31,740
Source: FY 2006 DOJ PAR and the BJA’s spreadsheet

      Based on our discussion with BJA, BJA identified a discrepancy with the
35,350 RSAT program participants reported for 2005 in the FY 2006 PAR.
Using the spreadsheet provided by the BJA, BJA pointed out that for 2005 it
should have reported a total of 31,740 RSAT program participants.
Therefore, the number of RSAT program participants was overstated by
3,610 participants or 10.21 percent. We discussed this issue with BJA
management who attributed this error to challenges with the reporting
features within the GMS.

      According to DOJ’s Financial Statement Requirements and Preparation
Guide, “If actual performance data has changed from what was previously
reported in either document [PAR and the Department's Annual Budget
Summary], components must provide a full explanation in their MD&A. The
explanation must include sufficient detail for reviewers/auditors to follow.”
We recommended that the BJA implement procedures to ensure that RSAT
data is accurately reported. Further, we recommended that the BJA comply
with the DOJ Financial Statement Requirement and Preparation Guide and
restate the number of RSAT participants for 2005 and provide a full
explanation in its MD&A, which is compiled into the PAR. Prior to the release
of the FY 2007 PAR we discussed our preliminary recommendations with
BJA, who concurred and took action to disclose the overstatement for 2005
in the FY 2007 PAR.

       As part of our audit work, we reviewed the FY 2007 PAR and found
that BJA disclosed that “In Spring of 2007, the 2005 performance was
re-verified by the Bureau of Justice Assistance (BJA). BJA determined that
the actual count was 31,740 rather than 35,350 reported in the 2006. The
variance in the number previously reported is a result of the OJP’s continuing
efforts to enhance data collection and data verification processes. . . . As a
result, previously submitted numbers were updated and resubmitted to

       26
          BJA’s data limitation disclosed that a “Statutorily mandated calendar year
reporting requirement.” Therefore, we audited 2005 data that was presented in the
FY 2006 PAR.


                                          - 46 -
reflect more accurate numbers and additional reports received from some
states.” In addition, the BJA reported the correct number of RSAT
participants for 2005 in the FY 2007 PAR. In our opinion, the BJA
adequately restated the number of RSAT participants for 2005, and provided
an explanation in the PAR in accordance with our preliminary
recommendation. However, we continue to recommend that the BJA
develop and implement procedures to ensure that RSAT data is accurately
reported in the future.

Disclosure of Data Limitations

       In the FY 2006 PAR, the BJA disclosed the following data limitation,
“Statutorily mandated calendar year reporting requirement.” However, the
data is presented as “FY 2005 Actual” data in the PAR. Therefore, the data
limitation and the scope of the data presented in the PAR are contradictory.
Further, we found that the data is reported on the grantee’s fiscal year,
which represents various time periods that are neither exclusively fiscal year
nor calendar year data. We recommended that the BJA present the accurate
scope of the performance data in the PAR. We discussed this preliminary
recommendation with the BJA prior to the release of the FY 2007 PAR. BJA
personnel concurred and presented the accurate scope of the performance
data in the FY 2007 PAR.

      As part of our audit, we assessed BJA’s compliance with our
preliminary recommendation and found that the BJA presented the accurate
scope of the performance data in the FY 2007 PAR by disclosing that the
performance data is collected according to the grantee’s fiscal year, which
may not be the same for all grantees. Therefore, we are not including a
formal recommendation on this issue.

Recommendations

We recommend that OJP:

6.    Coordinate with the BJA to develop and implement procedures for
      collecting and reporting data for a single consecutive 12-month period
      or disclose this as a data limitation within the data limitations section
      of the PAR for the key indicator “Number of Participants in the
      Residential Substance Abuse Treatment Program.”

7.    Coordinate with the BJA to develop and implement procedures to
      ensure that RSAT data is accurately reported in the future for the key
      indicator “Number of Participants in the Residential Substance Abuse
      Treatment Program.”


                                    - 47 -
Increase in the Graduation Rate of Drug Court Program
Participants - OJP

       This key indicator tracks the graduation rate of Drug Court Program
participants and calculates the increase in the graduation rate. It is
measured by OJP’s BJA. The Drug Court Discretionary Grant Program is a
competitive solicitation that accepts applications from potential grantees for
grant funds. A peer review looks at each application and selects the
grantees. The grant funds are to be used by the grantee to establish or
enhance its Drug Court Program. The goal of the BJA’s Drug Court Program
is to provide financial assistance to states, state and local courts, units of
government, and tribal governments in order to improve or establish drug
treatment courts.

      The Drug Court Program began as a way to reduce crime and
substance abuse among non-violent offenders. A defendant may enter a
Drug Court Program by making or accepting a guilty plea and successfully
completing the program. After sentencing, the drug court assigns the
defendant a treatment provider with educational resources and programs
lasting 12 to 16 months. Once the Drug Court Program is successfully
completed, the defendant’s case is often dismissed.

Data Collection and Storage

      The data collection process begins by collecting the semi-annual
progress reports submitted by the grantees. The reporting periods for the
two progress reports are January 1 through June 30 and July 1 through
December 31.27 The progress reports require the following information for
the reporting period: (1) the number of participants in the grantee’s Drug
Court Program, (2) the number of participants that graduated from the Drug
Court Program, and (3) the services that the Drug Court Program provided.
The progress reports are due within 30 days of the end of the reporting
period and are submitted through GMS. In addition, grantees are required
to submit a final progress report once the grant ends.

       BJA program managers review progress reports to ensure all of the
information has been provided by the grantee. The data is then extracted
from GMS by OJP Information Technology personnel and provided to BJA
staff in a spreadsheet. The BJA policy advisor reviews the spreadsheet and
looks for any missing information. If the policy advisor requires any

      27
         The grant announcement informs the grantees of the semi-annual progress report
requirements.


                                        - 48 -
additional information, that person notifies the program manager to contact
the grantee. The program specialist reviews historical data and deviations
from the mean to determine whether the aggregated data is comparable of
historical data.

      If a grantee does not provide a progress report, a BJA program
manager contacts the grantee to follow up on the missing report and
determine why it has not been submitted. When progress reports are not
received within 30 days of the due date, the grantee’s account is considered
delinquent and its funds are automatically frozen by GMS until the progress
report is submitted.

       We found that the 31.9 percent graduation rate of drug court
participants reported for FY 2006 in the FY 2006 PAR does not encompass
the entire fiscal year. Instead, it only represents January through June of
FY 2006. Therefore, the drug court graduation percentage reported in the
FY 2006 PAR may be inaccurate because it represents 6 months instead of a
12-month period. Further, this may affect the 13.8 percent increase in the
graduation rate reported in the FY 2006 PAR. We recommended that the
BJA revise its reporting procedures to ensure that it collects complete data
from all grantees for a consecutive 12-month period.

      Further, we found that the data reported in the FY 2006 PAR is
presented as fiscal year data when instead it represents the state’s fiscal
year data using the data collection methodologies described by the BJA. We
recommended that the BJA present the accurate scope of the performance
data in the PAR.

      Prior to the release of the FY 2007 PAR, we discussed both of these
preliminary recommendations with BJA personnel. BJA agreed with both
recommendations and took action to collect data for a consecutive 12-month
period, disclose the scope of the 12-month period, and present the accurate
scope of the performance data in the FY 2007 PAR. As part of our audit, we
reviewed the FY 2007 PAR and found that the BJA disclosed that “End of
year performance data for the Drug Court Program is provided by
semi-annual progress reports via the GMS in August. Beginning with data
reported for 2007, data collected and reported will cover a single
consecutive 12-month period from July 1, 2006 through December 31, 2006
and January 1, 2007 through June 30, 2007.” In our judgment, the BJA now
adequately collects data for a consecutive 12-month period, disclosed the
scope of that 12-month period, and presented the accurate scope of the
performance data in the FY 2007 PAR. Therefore we are not including any
formal recommendations on these issues.



                                   - 49 -
       We did not identify any issues with the BJA’s data storage processes
for this key indicator. The data for this key indicator is collected on progress
reports that are stored in GMS, and OJP’s official hardcopy file is stored by
the Office of the Chief Financial Officer. In addition, BJA program managers
may maintain a copy of the progress reports for their files.

Data Validation and Verification

       We did not identify any issues with the BJA’s data validation and
verification processes for this key indicator. Data validation and verification
begins with the program office continually: (1) reviewing progress reports,
(2) conducting desk reviews, and (3) conducting site visits. BJA program
managers are responsible for managing the grants awarded and reviewing
the progress reports to ensure all of the needed information has been
provided by the grantee. According to BJA personnel, program managers
monitor between 250 and 300 grants covering 25 to 30 programs primarily
through desk reviews and site visits.

      According to the September 2005 OJP Grant Manager's Manual “A desk
review or desk monitoring consists of reviewing grant files to ensure they
are complete, accurate, and up-to-date so as to assess grantee performance
and compliance.” The August 2005 BJA Monitoring Guide explains that “The
desk review will assist BJA staff in determining which grantees need the
most assistance requiring a monitoring visit.” We obtained a list of the desk
reviews conducted in FY 2006 and found that 166 desk reviews were
conducted on 126 grants. Therefore, the BJA complied with OJP’s
requirement to conduct desk reviews periodically.

      We also determined that in FY 2006 the BJA conducted 12 site visits
on 12 grants to review financial reports and ensure grantees are keeping
current with grant awards and file maintenance. Specifically, BJA staff “visit
the program facility and meet with staff to ensure that the program adheres
to established guidelines.”28 Additionally, the site visits determine the
grantee’s graduation criteria and the number and percentage of Drug Court
Program participants who graduated from the program. The
September 2005 OJP Grant Manager's Manual says that “The number of
times a grant manager conducts an onsite visit is determined by each
bureau or program office and based upon programmatic need or requests by
the grantee.” Therefore, the BJA complied with OJP’s requirement to
conduct site visits at the discretion of each bureau.




      28
           BJA Monitoring Guide, August 2005.


                                         - 50 -
       Validation and verification is performed by OJP’s Budget Planning and
Performance Division in the Office of the Chief Financial Officer through
interviews with each division and the completion of the Data Verification
Form. This form is used for each key indicator and performance measure,
regardless of whether it is included in the PAR. The form collects
information on the data collection and validation processes, data limitations,
and the key indicator’s target and actual performance. Additionally, the
form requires confirmation of the reported actual performance and a
signature by a program office point of contact. The information on the Data
Verification Form is used to revise the discussion section in the PAR and
confirm the accuracy of the information presented in the PAR for that key
indicator. Finally, the MD&A write up is reviewed by personnel within OJP’s
Budget Planning and Performance Division in the Office of the Chief Financial
Officer, Audit and Review Division in the Office of Audit, Assessment, and
Management, and the Chief Financial Officer.

Key Indicator Data Comparison

      In order to verify the increase in the graduation rate of Drug Court
Program participants reported for FY 2006 in the FY 2006 PAR, we reviewed
the BJA’s supporting document that compiled all of the information from the
grantees’ progress reports. Based on our review, we did not find any
discrepancies with the performance data reported for this key indicator for
FY 2006. However, as stated previously, this percentage does not
encompass a 12-month period.

      Additionally, we found that the bar graph for this key indicator in the
FY 2006 PAR is titled, “Increase in the Graduation Rate of Drug Court
Program Participants,” while the bar graph displayed the graduation percent,
not the graduation percent increase. Specifically, the bar graph illustrates
the graduation rate of 31.9 percent instead of the 13.8 percent increase in
the graduation rate as stated in the title. JMD uses the DOJ components’
MD&A to draft the PAR and is responsible for generating the bar graphs in
the PAR. Therefore, we recommended that JMD revise the title of the bar
graph in the PAR in order to clarify the information illustrated. We discussed
this preliminary recommendation with JMD prior to the release of the
FY 2007 PAR. JMD concurred with our preliminary recommendation and took
action to adjust the title of the bar graph in the FY 2007 PAR.

     As part of our audit, we reviewed the FY 2007 PAR and found that JMD
changed the title to “Graduation Rate of Program Participants in the Drug
Courts Program.” In our opinion, JMD adequately revised the title of the bar
graph in the FY 2007 PAR. Therefore, we are not including a formal
recommendation on this issue.


                                    - 51 -
Disclosure of Data Limitations

      In the FY 2006 PAR, the BJA did not identify any data limitations.
Based on our review, we did not identify any additional data limitations for
this key indicator.




                                    - 52 -
IV.   STRATEGIC GOAL IV: ENSURE THE FAIR AND EFFICIENT
      OPERATION OF THE FEDERAL JUSTICE SYSTEM

      Strategic Goal IV contains 11 key indicators, of which 9 were included
      in our audit scope. We did not find any discrepancies in seven of the
      nine key indicators. Specifically, for the key indicators relating to
      judicial proceedings, federal fugitives, per-day jail costs, crowding in
      federal prisons, escapes from secure Federal Bureau of Prisons (BOP)
      facilities, the American Correctional Association accreditations, and
      Executive Office for Immigration Review priority cases we determined
      that the data collection, storage, validation, and verification processes
      for these key indicators were adequate and did not identify any data
      limitations beyond those already disclosed.

      For the key indicator “Comparative Recidivism for Federal Prison
      Industries (FPI) Inmates versus non-FPI Inmates,” we found that the
      BOP did not disclose all of its data limitations in the FY 2006 PAR.

      For the key indicator “Rate of Assaults in Federal Prisons per
      5,000 Inmates,” we determined that the BOP overstated the rate of
      assaults per 5,000 inmates.

       According to the DOJ FY 2003-2008 Strategic Plan, “The Department
plays a key role in the administration of the federal justice system.” DOJ’s
responsibilities include protecting judges, witnesses, and federal proceeding
participants; ensuring the appearance of criminal defendants for judicial
proceedings and confinement; apprehending fugitives; providing safe,
secure, and humane confinement for detained persons; maintaining and
operating the federal prison system; providing services and programs to
assist inmates to successfully re-enter society; and adjudicating all
immigration cases promptly and impartially in accordance with due process.

       We discuss below each of the nine key indicators we reviewed related
to this strategic goal.

Number of Judicial Proceedings Interrupted Due to Inadequate
Security – USMS

      This key indicator determines the number of judicial proceedings
interrupted due to inadequate security and is measured by the United States
Marshals Service (USMS). Interruption of a judicial proceeding is defined by
the USMS as either removal of a judge from a courtroom or a suspended
proceeding while the USMS requests additional deputies to guarantee the
safety of the judge, witnesses, and other participants.


                                     - 53 -
        According to the FY 2006 PAR, “The USMS maintains the integrity of
the judicial security process by: (1) ensuring that each federal judicial
facility is secure – physically safe and free from any intrusion intended to
subvert court proceedings; (2) guaranteeing that all federal, magistrate, and
bankruptcy judges, prosecutors, witnesses, jurors, and other participants
have the ability to conduct uninterrupted proceedings; (3) maintaining the
custody, protection, and safety of prisoners brought to court for any type of
judicial proceeding; and (4) limiting opportunities for criminals to tamper
with evidence or use intimidation, extortion, or bribery to corrupt judicial
proceedings.”

Data Collection and Storage

       We did not identify any issues with the USMS's data collection and
storage processes for this key indicator. Data for this key indicator is
collected on the Use of Force Reports, Form USM-133, which details major
occurrences. A Form USM-133 is completed by USMS Deputies in 94 USMS
districts and reviewed by district directors or program managers prior to
providing it to the Office of Internal Affairs. USMS policy requires
completion of the Form USM-133 after a major occurrence.

Data Validation and Verification

       We did not identify any issues with the USMS’s data validation and
verification processes for this key indicator. The district directors or
program managers review the completed USM-133 Forms. The USMS
Planning and Evaluation Group receive both the completed USM-133 Forms
and weekly e-mails to verify the incident and determine if it meets the key
indicator definition. The USMS Planning and Evaluation Group contact the
USMS districts and divisions to verify the incident, prior to preparing the
quarterly status reports for JMD. The quarterly status reports are used to
cross-reference the annual number of interruptions provided for the PAR.

Key Indicator Data Comparison

      According to the USMS, no judicial proceedings were interrupted due
to inadequate security during FY 2006. Based on our review, we did not find
any discrepancies with the performance data reported for this key indicator
for FY 2006.




                                   - 54 -
Disclosure of Data Limitations

       The FY 2006 PAR disclosed that “This measure was not tracked or
reported until FY 2003.” During our audit, we did not identify any data
limitations for this key indicator beyond the limitation already disclosed.

Federal Fugitives Cleared or Apprehended – USMS

       This key indicator identifies the number and percent of federal
fugitives cleared or apprehended and is measured by the USMS. In the
FY 2006 PAR the USMS states that, “Fugitives cleared consists of those cases
that the USMS has successfully completed all aspects of closure and has
removed from the active and outstanding records. This definition holds true
in cases where we do or do not have primary apprehension responsibility.”
Cleared fugitives include those who are deceased or who have been
apprehended, cases that have been dismissed, and any other reason why
the USMS search has ended.

       According to a statement in the FY 2006 PAR, “The USMS has primary
jurisdiction to conduct and investigate fugitive matters involving escaped
federal prisoners, probation, parole, bond default violators, warrants
generated by DEA investigations, and certain other related felony cases.”

Data Collection and Storage

       We did not identify any issues with the USMS’s data collection and
storage processes for this key indicator. Data for this key indicator is
collected and maintained in the USMS Warrant Information Network (WIN),
which tracks federal warrants. A Deputy Marshal or Investigative Research
Specialist at each of the 94 USMS districts enters warrant information into
WIN and the information is reviewed by a Warrant Supervisor. The USMS
Planning and Evaluations Group calculate the number and percent of
fugitives cleared using information from WIN, which is checked by the USMS
Investigative Services Division.

Data Validation and Verification

       We did not identify any issues with the USMS's data validation and
verification processes for this key indicator. These processes are conducted
by USMS Investigative Research Specialists using the Public Access to Court
Electronic Records system to run reports and obtain case and docket
information from federal courts to verify the warrant information. They also
revise case information in WIN from USMS Warrant Update Forms.
In addition, Investigative Research Specialists receive USMS Wanted Person


                                     - 55 -
Record Validation Memorandums detailing the records each district is
responsible for validating. Investigative Research Specialists confirm that
warrants in WIN are active, verify the WIN data against signed paper
records, and update the information in WIN. Additionally, USMS personnel
using WIN check the data entered into the system and cross-reference it to
their cases. Finally, USMS auditors conduct internal audits of WIN and case
files. During our audit, we observed how warrants are entered into WIN and
the system controls used to help ensure valid and accurate data.

Key Indicator Data Comparison

      In order to verify the percent and number of federal fugitives cleared
or apprehended in FY 2006 and reported in the FY 2006 PAR, we reviewed
the USMS’s WIN reports. Based on our review, we did not find any
discrepancies with the performance data reported for this key indicator for
FY 2006.

Disclosure of Data Limitations

       The FY 2006 PAR disclosed that “These elements of data are accessible
to all 94 judicial districts and are updated as new information is collected.
There may be a lag in the reporting of data.” During our audit, we did not
identify any additional data limitations beyond the limitation already
disclosed for this key indicator.

Per-Day Jail Costs – OFDT

      This key indicator measures the per-day jail costs, which is the
weighted average of the “actual price paid (over a 12-month period) by the
USMS to house federal prisoners in non-federal detention facilities.”29 It is
measured by the Office of the Federal Detention Trustee (OFDT) using
information from the USMS.

      According to the OFDT in the FY 2006 PAR “DOJ acquires detention
bed space to house pretrial detainees through reimbursable
Intergovernmental Agreements (IGAs) with State and local governments and
contracts with private vendors.” The OFDT uses information from the

       29
           According to OFDT personnel, medical facilities are excluded from the per-day jail
cost calculation because the cost incurred cannot feasibly be projected and therefore, a
negotiated per-day jail rate for medical facilities does not exist. If these facilities were
included in the key indicator, the per-day jail rate would be skewed and targeting for this
key indicator would be difficult due to the range in medical costs depending on the services
provided.



                                           - 56 -
USMS’s Prisoner Tracking System (PTS) to calculate the per-day jail cost.
PTS is decentralized with each of the 94 USMS districts maintaining separate
PTS databases.

Data Collection and Storage

       We did not identify any issues with the USMS’s or OFDT’s data
collection and storage processes for this key indicator. USMS districts
communicate with jails to locate available space for prisoners. The districts
track and enter all prisoner movement information into the PTS databases.
Currently, the aggregate data from the previous day is added to the
centralized database at USMS headquarters. The jail rates in PTS are set
and entered by USMS headquarters based upon established contracts and
intergovernmental agreements. Monthly, each of the USMS districts
calculate the jail rates from the counties and establish an obligation in the
Financial Management System.30 The obligations are closed out each month
and sent to USMS headquarters and the Financial Management System is
reconciled with the USMS’s Standardized Tracking, Accounting, and
Reporting System.

      Nightly, the OFDT receives data from PTS regarding the number of
prisoners held at each facility as of the close of business. This information is
used to complete a monthly report to calculate an average jail-day rate for
the month. Monthly reports are consolidated to generate a quarterly report,
which is used to generate a summary report. The summary report provides
the quarterly and fiscal year jail-day rates reported in the PAR. All of these
reports are stored on the OFDT’s computer system and can also be retrieved
from PTS if needed. They are also linked with automatic data feeds to
reduce data errors. The USMS and OFDT computer systems have user and
security access controls that limit access and edits to the systems. During
our audit, we observed prisoner information being entered into PTS and the
system controls that help ensure valid and accurate data.

Data Validation and Verification

      We did not identify any issues with the USMS’s or OFDT’s data
validation and verification processes for this key indicator. These processes
are ongoing and reviewed by multiple levels of personnel within the USMS.
USMS headquarters personnel also validate the jail days and jail rates each
month by running PTS reports by district. USMS runs a Jail Utilization


       30
           When the USMS receives jail bills from the counties, the bills are cross-checked
and verified before an obligation is established by the USMS district in the Financial
Management System.


                                           - 57 -
Report monthly and provides it to the OFDT. The OFDT uses the Jail
Utilization Report to verify the daily population feeds and the monthly feeds
from the PTS.

Key Indicator Data Comparison

      In order to verify the per-day jail costs reported for FY 2006 in the
FY 2006 PAR, we reviewed the OFDT’s monthly, quarterly, and summary
reports. Based on our review, we did not find any discrepancies with the
performance data reported for this key indicator for FY 2006.

Disclosure of Data Limitations

       For FY 2006, the OFDT disclosed that the “PTS is very time and labor
intensive. Lack of a real-time centralized system results in data that is close
to six weeks old before it is available at a national level.” During our audit,
we did not identify any data limitations for this key indicator beyond the
limitation already disclosed in the FY 2006 PAR.

System-wide Crowding in Federal Prisons – BOP

      This key indicator assesses the ratio of inmates held in BOP facilities
compared to the inmate capacity at BOP facilities and reports the percent
over capacity. In the FY 2006 PAR, the BOP explained that “System-wide
[crowding] represents all inmates in BOP facilities and all rated capacity,
including secure and non-secure (minimum security) facilities, low, medium,
and high security levels, as well as administrative maximum, detention,
medical, holdover, and other special housing unit categories.” The BOP
measures this key indicator.

Data Collection and Storage

        We did not identify any issues with the BOP’s data collection and
storage processes for this key indicator. The inmate data for this key
indicator is collected and stored in the BOP’s SENTRY system. Data entry in
SENTRY is centralized at the BOP Designation Sentence Computation Center
in Grand Prairie, Texas. The Inmate System Management Unit at each BOP
facility is responsible for correcting and updating the information in SENTRY.
BOP headquarters determines the rated capacity for each facility and records
it in SENTRY. Population levels are analyzed daily, and a SENTRY report
provides the inmate count within every BOP institution. The percentage of
capacity is then calculated by dividing the inmate population count by the
rate of capacity. Monthly, data is copied from SENTRY and placed in SAS
and the Key Indicators/Storage Support System (KI/SSS).


                                    - 58 -
Data Validation and Verification

       We did not identify any issues with the BOP’s data validation and
verification processes for this key indicator. The primary validation process
is conducted by the BOP’s Program Review Division. Additionally,
supervisors at the facilities, system managers, and the Correctional Services
Division validate the data in SENTRY.

Key Indicator Data Comparison

      In order to verify the system-wide crowding rate in FY 2006 reported
in the FY 2006 PAR, we reviewed the BOP’s Population Report. Based on our
review, we did not find any discrepancies with the performance data
reported for this key indicator for FY 2006.

Disclosure of Data Limitations

      The BOP did not identify any data limitations in the FY 2006 PAR.
During our audit, we did not identify any data limitations for this key
indicator.

Escapes from Secure BOP Facilities – BOP

        This key indicator measures the number of escapes from secure BOP
facilities, which includes administrative institutions and low, medium, and
high security institutions. The security levels of BOP facilities are classified
as either minimum, low, medium, or high, depending in part on the physical
design of each facility. The administrative category exists for specialized
populations such as pre-trial, mental health, and sex offender inmates. The
BOP measures this indicator.

Data Collection and Storage

      We did not identify any issues with the BOP’s data collection or storage
processes for this key indicator. The inmate data is collected and stored in
the BOP SENTRY system. For monitoring purposes, inmates are counted at
each BOP facility five times a day by personnel comparing a picture of each
inmate with the inmate in the cell. Escapes from secure BOP facilities are
rare and therefore are well known when they occur. During our audit, we
observed various modules in SENTRY and the system controls that help
ensure the data is valid and accurate.




                                     - 59 -
       The BOP Report of Incident, Form 583, is used as a first alert when an
event such as an escape, riot, or assault occurs. The Form 583 lists all
inmates thought to be involved in the escape; a separate Form 583 is not
completed for each inmate. This form is submitted by the BOP facility where
the escape occurred to the Correctional Services Division at the central
office, and is entered into various database systems, including SENTRY and
the BOP KI/SSS. After BOP personnel complete the preliminary interviews
with the inmates listed on the Form 583, a Misconduct Form is completed for
each inmate who is determined to have been involved in the escape and this
information is entered into the Chronological Disciplinary Report module of
SENTRY. The escape data in KI/SSS is later compared to the Chronological
Disciplinary Reports to ensure all of the information is accurate. The
Information Policies and Public Affairs Office extract the escapes data
directly from the BOP KI/SSS to compile the data for this key indicator. The
Budget Development Branch reviews the key indicator data before
submitting it to JMD for PAR reporting.

      The completed Forms 583 are stored in the Investigation Division for
record-keeping after being forwarded to the BOP Correctional Services
Division in Washington, D.C. A hard copy of the Misconduct Form is filed in
the inmate’s paper file at the BOP facility.

Data Validation and Verification

       We did not identify any issues with the BOP’s data validation and
verification processes for this key indicator. However, we found that few
validation procedures are in place since the escapes are well-known when
they occur. BOP facilities are responsible for correcting and updating the
information in SENTRY, and SENTRY is equipped with data entry controls
that limit and restrict access to data and edits to the system. Program
reviews are performed to ensure that BOP policies are being adhered to and
recorded escapes are investigated to determine why and how they occurred.
Additional reviews at BOP facilities include reviews of the SENTRY data by
supervisors, system managers, the Inmate System Management Unit, and
the Correctional Services Division. At the headquarters level, the
Information Policies and Public Affairs Office compares the Chronological
Disciplinary Reports to KI/SSS to ensure all of the information was copied
over from SENTRY.

Key Indicator Data Comparison

     In order to verify the number of escapes from secure BOP facilities in
FY 2006 reported in the FY 2006 PAR, we reviewed the BOP’s KI/SSS report



                                   - 60 -
on escapes. Based on our review, we did not find any discrepancies with the
performance data reported for this key indicator for FY 2006.

Disclosure of Data Limitations

      The BOP did not identify any data limitations in the FY 2006 PAR and
during our audit, we did not identify any data limitations for this key
indicator.

Comparative Recidivism Rates for FPI Inmates versus Non-FPI
Inmates – FPI, BOP

       This key indicator compares recidivism rates for inmates who
participated in the Federal Prison Industry (FPI) versus inmates who did not
participate, 3 years and 6 years after release from a secure facility. For this
key indicator, recidivism is defined in the PAR as “a tendency to relapse into
a previous mode of behavior . . . .” The BOP defines recidivated cases as
individuals who are arrested and returned to the legal system.

Data Collection and Storage

       We did not identify any issues with the BOP’s or FBI’s data collection
and storage processes for this key indicator. Data for this key indicator is
collected in two systems, the BOP’s SENTRY and the FBI’s Interstate
Identification Index (III). SENTRY contains such inmate information as
personal characteristics, background, criminal history, and the programs the
inmate participated in while in a BOP facility. Data entry is centralized at the
BOP Designation Sentence Computation Center and the Inmate System
Management Unit at each BOP facility is responsible for correcting and
updating the information in SENTRY. The BOP’s SENTRY is equipped with
data entry controls that can limit and restrict access to data and edits to the
system. The FBI’s III contains records of state and federal arrests and is
used by the BOP to depict a more accurate and complete picture of inmate
recidivism.

      Annually, the BOP sends a file listing all of the inmates in SENTRY to
the FBI data center. The file includes the inmate’s FBI number, registration
number, and name. The FBI matches and merges this information with the
III data, storing the information on a tape that is provided to the BOP. The
BOP loads this information onto its server and uses SAS to analyze the data.

     SAS uses Cox’s Proportional Hazard Model to analyze this information
because it can estimate the outcome by comparing one group to another
group, using the assumption that the two groups recidivate at the same


                                     - 61 -
rate.31 First, the propensity score is used to ensure the two groups are
comparable and then to select the appropriate comparison subjects. This is
achieved by having a study group that participated in the FPI program for
6 months or longer and a reservoir consisting of inmates who would have
participated in the FPI program if the opportunity would have presented
itself. Each study group individual is matched to an individual in the
reservoir who has similar characteristics, including age, race, sex, criminal
history, and previous conviction. Each individual in the study group can only
be matched to one individual in the reservoir, and once an individual in the
reservoir is matched that person is removed from the reservoir. Propensity
score matching occurs quarterly for the inmates released during the quarter
because employment is seasonal and recidivism can relate to
unemployment. According to BOP personnel, the propensity score allows for
the determination of an unbiased effect.

      Cox’s Proportional Hazard Model summarizes the individual
predictions. The scope of the annual data runs are recidivism after 3 years
and recidivism after 6 years. Cox’s Proportional Hazard Model predicts the
number of days inmates will be released before they recidivate.

      The data for this key indicator are stored in the BOP's SENTRY and the
FBI's III. Additionally, BOP officials stated that each BOP facility maintains a
paper file for each inmate who served time in that facility and this
information is also stored in SENTRY.

Data Validation and Verification

        We did not identify any issues with the data validation and verification
processes for this key indicator. As mentioned previously, BOP facilities are
responsible for correcting and updating the information in SENTRY. Because
the information in SENTRY is used daily by various personnel at BOP
facilities, any errors identified are corrected by BOP personnel at the facility.
Additionally, according to BOP policy, program reviews are conducted every
180 calendar days and include a review of inmate files for progress in
recommended programs, as well as new programs that may be
recommended based on the inmate’s skills.32

      According to BOP personnel, data validation may be performed on the
FBI’s III information. The FBI’s III is an index system to which each state’s
record management systems are linked. The III continually extracts


      31
         Cox’s Proportional Hazards Model is a regression model in statistics.
      32
         BOP Program Statement 5322.12, regarding Inmate Classification and Program
Review, November 2006.


                                       - 62 -
information from each state’s record management system. Verification of
each state’s information is the responsibility of that state. BOP personnel
added that the states may notify one another when an error is identified in
another state’s information, but it is the responsibility of the state with the
error to make the correction.

      The final validation process is performed by the BOP Office of Research
using a snapshot of the data instead of running Cox’s Proportional Hazard
Model against the live data. The snapshots are reviewed by Office of
Research staff to ensure that they appear accurate. The review includes
comparing the snapshots to previous snapshots to identify any anomalies.
Then, a data set is generated for further analysis.

Key Indicator Data Comparison

      We reviewed the SAS Output Report in order to verify the comparative
recidivism rates for FPI inmates versus non-FPI inmates in FY 2006 reported
in the FY 2006 PAR. Based on our review, we did not find any discrepancies
with the performance data reported for this key indicator for FY 2006.

Disclosure of Data Limitations

       We identified two additional data limitations beyond those disclosed in
the FY 2006 PAR. The FY 2006 PAR disclosed, “Although non-citizens make
up a large minority of the BOP population, they are excluded from analysis
because many of them are deported following release from prison, and it is
not known if they recidivate. Projected targets are based on earlier studies
done on recidivism of the FPI participating inmates and their
nonparticipating counterparts. The results of this ongoing research may
differ due to changes in the program, improved research methods, changes
in the composition of the inmate population, and changes in the quality and
comprehensiveness of data, especially automated data on recidivism.”

        We found that Vermont, Maine, and Washington, D.C., are not
participating in the FBI’s III. Therefore, if a BOP-released inmate was
arrested in either of these states or in Washington, D.C., it may not be
reported in the FBI’s III. Specifically, if the inmate was returned to a BOP
facility, SENTRY would capture this data. However, if the inmate was
returned to a state or local facility in one of these entities, the FBI’s III
would not capture this data. As a result, this information would not be
reported and included within the BOP's statistical model that generates the
results reported in the PAR. Additionally, according to BOP personnel, for
the same reason the following states may be under-represented and
reported in the recidivism data: New Jersey, North Carolina, Oregon,


                                     - 63 -
Florida, Kentucky, Hawaii, Maine, and Idaho. We recommend that the BOP
disclose this information within the data limitations section of the PAR or, in
the alternative, revise the key indicator to alleviate this data limitation.

       Additionally, according to BOP personnel, a data lag can occur between
the time an inmate is arrested and when the information is entered into the
entity’s record management system or into SENTRY. This limitation may
cause the results reported in the PAR to be under- or over-reported. We
determined that this data limitation was not disclosed in the FY 2006 PAR.
Therefore, we recommend that the BOP disclose the data lag within the data
limitations section of the PAR.

       During our Exit Conference, we discussed both of these
recommendations with BOP personnel who explained that it has revised this
key indicator to compare FPI inmates versus non-FPI inmates returned to
the federal prison system for a new offense and no longer relies on the FBI’s
III information. However, since this information was not reflected in
FY 2007 PAR we are providing the recommendations shown below.

Recommendations

We recommend that the BOP:

8.    Disclose within the data limitations section of the PAR, the states that
      do not participate in the FBI’s III, and that the results reported in the
      PAR do not include all federal and state crimes committed and arrests
      in these states and Washington, D.C.; in the alternative, revise the key
      indicator “Comparative Recidivism Rates for FPI Inmates versus
      Non-FPI Inmates” to address this data limitation.

9.    Disclose within the data limitations section of the PAR the data lag
      between the time an inmate is arrested and when the information is
      entered into the state’s record management system or into SENTRY for
      the key indicator “Comparative Recidivism Rates for FPI Inmates
      versus Non-FPI Inmates.”

Rate of Assaults in Federal Prisons (Assaults per 5,000
Inmates) - BOP

      This key indicator is measured by the BOP and represents the number
of assaults in federal prisons per 5,000 inmates, including inmate-on-inmate
assaults, inmate-on-staff assaults, serious assaults, and less serious




                                     - 64 -
assaults.33. The assault data included in this indicator covers allegations of
assault that have been adjudicated by BOP Disciplinary Hearing Officers.
This indicator was changed in the FY 2007-2012 Strategic Plan to the “Rate
of Serious Assaults in Federal Prisons (per 5,000 inmates),” which beginning
in the FY 2007 PAR will only measure serious inmate-on-inmate assaults,
instead of inmate-on-inmate assaults, inmate-on-staff assaults, serious
assaults, and less serious assaults.

Data Collection and Storage

      We did not identify any issues with the BOP’s data collection or storage
processes for this key indicator. Data for this key indicator is collected in the
BOP’s SENTRY computer system. Data entry is centralized at the BOP
Designation Sentence Computation Center, and the Inmate System
Management Unit at each BOP facility is responsible for correcting and
updating the information in SENTRY. SENTRY is equipped with data entry
controls that can limit and restrict access to data and edits to the system.

      Data collection begins with a Report of Incident Form, Form 583, which
is used for immediate reporting and as a first alert when an undesirable
event occurs at a BOP facility. When any assault occurs at a BOP facility, a
Form 583 is completed and provided to the appropriate BOP personnel. The
form includes the names of all of the inmates involved and the inmates in
the area where the assault occurred. The BOP central office enters the
Form 583 information into SENTRY and the completed forms are stored in
the BOP Investigation Division.

      After preliminary interviews with the inmates listed on the Form 583, a
Misconduct Form is completed for each inmate who is determined to have
been involved in the assault and this information is entered into the
Chronological Disciplinary Report module of SENTRY. A hard copy of the
Misconduct Form is filed in an inmate’s paper file at the BOP facility.

      Disciplinary Hearing Officers, located in each BOP region, are involved
in investigating the incident reported on the Misconduct Forms. When an
incident occurs, the Disciplinary Hearing Officers receive a packet of
information to assist with the investigation and an analysis of the incident.
The Unit Disciplinary Committee conducts video conferences briefing the
Disciplinary Hearing Officers, interviews the inmates involved, and makes a
decision on the incident. Additionally, the Unit Disciplinary Committee tracks
       33
           In the FY 2006 PAR, the BOP described a serious assault as “An assault that
results in major bodily injury or death . . .” and a minor or less serious assault as “An
assault that does not result in major bodily injury . . . .”



                                            - 65 -
the pending incident and each step is updated in the Chronological
Disciplinary Report module for record-keeping. The Disciplinary Hearing
Officers are responsible for recording the Unit Disciplinary Committee’s
decision on the incident in SENTRY.

      Data is copied monthly from SENTRY and placed in SAS. Adjudicated
cases are extracted from SAS and placed into the KI/SSS, where reports can
be generated on this key indicator. During our audit, we observed various
modules of SENTRY, SAS, and KI/SSS. In addition, we observed the system
controls that help ensure valid and accurate data.

Data Validation and Verification

       We did not identify any issues with the BOP’s data validation and
verification processes for this key indicator. These processes are ongoing
and include multiple levels of review. Because the information in SENTRY is
used daily by various BOP personnel, any errors identified can be corrected
by BOP personnel at the facility. Additional reviews at BOP facilities include
reviews of the SENTRY data by supervisors, system managers, the Inmate
System Management Unit, and the Correctional Services Division. At
headquarters, the Information Policies and Public Affairs Office compare the
disciplinary reports to KI/SSS to ensure all of the information was copied
over from SENTRY. Finally, while adjudicating each case the Disciplinary
Hearing Officers verify the information in SENTRY to the file they received.

Key Indicator Data Comparison

      We reviewed the BOP's Injury Assessment for Acts of Inmate
Misconduct Report in order to verify the rate of assaults per 5,000 inmates
in FY 2006 reported in the FY 2006 PAR. The results are shown in Table 6.

TABLE 6:    RATE OF ASSAULTS IN FEDERAL PRISONS PER 5,000
            INMATES
                SOURCE                      RESULTS
           FY 2006 PAR Results                119
           OIG Audited Results                116
Source: FY 2006 DOJ PAR and the BOP’s Injury Assessment for Acts of Inmate Misconduct
        Report

      Based on our review, we found a discrepancy with the FY 2006 rate of
assaults per 5,000 inmates reported in the FY 2006 PAR by the BOP. We
found that the BOP overstated the rate of assaults by 2.76 percent. BOP
personnel reviewed the data that was used in generating the 119 reported in
the FY 2006 PAR and explained that the data set may have incorrectly


                                        - 66 -
included data on inmates housed in privately managed facilities, resulting in
a larger data set and possibly higher rate of assaults.

      According to DOJ’s Financial Statement Requirements and Preparation
Guide “If actual performance data has changed from what was previously
reported in either document [PAR and the Department's Annual Budget
Summary], components must provide a full explanation in their MD&A. The
explanation must include sufficient detail for reviewers and auditors to
follow.” However, because the indicator was changed in the Strategic Plan
for FY 2007-2012 to only measure serious inmate on inmate assaults, we do
not recommend that the BOP restate the FY 2006 actual rate of assaults in
federal prisons, as it will no longer relate to the new indicator. We
recommend that the BOP evaluate the cause of the overstatement and
implement procedures to ensure the rate of assaults in federal prisons per
5,000 inmates is accurately reported in the future.

Disclosure of Data Limitations

       The FY 2006 PAR disclosed the following data limitations, “The data
represent the number of assaults over a 12-month period per
5,000 inmates. Due to the time required to adjudicate allegations of
assault, there is a lag between the occurrence and reporting of guilty
findings. Due to accelerated reporting requirements (within 15 days of
quarter and fiscal year end) and to provide a more accurate assault rate, the
BOP began using 12 months of complete/adjudicated Chronological
Disciplinary Report data for each quarter and end of fiscal year reporting
beginning for FY 2004.” During our audit, we did not identify any data
limitations for this key indicator beyond those already disclosed in the
FY 2006 PAR.

Recommendation

We recommend that the BOP:

10.   Evaluate the cause of the FY 2006 overstatement and implement
      procedures to ensure the rate of assaults in federal prisons per
      5,000 inmates is accurately reported in the future for the key indicator
      “Rate of Assaults in Federal Prisons (Assaults per 5,000 Inmates).”




                                    - 67 -
Inspection Results – Percent of Federal Facilities with American
Correctional Association Accreditations – BOP

        This key indicator, which identifies the percent of federal prison
facilities with American Correctional Association (ACA) accreditations, is
measured by the BOP.

      We did not identify any issues with the BOP’s data collection, storage,
or data validation and verification processes for this key indicator. The
American Correctional Association (ACA) holds panel hearings twice each
year to review the ACA audit reports and to vote on whether BOP institutions
should receive accreditation. According to BOP personnel, the ACA provides
electronic reports for each audited institution, meeting minutes from the
panel hearings, and a letter listing BOP institutions that are accredited as of
the end of the fiscal year.

      Additionally, the BOP maintains the Accreditation Status Report, which
is BOP’s own list of ACA-accredited institutions. BOP personnel develop the
Accreditation Status Report based on the results of ACA panel hearings. The
BOP uses the ACA meeting minutes from the panel hearings to confirm and
verify the information on its Accreditation Status Report. The Accreditation
Status Report is updated twice yearly.

      The information on the BOP’s Accreditation Status Report is then
compared to the ACA letter that lists BOP accredited institutions to ensure
information is complete and accurate. If the figures on the two documents
match, the information is considered valid and verified. The BOP considers
the data reliable on the ACA letter since it comes directly from the ACA.

Key Indicator Data Comparison

      We reviewed the BOP’s Accreditation Status Report and the ACA letter,
in order to verify the actual percentage of accredited facilities in FY 2006
reported in the FY 2006 PAR. Based on our review, we did not identify any
discrepancies with the performance data reported for this key indicator for
FY 2006.

Disclosure of Data Limitations

      The BOP did not identify any data limitations in the FY 2006 PAR.
During our audit, we did not identify any data limitations for this key
indicator.




                                    - 68 -
Percent of Executive Office for Immigration Review Priority Cases
Completed Within Established Time Frames – EOIR

       In the FY 2006 PAR, the Executive Office for Immigration Review
(EOIR) stated that its “mission is to be the best administrative tribunal
possible, rendering timely, fair, and well considered decisions in the cases
brought before it . . . . Included in this context are the timely grants of
relief from removal in meritorious cases, the expeditious removal of criminal
and other inadmissible aliens, and the effective utilization of limited
detention resources.” The EOIR has set priorities and time frames for court
cases involving aliens seeking asylum, criminal aliens, other detained aliens,
and adjudicative time frames for all appellate cases filed with the Board of
Immigration Appeals. This key indicator measures EOIR’s progress in
meeting its priorities and time frames.

Data Collection and Storage

      We did not identify any issues with the EOIR’s data collection and
storage processes for this key indicator. The data is collected in the EOIR’s
case tracking system, the Automated Nationwide System for Immigration
Review (ANSIR), which is used in tandem with Case Access System for EOIR
(CASE) by the Board of Immigration Appeals and select courts since 2005.
Therefore, both ANSIR and CASE were used to collect and store the FY 2006
data that was reported in the FY 2006 PAR. According to EOIR, beginning in
FY 2008 CASE replaced ANSIR because CASE is a more technologically
advanced and timely web-based database system.

      During FY 2006, information was entered into ANSIR or CASE by court
or Board staff. Data is entered using the Judges Worksheet that documents
hearing information. A supervisor reviews the data entered into the systems
by comparing the information on the Judges Worksheet with the data in
ANSIR and CASE. The Office of the Chief Immigration Judge is responsible
for developing a Microsoft Access database to extract data from ANSIR and
CASE. The Office of the Chief Immigration Judge also reviews the database
for accuracy, verifies printed reports, and reviews final reports.

      According to EOIR Standard Operating Procedures Case Completion
Goal reports are generated through “a series of queries and tables . . . to
complete the reports and those detailed procedures are separated into five
sections; receipts, completions, detained completions, pending and
returns.”34 These reports are used to generate the percent of priority cases

       34
         Executive Office for Immigration Review, Office of Planning and Analysis,
Standard Operating Procedures, April 2007.


                                          - 69 -
completed within the EOIR-established time frames for the PAR. Both ANSIR
and CASE are equipped with data entry controls to restrict access to data
and edits in the systems. During our audit, we observed ANSIR at EOIR
headquarters and the systems and controls that help ensure valid and
accurate data.

Data Validation and Verification

       We did not identify any issues with the EOIR’s data validation and
verification processes for this key indicator. These processes are ongoing as
case information is added to the systems. Paralegals use checklists to
compare the case files to the information in the systems and correct errors,
including addresses, attorney information, and mistyped data fields. The
information is also validated by attorneys identifying missing or incorrect
information while working on a case. Additionally, aliens may notify the
EOIR if they identify any errors on the paperwork they receive.

        Currently, a program runs between ANSIR and CASE and generates a
file of discrepancies between the two systems. The EOIR Operation and
Maintenance staff reviews the discrepancies, in consultation with the
components, and determine if any changes need to be made. In addition,
when a data field is entered incorrectly, the data entry personnel receive a
message from the system to correct the field. The Court Evaluation
Programs conduct a comprehensive evaluation of each immigration court’s
operation and the accuracy of the entries into the ANSIR and CASE. These
audits are conducted on a 4-year rotating basis of the 54 courts, with 12 to
13 courts audited annually.

Key Indicator Data Comparison

      In order to verify the percent of the EOIR priority cases completed
within established time frames reported in the FY 2006 PAR, we reviewed
the EOIR’s Office of the Chief Immigration Judge Case Completion Reports
for FY 2006.35 Based on our review, we did not identify any discrepancies
with the performance data reported for this key indicator for FY 2006.




      35
          The EOIR priority cases include Institutional Hearing Program, Asylum, and
Detained cases. Our audit scope did not include Single Appeal and Panel Appeal cases
because they were discontinued from the key indicator as of September 30, 2006.


                                         - 70 -
Disclosure of Data Limitations

       The EOIR did not disclose any data limitations in the FY 2006 PAR, and
we did not identify any data limitations for this key indicator during our
audit.




                                   - 71 -
V.    CONCLUSION

       During our audit, we determined that components had implemented
various processes to review and validate their Management Discussion and
Analysis prior to submitting the information to JMD for compiling the
Performance and Accountability Report. However, our audit identified
deficiencies and issues in 9 of the 21 key indicators. This suggests that the
components need to improve their validation processes by examining the
accuracy of MD&A narratives covering the key indicators and verifying
supporting information necessary to ensure the accuracy of the key indicator
performance data. Component management should also assess the current
MD&A validation processes and determine whether any opportunities for
improvement exist and address those areas. Additionally, component
management should communicate to staff the need for accuracy of the key
indicator information presented in the MD&A for the PAR.

       Further, while we recognized that JMD officials are not currently in a
position to verify or adjust key indicator information provided by the
components, we believe that JMD should expand its oversight role to ensure
the accuracy of the key indicator performance data reported in the
components’ MD&As and subsequently compiled for the PAR. To accomplish
this oversight, JMD would require the supporting information to verify the
accuracy of the key indicator performance data. In addition, JMD should
issue a formal policy requiring components to provide the support for the
performance data with each component’s annual MD&A submission.

Recommendations

We recommend that the FBI; EOUSA; the Antitrust, Civil, Civil Rights,
Criminal, Environment and Natural Resources, and Tax Divisions; EOUST,
OJP; and BOP:

11.   Examine the accuracy of their MD&A narratives covering the key
      indicators and verify supporting information necessary to ensure the
      accuracy of the key indicator performance data. Additionally,
      component management should notify staff of the significant need for
      accuracy of the key indicator information presented in the MD&A for
      the PAR.




                                    - 72 -
We recommend that JMD:

12.   Prepare and issue a formal policy requiring components to provide the
      supporting performance data information with the annual MD&A
      submission. Additionally, JMD should develop and implement
      procedures for examining the performance information submitted by
      the components in their annual MD&As.




                                   - 73 -
                  SUMMARY OF RECOMMENDATIONS

      As a result of our audit, we make the following recommendations in
our audit report.

We recommend that the FBI:

1.   Revise the key indicator “Number of Child Pornography Websites or
     Web Hosts Shut Down,” to accurately measure the FBI’s role and
     activities.

2.   Develop and implement procedures to ensure that complete and
     accurate information is obtained to report on the key indicator
     “Number of High-Impact Internet Fraud Targets Neutralized,” or in the
     alternative, revise this key indicator.

We recommend that the Civil Rights Division:

3.   Exclude appellate cases from the quarterly and fiscal year information
     provided to JMD to comply with the statements in the PAR and to
     avoid over- or understating the percentage of cases favorably resolved
     for the key indicator “Percent of Cases Favorably Resolved.”

We recommend that OJP:

4.   Coordinate with the CCDO to present the accurate scope of the
     performance data in the PAR by listing the correct calendar year that
     the data covers for the key indicator “Reduction of Homicides Per Site
     Funded Under the Weed and Seed Program.”

5.   Coordinate with the CCDO to either use data sets that are limited to
     sites with data for both years or, in the alternative, remove the
     reduction portion from this key indicator and only report on the
     number of homicides per Weed and Seed site for the key indicator
     “Reduction of Homicides Per Site Funded Under the Weed and Seed
     Program.”

6.   Coordinate with the BJA to develop and implement procedures for
     collecting and reporting data for a single consecutive 12-month period
     or disclose this as a data limitation within the data limitations section
     of the PAR for the key indicator “Number of Participants in the
     Residential Substance Abuse Treatment Program.”




                                   - 74 -
7.    Coordinate with the BJA to develop and implement procedures to
      ensure that RSAT data is accurately reported in the future for the key
      indicator “Number of Participants in the Residential Substance Abuse
      Treatment Program.”

We recommend that the BOP:

8.    Disclose within the data limitations section of the PAR, the states that
      do not participate in the FBI’s III, and that the results reported in the
      PAR do not include all federal and state crimes committed and arrests
      in these states and Washington, D.C.; in the alternative, revise the key
      indicator “Comparative Recidivism Rates for FPI Inmates versus
      Non-FPI Inmates” to address this data limitation.

9.    Disclose within the data limitations section of the PAR the data lag
      between the time an inmate is arrested and when the information is
      entered into the state’s record management system or into SENTRY for
      the key indicator “Comparative Recidivism Rates for FPI Inmates
      versus Non-FPI Inmates.”

10.   Evaluate the cause of the FY 2006 overstatement and implement
      procedures to ensure the rate of assaults in federal prisons per
      5,000 inmates is accurately reported in the future for the key indicator
      “Rate of Assaults in Federal Prisons (Assaults per 5,000 Inmates).”

We recommend that the FBI; EOUSA; the Antitrust, Civil, Civil Rights,
Criminal, Environment and Natural Resources, and Tax Divisions; EOUST,
OJP; and BOP:

11.   Examine the accuracy of their MD&A narratives covering the key
      indicators and verify supporting information necessary to ensure the
      accuracy of the key indicator performance data. Additionally,
      component management should notify staff of the significant need for
      accuracy of the key indicator information presented in the MD&A for
      the PAR.

We recommend that JMD:

12.   Prepare and issue a formal policy requiring components to provide the
      supporting performance data information with the annual MD&A
      submission. Additionally, JMD should develop and implement
      procedures for examining the performance information submitted by
      the components in their annual MD&As.



                                    - 75 -
                      STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit, we considered the internal
controls at JMD and the 17 components included in our audit for the purpose
of determining our auditing procedures. The evaluation was not made for
the purpose of providing assurance on the internal control structure as a
whole. However, we noted certain matters that we consider to be reportable
conditions under the generally accepted Government Auditing Standards.36

Finding II

   •   The IC3 relies on FBI field offices and state and local law enforcement
       to provide neutralization information for the key indicator “Number of
       High-Impact Internet Fraud Targets Neutralized.” As a result, the IC3
       may not receive any feedback and therefore, cannot assure the
       accuracy of the neutralization information for this key indicator.

   •   EOUSA and the litigating divisions use two different dates – the
       disposition date and the system date – to report on the key indicator
       “Percentage of Cases Favorably Resolved,” which may provide
       inconsistent results.

   •   EOUSA and the litigating divisions may transfer cases among the
       litigating divisions and may also work jointly on cases. Therefore,
       multiple agencies may be reporting the same cases in the outcome
       numbers provided to JMD. As a result, some duplicate cases are
       included in the data consolidated by JMD for the key indicator
       “Percentage of Cases Favorably Resolved.”

Finding III

   •   Data for the key indicator “Number of Homicides Per Site Funded
       Under the Weed and Seed Program,” is reported annually to OJP on
       the grantees’ GPRA Reports. We found that the data sets used to
       report on the number of homicides per Weed and Seed site included
       data from all reporting sites irrespective of whether reporting occurred
       in previous years. Therefore, the data sets used were not comparative
       from one year to the next because different grantees reported in each
       data set.



       36
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in our
judgment, could adversely affect the ability of DOJ to accurately report on its key indicators.


                                             - 76 -
   •   For the key indicator “Number of Participants in the Residential
       Substance Abuse Treatment Program,” the BJA overstated the number
       of RSAT program participants by 3,610 participants or 10.21 percent
       and therefore, reported inaccurate data to JMD for reporting in the
       PAR.

   •   The data collected by the BJA for the key indicator “Increase in the
       Graduation Rate of Drug Courts Program Participants,” does not
       encompass an entire fiscal year. Therefore, the drug court graduation
       percentage reported in the FY 2006 PAR may be inaccurate because it
       represents a 6-month period (January through June), instead of a
       12-month period. Further, this may affect the 13.8 percent increase in
       the graduation rate compared to FY 2005 rate that was reported in the
       FY 2006 PAR.

Finding IV

   •   For the key indicator “Rate of assaults in Federal Prisons (Assaults per
       5,000 Inmates),” the BOP reported the rate of assaults per
       5,000 inmates as 119. However, we found that the BOP should have
       reported 116 as the rate of assaults per 5,000 inmates. Therefore,
       BOP overstated the rate of assaults by 2.76 percent and reported
       inaccurate data to JMD for reporting in the FY 2006 PAR.

      Because we are not expressing an opinion on the components’ internal
control structure as a whole, this statement is intended solely for the
information and use of JMD and the 17 components in overseeing each key
indicator’s data collection, storage, validation, and verification processes and
the disclosure of the data limitations.




                                     - 77 -
                   STATEMENT ON COMPLIANCE WITH
                       LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we reviewed
records and other documents pertaining to the key indicators to obtain
reasonable assurance that JMD and each of the 17 components included in
our audit complied with applicable laws and regulations that, if not complied
with, could have a material effect on the DOJ’s PAR. Compliance with laws
and regulations applicable to the key indicators is the responsibility of each
component’s management. An audit includes examining, on a test basis,
evidence about compliance with laws and regulations. At the time of this
audit, the pertinent legislation and the applicable regulations were:

   •   31 U.S.C. § 1115 (1993)

   •   31 U.S.C. § 3516 (2000)

   •   Office of Management and Budget Circular A-11, Section 230,
       Preparing and Submitting the Performance Portion of the Performance
       and Accountability Report

   •   Office of Management and Budget Circular A-136, Revised, Financial
       Reporting Requirements

   •   Department of Justice Financial Statement Requirements and
       Preparation Guide, August 2006

      Except for the issues discussed in the Findings and Recommendations
section of this report, nothing came to our attention that caused us to
believe that the components in this audit were not in compliance with the
laws and regulations related to the key indicators included in this audit.




                                    - 78 -
                                                               APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of the audit were to determine whether each key
indicator met the following criteria: (1) data collection and storage
processes were complete and accurate, (2) data validation and verification
processes were complete and accurate, and (3) data limitations provided by
the agency were complete and accurate. We did not assess whether the key
indicators were the best measures for DOJ.

      We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were necessary to accomplish the
audit objectives. The audit generally covered FY 2006 data. However, in
some instances when FY 2006 data was not available we included FY 2005
data. Our audit included 21 of the 28 key indicators listed in the FY 2006
PAR. The remaining seven key indicators were excluded because they were
either discontinued or long-term measures that were still in process at the
time of our audit.

      Audit work was conducted at JMD and the following 17 DOJ
components that were responsible for reporting on the 21 key indicators
included in our audit.

  •   Antitrust Division
  •   Organized Crime Drug Enforcement Task Force Program
  •   Civil Division
  •   Civil Rights Division
  •   Criminal Division
  •   Drug Enforcement Administration
  •   Environment and Natural Resources Division
  •   Executive Office for Immigration Review
  •   Executive Office for United States Attorneys
  •   Federal Bureau of Investigation
  •   Federal Bureau of Prisons
  •   Federal Prison Industries, Inc.
  •   Office of the Federal Detention Trustee
  •   Office of Justice Programs
  •   Tax Division
  •   United States Marshals Service
  •   United States Trustee Program

      We obtained information on: laws, guidance, and regulations
pertinent to our audit; the key indicator reporting and submission process;


                                   - 79 -
particular areas of concern to JMD; updates; and other key indicator
information.

       At each of the 17 components, we interviewed staff to:

   •   understand the procedures and rationale used to collect and store the
       key indicator data,

   •   identify the controls in place to ensure that key indicator data is
       complete and accurate,

   •   understand any processes used to validate and verify the key indicator
       data, and

   •   assess whether all data limitations were reported.

      Additionally, we reviewed policies, procedures, and other
documentation related to data collection, storage, validation, verification,
and limitations. We reviewed and compared the FY 2006 PAR and the
2008 Budget and Performance Summary. We also compared the key
indicators reported in the FY 2006 PAR with each component’s supporting
documentation to verify performance reported in the FY 2006 PAR and the
2008 Budget and Performance Summary and to identify any necessary
enhancements for future reporting.

      We also conducted audit work at the following Denver field offices:
the FBI, DEA, USMS, and BOP. We reviewed the data collection, storage,
validation, and verification processes at these agencies.

      To achieve the audit’s objectives, we relied on the computer-processed
data contained in the computer systems collecting and storing the key
indicator data for those included within the scope of our audit. We did not
establish the reliability of this data because this was not within the scope of
our audit objectives.




                                      - 80 -
                                                               APPENDIX II

                         LAWS AND REGULATIONS

Government Performance Results Act of 1993

      GPRA requires agencies to develop a 5-year Strategic Plan, which
should be updated at least every 3 years. GPRA also states that the
Strategic Plan must include: (1) a mission statement, (2) general goals and
objectives, (3) a description of how the goals and objectives will be
achieved, and (4) a description of how the performance goals relate to the
general goals and objectives. GPRA requires annual performance plans that:

   •   establish performance goals for program activities,

   •   establish key indicators that define how progress toward each
       performance goal is measured,

   •   outline all resources required to meet the performance goals, and

   •   describe how the measured values are verified and validated.

      GPRA requires annual performance reports on program performance
for the previous fiscal year. The performance report compares actual
performance achieved to the performance goals set in the performance plan.
In addition, the report reviews successes in achieving performance goals and
analyzes the reasons performance goals were not met. Finally, the report
must include plans for achieving the performance goals that were not met.

The Reports Consolidation Act of 2000

      The Reports Consolidation Act of 2000 encourages the consolidation of
financial and performance reports, in order to present information in a useful
format for Congress, the President, and the public. Through consolidation,
information can be shared efficiently and presented clearly.

OMB Circular A-11

      OMB Circular A-11, Section 230, Preparing and Submitting the
Performance Portion of the Performance and Accountability Report, 2005,
provides guidance on the preparation of the PAR, the contents of the PAR,
and the submission of the PAR to the President and Congress. OMB Circular
A-11 states, “The annual performance report required by GPRA provides



                                    - 81 -
information on your agency's actual performance and progress in achieving
the goals in your strategic plan and performance budget.”

      Specifically, OMB Circular A-11 requires that the following be included
in the PAR:

   •   A comparison of actual performance with the projected (target) levels of
       performance as set out in the performance goals in the agency's annual performance
       budget (or annual performance plan for fiscal years prior to FY 2006);
   •   An explanation, where a performance goal was not achieved, and why the goal was
       not met;
   •   A description of the plans and schedules to meet an unmet goal in the future, or
       alternative recommended action regarding an unmet goal where you have concluded
       it is impractical or infeasible to achieve that goal;
   •   An evaluation of your performance budget for the current fiscal year, taking into
       account the actual performance achieved;
   •   An assessment of the reliability and completeness of the performance data included
       in the performance report; and
   •   Actual performance information for at least four fiscal years.

      In order to be complete, performance data must address all key
indicators in the performance plan and include any available performance
data. In the absence of actual data, preliminary data or estimates may be
provided. For key indicators that have no data available, the report should
note when the data will be available.

       OMB Circular A-11 states:

       Performance data need not be perfect to be reliable, particularly
       if the cost and effort to secure the best performance data
       possible will exceed the value of any data so obtained. Agencies
       must discuss in their assessments of the completeness and
       reliability of the performance data any limitations on the
       reliability of the data. Additionally, agencies should discuss in
       their PARs efforts underway to improve the completeness and
       reliability of future performance information as well as any
       audits, studies, or evaluations that attest to the quality of
       current data or data collection efforts.

OMB Circular A-136

      The purpose of OMB Circular A-136, Revised, Financial Reporting
Requirements, July 2006, is to establish a single reference on all federal
financial reporting guidance for entities required to submit audited financial
statements, interim financial statements, and PARs. A submitting agency's
PAR must contain the following:


                                         - 82 -
  •   Agency Head Message

  •   Management's Discussion and Analysis (PAR Section 1)

  •   Performance Section (PAR Section 2)

  •   Financial Section (PAR Section 3)

  •   Other Accompanying Information (PAR Section 4)

      Our audit focused on PAR Sections 1 and 2 above. Section 1 contains
a “performance goals, objectives, and results” section, which “should
summarize the key performance measures reported in the Performance
Section of the PAR [Section 2].” Section 1 should highlight actual entity
performance compared to targeted performance goals and indicators in the
strategic and performance plan. Entities should discuss achievements and
evaluate any failure to meet established targets. OMB Circular A-136 states
that “Entities are encouraged to provide in the PAR information to help the
reader assess the relative efficiency and effectiveness of entity
programs/operations.”

      Section 2, the “Performance Section,” includes the elements previously
bulleted under OMB Circular A-11 and provides further detail, while
Section 1 highlights the performance information.




                                   - 83 -
                                                                            APPENDIX III

               COMPREHENSIVE LIST OF DOJ KEY INDICATORS
                         IN THE FY 2006 PAR
             KEY INDICATORS LISTED BY STRATEGIC GOAL                COMPONENT
 Strategic Goal I: Prevent Terrorism and Promote the Nation’s Security
  Terrorist Acts Committed by Foreign Nationals Against U.S.        FBI
  Interests within U.S. Borders
 Strategic Goal II: Enforce Federal Laws and Represent the rights and
 Interests of the American People
  Number of Organized Criminal Enterprises Dismantled               FBI
  Number of Child Pornography Websites or Web Hosts Shut Down       FBI
  Percent of High-Crime Cities, with an ATF Presence,               ATF
  Demonstrating a Reduction in Violent Firearms Crime37
  DOJ's Reduction in the Supply of Illegal Drugs Available for      ADAG/
  Consumption in the U.S.38                                         Drugs
  Consolidated Priority Organization Target-Linked Drug Trafficking FBI, DEA,
  Organizations Disrupted and Dismantled                            OCDETF
  Value of Stolen Intellectual Property39                           FBI
  Number of Top-Ten Internet Fraud Targets Neutralized              FBI
  Number of Criminal Enterprises Engaging in White-Collar Crimes    FBI
  Dismantled
  Percent of Cases Favorably Resolved                               EOUSA and
                                                                    Litigating
                                                                    Divisions40
  Percent of Assets/Funds Returned to Creditors for Chapter 7 and   USTP
  Chapter 13




       37
            This key indicator was excluded from our audit scope because it was discontinued.
       38
         This key indicator was excluded from our audit scope because it is a long-term
measure that is currently in process.
       39
          These key indicators were excluded from our audit scope because they were
discontinued as of September 30, 2006.
       40
           The litigating divisions include: Antitrust Division, Civil Division, Civil Rights
Division, Criminal Division, Environment and Natural Resources Division, and Tax Division.
The key indicator data for these divisions and EOUSA is consolidated by JMD Budget Staff.


                                            - 84 -
 Strategic Goal III: Assist State, Local, and Tribal Efforts to Prevent or
 Reduce Crime and Violence
  Reduction in Recidivism Rate from 2 percent in FY 2004 to 1.5     OJP
  percent in FY 2008 for the Population Served by the Re-Entry
  Initiative39
  Reduction of Homicides per Site Funded Under the Weed and         OJP
  Seed Program
  Percent Increase in Regional Information Sharing System           OJP
  Inquiries39
  Percent Reduction in DNA Backlog                                  OJP
  Number of Participants in the Residential Substance Abuse         OJP
  Treatment Program
  Increase in the Graduation Rate of Drug Court Program             OJP
  Participants
 Strategic Goal IV: Ensure the Fair and Efficient Operation of the Federal
 Justice System
  Number of Judicial Proceedings Interrupted Due to Inadequate      USMS
  Security
  Federal Fugitives Cleared or Apprehended                          USMS
  Per Day Jail Costs                                                OFDT
  Number of Escapes during Confinement in Federal Detention39       OFDT
                                        39
  Rate of Assaults in Federal Detention                             OFDT
  System-wide Crowding in Federal Prisons                           BOP
  Escapes from Secure Bureau of Prisons Facilities                  BOP
  Comparative Recidivism Rates for Federal Prison Industries        BOP, FPI
  Inmates versus Non-Federal Prison Industries Inmates
  Rate of Assaults in Federal Prisons (Assaults per 5,000 Inmates)  BOP
  Inspection Results – Percent of Federal Facilities with American  BOP
  Correctional Association Accreditations
  Percent of Executive Office for Immigration Review Priority Cases EOIR
  Completed Within Established Time Frames
Source: U.S. Department of Justice FY 2006 Performance and Accountability Report,
        Part II: FY 2006 Performance Report




                                        - 85 -
                                                                APPENDIX IV

                           DOJ KEY INDICATORS

Terrorist Acts Committed by Foreign Nationals Against U.S. Interests
within U.S. Borders – FBI

      FBI headquarters is responsible for coordinating all counterterrorism
investigations. The FBI must respond to terrorist acts that may include acts
with chemical, biological, radiological, explosive, and nuclear materials. As
stated in the PAR, this key indicator counts the number of “separate
incidents that involve the ‘unlawful use of force and violence against persons
or property to intimidate or coerce a government, the civilian population, or
any segment thereof, in furtherance of political or social objectives.’
(28 C.F.R. Section 0.85).” The PAR explains that for the purposes of this
indicator “the FBI defines a terrorist act as an attack against a single
target . . . .” whereas, “A terrorist incident may consist of multiple terrorist
acts.” FBI management maintains the documentation of terrorist acts
committed by foreign nationals within U.S. borders for this key indicator.

Number of Organized Criminal Enterprises Dismantled - FBI

      According to the PAR, the FBI’s Organized Criminal Enterprise Program
focuses “on criminal enterprises involved in sustained racketeering activities
and that are mainly comprised of ethnic groups with ties to Asia, Africa,
Middle East, and Europe . . . .” Organized criminal enterprise investigations
“target the entire entity responsible for the crime problem.” The PAR defines
dismantlement as “destroying the targeted organization's leadership,
financial base, and supply network such that the organization is incapable of
operating and/or reconstituting itself.” The FBI uses its Integrated
Statistical Reporting and Analysis Application database to collect data on the
number of dismantled organized criminal enterprises.

Number of Child Pornography Websites or Web Hosts Shut
Down - FBI

      The FBI works with many organizations to fight child pornography.
The Innocent Images National Initiative is a component of the FBI's Cyber
Crimes Program and its mission “is to identify, investigate, and prosecute
sexual predators who use the Internet and other online services to sexually
exploit children; identify and rescue child victims; and establish a law
enforcement presence on the Internet as a deterrent to subjects who seek to
exploit children.” Data for this key indicator is collected by the FBI’s Cyber
Crimes Program personnel.


                                     - 86 -
Percent of High-Crime Cities, with an ATF Presence, Demonstrating a
Reduction in Violent Firearms Crime – ATF

      The ATF defines high crime cities, in the PAR, as those “that have
1,000 or more murders, assaults, or robberies per 100,000 population. The
ATF presence is defined as the existence of an ATF field or satellite office in
the identified city.” The ATF uses data from the FBI’s Uniform Crime Report
to measure this key indicator. This key indicator was discontinued, and
therefore, was not included within the scope of this audit.

DOJ's Reduction in the Supply of Illegal Drugs Available for
Consumption in the U.S. – ADAG/Drugs

      As stated in the PAR, “DOJ’s strategy focuses on incapacitating entire
drug networks by targeting their leaders for arrest and prosecution, by
disgorging the profits that fund the continuing drug operations, and
eliminating the international supply sources.” This key indicator is a
long-term measure, currently in process of establishing a baseline, and
therefore, was not included within the scope of this audit.

Consolidated Priority Organization Target-Linked Drug Trafficking
Organizations Disrupted and Dismantled - FBI, DEA, OCDETF

       This key indicator focuses on disrupting and dismantling organizations
linked to organizations on the CPOT List. According to the PAR, “The [CPOT]
List identifies the most significant international drug trafficking and money
laundering organizations and those primarily responsible for the Nation’s
drug supply.” As stated in the PAR, “An organization is considered linked to
a CPOT, if credible evidence exists . . . of a nexus between the primary
target of the investigation and a CPOT target.” The PAR defines disruptions
as “impeding the normal and effective operation of the targeted
organization, as indicated by changes in the organizational leadership and/or
changes in methods of operation . . . .” and defines dismantled as
“destroying the organization's leadership, financial base and supply network
such that the organization is incapable of operating and/or reconstituting
itself.”

Value of Stolen Intellectual Property - FBI

      This key indicator measures intellectual property rights violations,
including copyright violations, theft of trade secrets, and software piracy.
Data for this key indicator was provided by industry sources, such as the
Motion Picture Association of America and the Recording Industry Association


                                     - 87 -
of America. This key indicator was discontinued as of September 30, 2006,
and therefore, was not included within the scope of this audit.

Number of Top-Ten Internet Fraud Targets Neutralized - FBI41

       In the PAR, the FBI defines Internet fraud as “any scam that uses one
or more components of the Internet to present fraudulent solicitations to
prospective victims, conduct fraudulent transactions, or transmit the
proceeds of fraud to financial institutions or others that are connected with
the scheme.” This key indicator is measured by the number of high-impact
targets neutralized. The IC3 defines high-impact Internet fraud targets
using the following criteria: (1) total dollar loss exceeds $100,000 (including
all complaints within a case); (2) an international nexus; (3) crimes may
include white-collar crime related fraud, such as economic crime, financial
institution fraud, money laundering scheme, and pharmaceutical fraud;
(4) phishing attack or identity theft; and (5) a high volume of victims. The
IC3 maintains the data for this key indicator.

Number of Criminal Enterprises Engaging in White-Collar Crimes
Dismantled - FBI

      The FBI’s White-Collar Crime Program investigates white-collar crimes,
which defined in the PAR include “health care fraud, financial institution
fraud, government fraud (e.g., housing, defense procurement, and other
areas), insurance fraud, securities and commodities fraud, telemarketing
fraud, bankruptcy fraud, environmental crimes and money laundering.” The
PAR defines dismantlement as “destroying the organization's leadership,
financial base, and supply network such that the organization is incapable of
operating and/or reconstituting itself.” The FBI’s Integrated Statistical
Reporting and Analysis Application collects data on the number of dismantled
organized criminal enterprises engaging in white-collar crimes.

Percent of Cases Favorably Resolved – EOUSA and the Litigating
Divisions

      This key indicator includes the Executive Office for United States
Attorneys and the following six DOJ litigating divisions: (1) Environment and
Natural Resources Division, (2) Antitrust Division, (3) Criminal Division,
(4) Tax Division, (5) Civil Division, and (6) Civil Rights Division. As stated in
the PAR, “Cases favorably resolved includes those cases that resulted in
      41
         In the FY 2006 PAR examined by our audit, the key indicator was titled, “Number
of Top-Ten Internet Fraud Targets Neutralized.” However, the key indicator was revised in
the 2008 Budget and Performance Summary to the “Number of High-Impact Internet Fraud
Targets Neutralized.”


                                         - 88 -
court judgments favorable to the government, as well as settlements.” Data
for this key indicator is collected by the U.S. Attorneys’ and each of the
litigating divisions’ case management systems and is consolidated by JMD
Budget Staff.

Percent of Assets/Funds Returned to Creditors for Chapter 7 and
Chapter 13 – USTP

      As stated in the PAR, the USTP “ensures that parties comply with the
law and that bankruptcy estate assets are properly handled.” Specifically,
“Chapter 7 bankruptcy proceedings are those where assets that are not
exempt from creditors are collected and liquidated (reduced to
money). . . . In Chapter 13 cases, debtors repay all or a portion of their
debts over a three to five year period.” The focus of this key indicator is to
calculate the percentage of assets and funds returned to creditors for
bankruptcies filed under Chapter 7 and Chapter 13.

Reduction in Recidivism Rate from 2 percent in FY 2004 to
1.5 percent in FY 2008 for the Population Served by the Re-Entry
Initiative – OJP

       As stated in the PAR, the Serious and Violent Offender Re-entry
Initiative includes juveniles and adults and “provides funding to state
correction departments to develop, implement, enhance, and evaluate
re-entry strategies that will ensure the safety of the community and the
reduction of revocation by serious and violent criminals.” OJP defines
recidivism as “criminal acts committed by offenders from the target
population that result in conviction, or return to prison with or without a new
sentence.” Data for this key indicator was collected from grantees. This key
indicator was discontinued as of September 30, 2006, and therefore, was
not included within the scope of this audit.

Reduction of Homicides per Site Funded Under the Weed and Seed
Program – OJP

       As stated in the PAR, “The Community Capacity Development Office’s
Weed and Seed program strategy assists communities in establishing
strategies that link federal, state, and local law enforcement and criminal
justice efforts with private sector and community efforts.” Specifically, the
Weed and Seed program “weeds out” the crimes in the community and
“seeds” the community with enhancement programs. The data for this key
indicator is collected from the grantees.




                                     - 89 -
Percent Increase in Regional Information Sharing Systems
Inquiries - OJP

      As stated in the PAR, “OJP’s Regional Information Sharing Systems
program is a nationwide communications and information-sharing network
that serves more than 7,000 law enforcement member agencies . . . .” This
key indicator measures the number of inquiries, in the Regional Information
Sharing Systems center criminal intelligence database. This key indicator
was discontinued as of September 30, 2006, and therefore, was not included
within the scope of this audit.

Percent Reduction in DNA Backlog – OJP

      As stated in the PAR, “The DNA Backlog Reduction program exists to
reduce the convicted offender DNA backlog of samples (i.e., physical
evidence taken from a convicted offender, such as blood or saliva samples)
awaiting analysis and entry into the FBI’s Combined DNA Index System
(CODIS).” This key indicator measures the percent reduction of both the
convicted offender DNA backlog and the casework backlog, which includes
analyzing and entering evidence from cases into CODIS.

Number of Participants in the Residential Substance Abuse
Treatment Program – OJP

      As stated in the PAR, the Residential Substance Abuse Treatment
program is a formula grant that provides funds for implementing the
following programs:

   •   residential substance abuse treatment programs, which provide
       individual and group treatment activities for offenders in residential
       facilities that are operated by state correctional agencies;

   •   jail-based substance abuse programs, which provide individual and
       group treatment activities for offenders in jails and local correctional
       facilities;

   •   post-release treatment component, which provides treatment following
       an individual’s release from custody; and

   •   an aftercare component, which requires states to give preference to
       subgrant applicants who will provide aftercare services to program
       participants.

The data for this key indicator is collected from the grantees.


                                      - 90 -
Increase in the Graduation Rate of Drug Court Program
Participants - OJP

      As described in the PAR, “The drug court movement began as a
community-level response to reduce crime and substance abuse among
criminal justice offenders. This approach integrated substance abuse
treatment, sanctions, and incentives with case processing to place
non-violent drug-involved defendants in judicially supervised rehabilitation
programs.” The data for this key indicator is collected from the grantees.

Number of Judicial Proceedings Interrupted Due to Inadequate
Security – USMS

       As described in the PAR, “The USMS maintains the integrity of the
judicial security process by: (1) ensuring that each federal judicial facility is
secure - physically safe and free from any intrusion intended to subvert
court proceedings; (2) guaranteeing that all federal, magistrate, and
bankruptcy judges, prosecutors, witnesses, jurors, and other participants
have the ability to conduct uninterrupted proceedings; (3) maintaining the
custody, protection, and safety of prisoners brought to court for any type of
judicial proceeding; and (4) limiting opportunities for criminals to tamper
with evidence or use intimidation, extortion, or bribery to corrupt judicial
proceedings.” An interruption of a judicial proceeding is defined as either
removal of a judge from a courtroom or the addition of the USMS Deputy
Marshals to control a situation. Data for this key indicator is collected from
the USMS Use of Force Reports and from weekly reports that detail any
major occurrences.

Federal Fugitives Cleared or Apprehended – USMS

      As stated in the PAR, “The USMS has primary jurisdiction to conduct
and investigate fugitive matters involving escaped federal prisoners,
probation, parole, bond default violators, warrants generated by DEA
investigations, and certain other related felony cases.” Additionally,
“Fugitives Cleared consists of those cases that the USMS has successfully
completed all aspects of closure and has removed from the active and
outstanding records.” The USMS Warrant Information Network maintains
the data for this key indicator.




                                     - 91 -
Per-Day Jail Costs – OFDT

      As described in the PAR, “DOJ acquires detention bed space to house
pretrial detainees through reimbursable Intergovernmental Agreements with
state and local governments and contracts with private vendors.” The OFDT
uses information from the USMS Prisoner Tracking System to calculate the
per-day jail cost. The per-day jail cost is the weighted average of the
“actual price paid (over a 12-month period) by the USMS to house federal
prisoners in non-federal detention facilities.”

Number of Escapes during Confinement in Federal Detention – OFDT

      This key indicator measures the number of detainees that escape from
a federal detention facility. Data for this key indicator is collected in the
USMS Warrant Information Network. This key indicator was discontinued as
of September 30, 2006, and therefore, was not included within the scope of
this audit.

Rate of Assaults in Federal Detention - OFDT

        A federal detainee may need to be held at a state or local facility and
may be combined with other individuals detained in that facility. At times,
combining detainees can cause problems. If an incident occurs, the Jail
Inspector completes a Detention Facility Investigative Report. This report is
used to measure the rate of assaults for federal detainees in non-federal
facilities. This key indicator was discontinued as of September 30, 2006,
and therefore, was not included within the scope of this audit.

System-wide Crowding in Federal Prisons – BOP

      As stated in the PAR, “System-wide [crowding] represents all inmates
in BOP facilities and all rated capacity, including secure and non-secure
(minimum security) facilities, low, medium, and high security levels, as well
as administrative maximum, detention, medical, holdover, and other special
housing unit categories.” This key indicator is measured as the ratio of
inmates held compared to the capacity of the facilities. Data for this key
indicator is collected from several computer systems, the BOP’s online
SENTRY system, and a population forecast model.

Escapes from Secure BOP Facilities – BOP

     This key indicator only measures escapes from secure BOP facilities,
which are administrative institutions and low, medium, and high security



                                     - 92 -
institutions. Data for this key indicator is collected from the BOP’s
Significant Incident Reports completed by the institutions.

Comparative Recidivism Rates for FPI Inmates versus Non-FPI
Inmates – FPI, BOP

      The BOP defines recidivism as “a tendency to relapse into a previous
mode of behavior, such as criminal activity resulting in arrest and
incarceration.” As stated in the PAR, “The Federal Prison Industry’s (FPI)
goal of reducing recidivism is to provide inmates with the opportunity to
become productive, law-abiding citizens after release, through the
development of basic work ethics and job skills training.” The BOP’s Office
of Research and Evaluation receives and analyzes the data for this key
indicator.

Rate of Assaults in Federal Prisons (Assaults per 5,000
Inmates) - BOP

      For this key indicator, “Assaults include both ‘inmate on inmate’ and
‘inmate on staff’ assaults, as well as both serious (100 level) and less
serious (200 level) assaults.” A serious assault is an assault resulting in
major bodily injury or death, while a minor assault does not result in major
bodily injury. Data for this key indicator is collected from the BOP’s online
SENTRY system, and the Chronological Disciplinary Reports.

Inspection Results – Percent of Federal Facilities with American
Correctional Association Accreditations – BOP

       According to the PAR, the BOP “strives to maintain facilities that meet
the accreditation standards of several professional organizations.” BOP
institutions are required to renew their ACA accreditation every 3 years,
although institutions must be accredited within their first 2 years. Therefore,
an institution that is under 2-years old is not required to be accredited and
therefore, does not count toward this key indicator. The BOP receives an
electronic report from the ACA outlining the accreditation results.

Percent of EOIR Priority Cases Completed Within Established Time
Frames – EOIR

      According to the PAR, “The EOIR’s mission is to be the best
administrative tribunal possible, rendering timely, fair, and well considered
decisions in the cases brought before it. . . . Included in this context are the
timely grants of relief from removal in meritorious cases, the expeditious
removal of criminal and other inadmissible aliens, and the effective


                                     - 93 -
utilization of limited detention resources.” Therefore, the EOIR has set
priorities and timeframes for the following proceedings: “court cases
involving criminal aliens, other detained aliens, and those seeking asylum as
a form of relief from removal; and adjudicative time frames for all appeals
filed with the BIA [Board of Immigration Appeals].” The data for this key
indicator is collected in the EOIR’s case tracking system, the Automated
Nationwide System for Immigration Review.




                                   - 94 -
                                                                                                 APPENDIX V

                   FY 2006 KEY INDICATOR NARRATIVE SAMPLE

        Below is a sample key indicator narrative from the FY 2006 PAR.

FY 2008 Outcome Goal: Ensure that no judicial proceedings are interrupted due to inadequate
security
FY 2006 Progress: The Department is on target to achieve this long-term goal.

Background/Program Objectives: The USMS maintains
the integrity of the judicial security process by: 1) ensuring
that each federal judicial facility is secure – physically safe                  Number of Judicial Proceedings
and free from any intrusion intended to subvert court                        Interrupted Due to Inadequate Security
proceedings; 2) guaranteeing that all federal, magistrate,
and bankruptcy judges, prosecutors, witnesses, jurors, and               3
other participants have the ability to conduct uninterrupted
                                                                         2
proceedings; 3) maintaining the custody, protection and
safety of prisoners brought to court for any type of judicial                    1
                                                                         1
proceeding; and 4) limiting opportunities for criminals to                                 0        0          0    0
tamper with evidence or use intimidation, extortion, or                  0
bribery to corrupt judicial proceedings. The number of                         FY03      FY04      FY05      FY06
interrupted judicial proceedings due to inadequate security                             Actual    Target
reflects proceedings that require either removal of the
judge from the courtroom or the addition of USMS Deputy           Data Definition: An interruption occurs when a judge is
Marshals to control a situation.                                  removed as a result of a potentially dangerous incident
                                                                  and/or where proceedings are suspended until the USMS
                                                                  calls on additional deputies to guarantee the safety of the
Performance Measure: Number of Judicial Proceedings               judge, witness, and other participants.
Interrupted Due To Inadequate Security                            Data Collection and Storage: The USMS uses Weekly
        FY 2006 Target: 0                                         Activity Reports and Incident Reports collected at
        FY 2006 Actual: 0                                         Headquarters as the data source.

                                                                  Data Validation and Verification: Before data are
Discussion: In FY 2006 the USMS met its target of zero            disseminated via reports, they are checked and verified by
interrupted proceedings through its continued efforts to          the program managers. These reports are collected
                                                                  manually.
provide adequate security for the federal judicial system.
By accomplishing all aspects of our judicial mission, from        Data Limitations: This measure was not tracked or
                                                                  reported until FY 2003.
screening entry into courthouses to continually updating
security equipment, the USMS is able to achieve its
objectives.




                                                    - 95 -
                                                                        APPENDIX VI

                                    ACRONYMS
    ACRONYM                                        NAME
ACA               American Correctional Association
ADAG/DRUGS        Associate Deputy Attorney General for Drugs
ANSIR             Automated Nationwide System for Immigration Review
ATF               Bureau of Alcohol, Tobacco, Firearms and Explosives
BJA               Bureau of Justice Assistance
BOP               Federal Bureau of Prisons
CASE              Case Access System for EOIR
CCDO              Community Capacity Development Office
CODIS             Combined DNA Index System
CPOT              Consolidated Priority Organization Target
DEA               Drug Enforcement Administration
DOJ               Department of Justice
EOIR              Executive Office for Immigration Review
EOUSA             Executive Office for United States Attorneys
EOUST             Executive Office for United States Trustees
FBI               Federal Bureau of Investigation
FPI               Federal Prison Industries, Inc.
FY                Fiscal Year
GMS               Grant Management System
GPRA              Government Performance and Results Act of 1993
IC3               Internet Crime Complaint Center
III               Interstate Identification Index
IINI              Innocent Images National Initiative
ISRAA             Integrated Statistical Reporting and Analysis Application
JMD               Justice Management Division
JRSA              Justice Research and Statistics Association
KI/SSS            Key Indicators/Storage Support System
MD&A              Management Discussion and Analysis
MIS               Management Information System (OCDETF)
NIJ               National Institute of Justice
NW3C              National White Collar Crime Center
OCDETF            Organized Crime Drug Enforcement Task Force42
OFDT              Office of the Federal Detention Trustee
OJP               Office of Justice Programs
OMB               Office of Management and Budget
PAR               Performance and Accountability Report
PTARRS            Priority Target Activity Resource and Reporting System
PTS               Prisoner Tracking System
RSAT              Residential Substance Abuse Treatment
USMS              United States Marshals Service
USTP              United States Trustee Program
WIN               Warrant Information Network




    42
         OCDETF is a program under the Deputy Attorney General.


                                        - 96 -
         APPENDIX VII




- 97 –
- 98 -
- 99 -
- 100 -
          APPENDIX VIII




- 101 -
- 102 -
          APPENDIX IX




- 103 -
- 104 -
          APPENDIX X




- 105 -
          APPENDIX XI




- 106 -
          APPENDIX XII




- 107 -
- 108 -
          APPENDIX XIII




- 109 -
          APPENDIX XIV




- 110 -
          APPENDIX XV




- 111 -
          APPENDIX
           APPENDIXXVI
                    XV




- 112 -
- 113 -
          APPENDIX XVII




- 114 -
- 115 -
- 116 -
          APPENDIX XVIII




- 117 -
          APPENDIX XIX




- 118 -
- 119 -
- 120 -
          APPENDIX XX




- 121 -
                                                            APPENDIX XXI

                ANALYSIS AND SUMMARY OF ACTIONS
                 NECESSARY TO CLOSE THE REPORT

      We provided a draft audit report to JMD and the 17 DOJ components
included in our audit for review and comment. Each component’s comments
have been incorporated in Appendices XII through XX of this report, which
details the actions taken or plans for implementing our recommendations.
Based on the written comments from the audited components, minor
adjustments were made to the report and the status of the
recommendations is as follows.

1.   Resolved (FBI). This recommendation can be closed when we
     receive documentation supporting that the FBI revised the key
     indicator “Number of Child Pornography Websites or Web Hosts Shut
     Down,” to accurately measure the FBI’s role and activities.

2.   Resolved (FBI). This recommendation can be closed when we
     receive documentation supporting that the FBI developed and
     implemented procedures to ensure that complete and accurate
     information is obtained to report on the key indicator “Number of
     High-Impact Internet Fraud Targets Neutralized,” or revised this key
     indicator.

3.   Closed (Civil Rights Division).

4.   Closed (OJP).

5.   Resolved (OJP). This recommendation can be closed when we
     receive documentation supporting that OJP coordinated with the CCDO
     and used data sets that are limited to sites with data for both years or
     removed the reduction portion from this key indicator and only
     reported on the number of homicides per Weed and Seed site for the
     key indicator “Reduction of Homicides Per Site Funded Under the Weed
     and Seed Program.”

6.   Closed (OJP).

7.   Resolved (OJP). This recommendation can be closed when we
     receive documentation supporting that OJP coordinated with the BJA
     and developed and implemented procedures to ensure that RSAT data
     is accurately reported in the future for the key indicator “Number of
     Participants in the Residential Substance Abuse Treatment Program.”


                                  - 122 –
8.    Resolved (BOP). This recommendation can be closed when we
      receive supporting documentation that the BOP submitted the
      following FY 2007 update to the data collection and storage section of
      the MD&A to the DOJ “Data is gathered from the BOP's operational
      computer system (SENTRY), and is analyzed by the BOP's Office of
      Research and Evaluation” and the following update to the data
      definition section “Recidivism means a tendency to relapse into a
      previous mode of behavior, such as criminal activity resulting in arrest
      and incarceration. The definition of recidivism employed for this
      performance measure is return to BOP custody due to conviction for a
      new offense” for the key indicator “Comparative Recidivism Rates for
      FPI Inmates versus non-FPI Inmates.”

9.    Resolved (BOP). This recommendation can be closed when we
      receive documentation supporting that the BOP disclosed within the
      data limitation section of the PAR the data lag between the time an
      inmate is arrested and when the information is entered into SENTRY
      for the key indicator “Comparative Recidivism Rates for FPI Inmates
      versus non-FPI Inmates.”

10.   Closed (BOP).

11.   Resolved (FBI). This recommendation can be closed when we
      receive documentation supporting that the FBI has examined the
      accuracy of its MD&A narratives covering its key indicators, verified
      supporting information necessary to ensure the accuracy of the key
      indicator performance data, and notified staff of the significant need
      for accuracy of the key indicator information presented in the MD&A
      for the PAR.

      Resolved (EOUSA). This recommendation can be closed when we
      receive documentation supporting that EOUSA has examined the
      accuracy of its MD&A narrative covering its key indicator, verified
      supporting information necessary to ensure the accuracy of the key
      indicator performance data, and notified staff of the significant need
      for accuracy of the key indicator information presented in the MD&A
      for the PAR.

      Resolved (Antitrust Division). This recommendation can be closed
      when we receive documentation supporting that the Antitrust Division
      has examined the accuracy of its MD&A narrative covering its key
      indicator, verified supporting information necessary to ensure the
      accuracy of the key indicator performance data, and notified staff of


                                   - 123 -
the significant need for accuracy of the key indicator information
presented in the MD&A for the PAR.

Resolved (Civil Division). This recommendation can be closed when
we receive documentation supporting that the Civil Division has
examined the accuracy of its MD&A narrative covering its key
indicator, verified supporting information necessary to ensure the
accuracy of the key indicator performance data, and notified staff of
the significant need for accuracy of the key indicator information
presented in the MD&A for the PAR.

Closed (Civil Rights Division).

Resolved (Criminal Division). This recommendation can be closed
when we receive documentation supporting that the Criminal Division
has examined the accuracy of its MD&A narrative covering its key
indicator, verified supporting information necessary to ensure the
accuracy of the key indicator performance data, and notified staff of
the significant need for accuracy of the key indicator information
presented in the MD&A for the PAR.

Resolved (Environment and Natural Resources Division). This
recommendation can be closed when we receive documentation
supporting that the Environment and Natural Resources Division has
examined the accuracy of its MD&A narrative covering its key
indicator, verified supporting information necessary to ensure the
accuracy of the key indicator performance data, and notified staff of
the significant need for accuracy of the key indicator information
presented in the MD&A for the PAR.

Closed (Tax Division).

Resolved (EOUST). This recommendation can be closed when we
receive documentation supporting that the EOUST has examined the
accuracy of its MD&A narrative covering its key indicator, verified
supporting information necessary to ensure the accuracy of the key
indicator performance data, and notified staff of the significant need
for accuracy of the key indicator information presented in the MD&A
for the PAR. However, the EOUST response implies that our report
presentation is misleading because according to EOUST “without
reviewing the audit reporting its entirety, the recommendation
presented by the OIG would leave readers with the impression that
such data validation and integrity issues exist at the USTP.”. We
disagree with this comment as there is no suggestion that further


                             - 124 -
      conditions exist, and we do not believe that a reader would be left with
      an erroneous impression. All conditions are presented in specific
      terms without any implication beyond the audited results.

      Closed (OJP).

      Closed (BOP).

12.   Resolved (JMD). This recommendation can be closed when we
      receive documentation supporting that JMD has prepared and issued a
      formal policy requiring components to provide the supporting
      performance data information with the annual MD&A submission and
      that JMD has developed and implemented procedures for examining
      the performance information submitted by the components in their
      annual MD&As.




                                   - 125 -
